NO.
IN THE SUPREME COURT
OF THE UNITED STATES
COLLEEN REILLY and BECKY BITER,
Petitioners
v.
CITY OF HARRISBURG, HARRISBURG CITY
COUNCIL, and ERIC PAPENFUSE, in his official
capacity as Mayor of Harrisburg,
Respondents
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
PETITION FOR WRIT OF CERTIORARI
Mathew D. Staver, (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

i
QUESTIONS PRESENTED
1.
Whether this Court’s holding in Reed v.
Town of Gilbert, 135 S. Ct. 2218 (2015), that laws
restricting speech on the basis of its function or
purpose are facially content-based, overruled and
replaced this Court’s previous test for content
neutrality set forth in Hill v. Colorado, 530 U.S. 703
(2000).
2.
Whether an Article III court’s use of the
doctrine of constitutional avoidance to impose a
narrowing construction on a content-based
regulation of protected speech that is contrary to the
law’s plain text and the government’s construction,
enforcement, and defense conflicts with this Court’s
binding precedents in United States v. Stevens, 559
U.S. 460, 481 (2010), and Reno v. ACLU, 521 U.S.
844, 884 (1997).
3.
Whether this Court’s holding in
McCullen v. Coakley, 573 U.S. 464, 494 (2014), that
the government must demonstrate it seriously
undertook to address alleged problems with
protected speech by less restrictive tools readily
available to it, requires that the government show,
with a meaningful record, that other less restrictive
alternatives were tried and failed or that such
alternatives were closely examined and ruled out for
good reason, as stated in Bruni v. City of Pittsburgh,
824 F.3d 353 (3d Cir. 2016) [hereinafter Bruni I].

ii
PARTIES
Petitioners are Colleen Reilly and Becky
Biter.
Respondents are the City of Harrisburg,
Harrisburg City Council, and Eric Papenfuse, in his
official capacity as Mayor of Harrisburg.
(Respondents are collectively referred to herein as
“Harrisburg” or the “City.”)
CORPORATE DISCLOSURE STATEMENT
Petitioners are individual residents of the
Commonwealth of Pennsylvania. Neither Petitioner
has a parent corporation nor a publicly held stock
owner.
DIRECTLY RELATED PROCEEDINGS
COLLEEN REILLY; BECKY BITER; ROSALIE
GROSS
v.
CITY
OF
HARRISBURG;
HARRISBURG CITY COUNSEL; MAYOR ERIC
PAPENFUSE, in his official capacity as Mayor of
Harrisburg; Colleen Reilly; Becky Biter,
Appellants, No. 18-2884 (3d Cir. Judgment Oct.
23, 2019)
COLLEEN REILLY; BECKY BITER; ROSALIE
GROSS
v.
CITY
OF
HARRISBURG;
HARRISBURG CITY COUNSEL; MAYOR ERIC
PAPENFUSE, in his official capacity as Mayor of
Harrisburg; Colleen Reilly; Becky Biter,
Appellants, No. 16-3722 (3d Cir. Judgment May
25, 2017)

iii
COLLEEN REILLY, BECKY BITER, and ROSALIE
GROSS, Plaintiffs v. CITY OF HARRISBURG,
HARRISBURG CITY COUNCIL, and ERIC
PAPENFUSE, in his official capacity as Mayor of
Harrisburg, Defendants, No. 1:16-CV-0510
(pending in M.D. Pa.; Order denying Petitioners’
motion for preliminary injunction Aug. 23, 2018)

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ..................................... i
PARTIES .................................................................. ii
CORPORATE DISCLOSURE STATEMENT ......... ii
DIRECTLY RELATED PROCEEDINGS................ ii
TABLE OF CONTENTS ......................................... iv
TABLE OF CITED AUTHORITIES.........................x
DECISIONS BELOW .............................................. 1
JURISDICTION ....................................................... 1
RELEVANT
CONSTITUTIONAL
AND
STATUTORY PROVISIONS ................................... 1
STATEMENT OF THE CASE ................................. 2
REASONS FOR GRANTING THE PETITION ...... 7
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENT ON A QUESTION OF
EXCEPTIONAL
IMPORTANCE
CONCERNING WHETHER A LAW
RESTRICTING SPEECH IS CONTENT
BASED. .......................................................... 7
This Court’s Decisions in Reed v.
Town of Gilbert and McCullen v.
Coakley Expanded the Category of
Content-Based Laws and Overruled

v
or Replaced the Holding in Hill v.
Colorado Regarding Whether a Law
Is Content Based or Content
Neutral. ............................................... 8
Hill held that laws may be
content neutral even if they
require government to review
the content of the speech. ........ 8
Reed
adopted
a
more
exacting standard than Hill
and overruled or replaced
Hill by holding that laws are
facially content based if they
cannot be justified without
reference to the content of the
regulated speech. ................... 10
The Third Circuit’s Decision Below
Conflicts With Reed by Relying on
the Overruled or Replaced Portions
of
Hill’s
Content-Neutrality
Analysis. ............................................ 13
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENTS AND THE PRECEDENTS
OF EVERY OTHER CIRCUIT ON A
QUESTION
OF
EXCEPTIONAL
IMPORTANCE
CONCERNING
WHETHER AN ARTICLE III COURT
MAY
IMPOSE
A
NARROWING
CONSTRUCTION ON A LAW THAT IS
CONTRARY TO THE PLAIN TEXT AND

vi
THE
GOVERNMENT’S
CONSTRUCTION,
ENFORCEMENT,
AND DEFENSE OF THE LAW. ................. 16
This Court’s Precedents Establish
That Article III Courts Are Not
Empowered to Rewrite a Law to
Conform It to the Requirements of
the First Amendment. ...................... 17
The
Circuit
Courts
Have
Universally Held That Article III
Courts Are Not Empowered to
Rewrite a Law to Save It From
Constitutional
Condemnation
Under the First Amendment............ 19
The Third Circuit’s Decision Below
Conflicts
With
This
Court’s
Precedents and the Precedents of
Every Circuit..................................... 21
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENT ON A QUESTION OF
EXCEPTIONAL
IMPORTANCE
CONCERNING
WHETHER
THE
GOVERNMENT MUST DEMONSTRATE
WITH A MEANINGFUL RECORD THAT
LESS RESTRICTIVE ALTERNATIVES
WERE INSUFFICIENT. ............................. 28
This Court’s Precedent in McCullen
Unequivocally Holds That the
Government May Not Rely on Its

vii
Simple, Unproven Assertion That
Less Restrictive Alternatives Are
Insufficient. ....................................... 28
This Court held that it is not
enough for the government
“simply to say that other
approaches
have
not
worked.” .................................. 29
McCullen mandates that the
government demonstrate it
seriously
undertook
to
address the alleged problem
with less intrusive tools or
considered methods that
other
jurisdictions
have
found effective. ....................... 30
The Third Circuit’s Bruni I Decision
Determined McCullen Requires a
Meaningful Record That Less
Restrictive Alternatives Were Tried
and Failed or Were Closely
Examined and Ruled out for Good
Reason. .............................................. 31
The Third Circuit’s Decision Below
Conflicts
With
This
Court’s
Precedent. ......................................... 33
CONCLUSION ....................................................... 35
APPENDIX ............................................................. 1a

viii
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT AFFIRMING DENIAL OF
PETITIONERS’
MOTION
FOR
PRELIMINARY INJUNCTION AGAINST
HARRISBURG
BUFFER
ZONE
ORDINANCE, FILED OCTOBER 23, 2019
(Reilly II) ........................................................... 1a
OPINION OF THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE
DISTRICT
OF
PENNSYLVANIA
DENYING PETITIONERS’ MOTION FOR
PRELIMINARY INJUNCTION AGAINST
HARRISBURG
BUFFER
ZONE
ORDINANCE, FILED AUGUST 23, 2018..... 22a
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT IN BRUNI v. CITY OF
PITTSBURGH AFFIRMING SUMMARY
JUDGMENT AGAINST CHALLENGE TO
PITTSBURGH
BUFFER
ZONE
ORDINANCE, FILED OCTOBER 18, 2019
(Bruni II) ......................................................... 69a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT DENYING PETITION FOR
REHEARING, FILED DECEMBER 3,
2019 ................................................................114a
CITY
OF
HARRISBURG
CODE
CHAPTER 3-371. INTERFERENCE WITH
ACCESS TO HEALTHCARE FACILITIES,

ix
CODIFYING CITY OF HARRISBURG
ORDINANCE NO. 12-2012, FILED
MARCH 24, 2016 ...........................................116a
EXCERPTS
FROM
DEPOSITION
TESTIMONY OF CITY OF HARRISBURG
POLICE CAPTAIN DERIC MOODY,
FILED OCTOBER 28, 2017 ..........................119a
EXCERPTS FROM TRANSCRIPT OF
ORAL ARGUMENT IN THE UNITED
STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT ON MARCH 21, 2017,
FILED OCTOBER 28, 2017 ..........................121a
EXCERPTS
FROM
HARRISBURG
POLICE DISPATCH INCIDENT REPORT
DATED JULY 2, 2014, FILED OCTOBER
28, 2017 ..........................................................124a
EXCERPTS FROM TRANSCRIPT OF
PRELIMINARY INJUNCTION HEARING
IN THE UNITED STATES DISTRICT
COURT FOR THE MIDDLE DISTRICT
OF PENNSYLVANIA ON OCTOBER 31
AND NOVEMBER 1, 2017, FILED
NOVEMBER 21, 2017 ...................................125a

x
TABLE OF CITED AUTHORITIES
Cases
Al Bahlul v. United States, 767 F.3d 1 (D.C. Cir.
2014) .................................................................. 20
Am. Booksellers v. Webb, 919 F.2d 1493 (11th
Cir. 1990)........................................................... 20
Bell v. Keating, 697 F.3d 445 (7th Cir. 2012) ........ 20
Bruni v. City of Pittsburgh, 824 F.3d 353 (3d
Cir. 2016) [Bruni I] .................................... i,31,32
Bruni v. City of Pittsburgh, No. 18-1084,
2019 WL 5281050 (3d Cir. Oct. 18, 2019)
[Bruni II] ........................... 6,12,13,15,22,23,24,27
Citizens for Responsible Gov’t State Political
Action Comm. v. Davidson, 236 F.3d 1174
(10th Cir. 2000) ................................................. 20
City of El Cenizo v. Texas, 890 F.3d 164 (5th Cir.
2018) ..............................................................19,20
Entm’t Prod., Inc. v. Shelby Cnty., 588 F.3d 372
(6th Cir. 2009) ................................................... 20
Erznoznik v. City of Jacksonville, 422 U.S. 205
(1975).............................................................19,26
Hill v. Colorado, 530 U.S. 703
(2000)......................... i,7,8,9,10,11,12,13,14,15,35
Iancu v. Brunetti, 139 S. Ct. 2294 (2019) .............. 18

xi
Madsen v. Women’s Health Center, 512 U.S. 753
(1994)................................................................. 23
McCullen v. Coakley, 134 S. Ct. 2518
(2014)........ i,7,8,10,11,12,28,29,30,31,32,33,34,35
National Institute of Family and Life Advocates
v. Becerra, 138 S. Ct. 2361 (2018) [NIFLA] ..... 13
Newsom ex rel. Newsom v. Albemarle Cnty. Sch.
Bd., 354 F.3d 249 (4th Cir. 2003) ..................... 19
Osborne v. Ohio, 495 U.S. 103 (1990) .................... 19
Planned Parenthood of Cent. N.J. v. Farmer,
220 F.3d 127 (3d Cir. 2000) .............................. 19
Powell’s Books, Inc. v. Kroger, 622 F.3d 1202
(9th Cir. 2010) ................................................... 20
Price v. City of Chicago, 915 F.3d 1107 (7th Cir.
2019) ..............................................................11,12
R.A.V. v. City of St. Paul, 505 U.S. 377 (1992) ..... 18
Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015).................. i,7,8,10,11,12,13,14,16,26,27,35
Reilly v. City of Harrisburg, 858 F.3d 173 (3d
Cir. 2017) [Reilly I] ............................................. 3
Reilly v. City of Harrisburg, 336 F. Supp. 3d 451
(M.D. Pa. 2018) .......................................... passim

xii
Reilly v. City of Harrisburg, No. 18-2884, 2019
WL 5424685 (3d Cir. Oct. 23, 2019)
[Reilly II] .................................................... passim
Reno v. ACLU, 521 U.S. 844 (1997)................ i,18,19
Schenck v. Pro-Choice Network of Western New
York, 519 U.S. 357 (1997) ................................. 23
Telecommunications Reg. Bd. of Puerto Rico v.
CTIA-Wireless Ass’n, 752 F.3d 60 (1st Cir.
2014) .................................................................. 19
United States v. Nat’l Treasury Emps. Union,
513 U.S. 454 (1995)........................................... 18
United States v. Stevens, 559 U.S. 460
(2010)..................................................... i,17,18,26
Vt. Right to Life Comm., Inc. v. Sorrell, 221 F.3d
376 (2d Cir. 2000) ............................................. 19
Va. v. Am. Booksellers Ass’n, Inc., 484 U.S. 383
(1988)................................................................. 18
Wilson v. City of Bel-Nor, 924 F.3d 995 (8th Cir.
2019) .................................................................. 20
Constitutions
U.S. Const. amend. I ....................................... passim
Statutes
28 U.S.C. § 1254 ....................................................... 1
28 U.S.C. § 1292 ....................................................... 1

xiii
28 U.S.C. § 1331 ....................................................... 1
Other Authorities
City of Harrisburg Ordinance No. 12-2012 (City
of Harrisburg Code Chapter 3-371) .......... passim

1
DECISIONS BELOW
The Third Circuit’s opinion affirming the
district court’s denial of Petitioners’ motion for
preliminary injunction is unpublished and available
at Reilly v. City of Harrisburg, No. 18-2884, 2019 WL
5424685 (3d Cir. Oct. 23, 2019) [hereinafter Reilly
II], and is reproduced in the Appendix to this
Petition at pp. 1a–21a.
The district court’s opinion denying
Petitioner’s motion for preliminary injunction is
published and available at Reilly v. City of
Harrisburg, 336 F. Supp. 3d 451 (M.D. Pa. 2018),
and is reproduced in the Appendix to this Petition at
pp. 22a–68a.
JURISDICTION
The Third Circuit issued its decision on
October 23, 2019 and denied rehearing on December
3, 2019. This Court has jurisdiction pursuant to 28
U.S.C. § 1254(1). The Third Circuit had jurisdiction
pursuant to 28 U.S.C. § 1292(a)(1). The Middle
District of Pennsylvania had jurisdiction pursuant
to 28 U.S.C. § 1331.
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
The First Amendment to the United States
Constitution provides, in relevant part, “Congress
shall make no law . . . abridging the freedom of
speech.” U.S. Const. amend. I.

2
City of Harrisburg Ordinance No. 12-2012,
codified at City of Harrisburg Code Chapter 3-371,
Interference with Access to Healthcare Facilities, is
reproduced in the Appendix to this Petition at pp.
116a–118a.
STATEMENT OF THE CASE
Petitioners are individual citizens of the
Commonwealth of Pennsylvania who regularly
engage in protected speech on the public sidewalks
of the City of Harrisburg. (App. 4a, 23a, 128a–129a.)
Petitioners’ speech includes peaceful, one-on-one
sidewalk counseling, prayer, and leafletting outside
of two abortion facilities in Harrisburg, advocating
for the rights of unborn children and offering aid and
assistance to women who may be considering
alternatives to abortion. (App. 4a, 23a, 128a–129a.)
In November 2012, the City of Harrisburg
adopted Ordinance No. 12-2012 (the “Ordinance”),
which was ultimately codified as Harrisburg Code
Chapter 3-371. (App. 2a–3a, 23a–24a, 116a–118a.)
The Ordinance provides, in pertinent part:
No person or persons shall knowingly
congregate,
patrol,
picket
or
demonstrate in a zone extending 20
feet from any portion of an entrance to,
exit from, or driveway of a health care
facility.
(App. 2a–3a, 23a–24a, 116a–118a.)

3
On March 24, 2016, Petitioners challenged
the Ordinance by suing the City of Harrisburg in the
United States District Court for the Middle District
of Pennsylvania. (App. 24a.) Petitioners sought,
inter alia, to enjoin enforcement of the Ordinance on
the grounds that the “buffer zone” it created
infringed their First Amendment rights by
preventing their peaceful expression on the public
sidewalks outside Harrisburg abortion facilities.
(App. 2a, 24a–25a.) Petitioners also filed a motion
for preliminary injunction to prevent the immediate
and irreparable injury to their First Amendment
rights. (App. [a2, a19].) The district court denied
Petitioner’s preliminary injunction motion, Reilly v.
City of Harrisburg, 336 F. Supp. 3d 451, 456 (M.D.
Pa. 2018), and Petitioners appealed to the United
States Court of Appeals for the Third Circuit. (App.
4a–5a.) In that appeal, the Third Circuit reversed
the district court’s denial of preliminary injunctive
relief because the district court had improperly
applied the governing standard by shifting to
Petitioners the City’s burden to prove narrow
tailoring of the Ordinance under the First
Amendment. (App. 4a–5a (citing Reilly v. City of
Harrisburg, 858 F.3d 173 (3d Cir. 2017) [hereinafter
Reilly I]).
On remand, the parties engaged in discovery
and put on evidence during a two-day hearing on
Petitioners’ preliminary injunction motion. (App. 5a,
25a–26a.) The resulting evidentiary record shows
Harrisburg construes, understands, and interprets
the Ordinance to prohibit Petitioners’ peaceful, oneon-one sidewalk counseling and leafletting on the
public sidewalks inside the 20-foot buffer zone. (App.

4
12a n.7, 15a, 36a, 121a–123a, 129a–131a.) The
City’s Solicitor and corporate designee confirmed the
Ordinance applies to conversations “of substance”
within the buffer zone, such that “if two people were
talking about anything of substance . . . they’re
congregating” and violating the Ordinance. (App.
15a, 36a, 129a–131a (emphasis added).) Conversely,
he concluded, “[i]f two people were walking in the
same direction and . . . they’re talking . . . good
morning, good afternoon, whatever, I don’t know if
those people would be considered congregating.”
(App. 36a, 37a, 129a–131a.) Even a sidewalk
counselor’ standing in the buffer zone next to a
woman approaching the facility is prohibited by the
Ordinance, as the City’s designee was “sure” the
Ordinance “prevents them from being in the buffer
zone and doing what they want.” (App. 126a.)
Moreover, the City’s police captain, also testifying as
a corporate designee, confirmed that “merely quietly
engaging in conversation with a patient entering or
leaving” within the buffer zone “would be . . . could
be considered a violation” of the Ordinance. (App.
120a.) Thus, the City construed and interpreted the
Ordinance to prohibit—on the public sidewalk
within the buffer zone—a Petitioner’s walking or
standing with a woman to counsel her on anything
“of substance” (unlawful “congregating”), and
leafletting to communicate alternatives to abortion
(unlawful “demonstrating”).
Furthermore, during oral argument in the
Third Circuit preceding its decision in Reilly I, the
City’s counsel admitted that panhandling and
leafletting for a business would not be covered by the
Ordinance, but that leafletting in opposition to

5
abortion would be prohibited “demonstrating” under
the Ordinance. (App. 121a–123a.) Then, on remand,
the City’s counsel defended the Ordinance as a
sidewalk counseling ban in questioning Petitioner
Biter, pressing to the district court that Biter’s mere
entry into the buffer zone to console a crying
Planned Parenthood patron was a violation of the
Ordinance. (App. 127a–128a.)
Consistent with its admitted construction,
understanding, and interpretation, the City
actually enforced the Ordinance against
Petitioner Reilly’s peaceful, one-on-one sidewalk
counseling and leafletting when Harrisburg police
ordered Reilly to leave the buffer zone while she was
merely “handing out literature and talking to clients
coming into the office”: the police “advised [her] of
the ordinance on protesting . . . and the buffer zone
related to the ordinance,” and “gave [her] a warning
that she would be cited if she violates the ordinance
in the future.” (App. 124a, 128a–129a.)
The evidence developed on remand also
showed there was no meaningful legislative record
of the City’s giving serious consideration to any lessrestrictive alternative to the buffer zone speech
prohibitions. The Ordinance’s legislative record
consisted only of a single, 18-minute discussion of
the Ordinance at a city council meeting, resulting in
12 transcribed pages. (App. 20a n.12, 50a.) And
although the City’s witness at the preliminary
injunction hearing testified that laws preexisting
the Ordinance were not sufficient to address the
City’s supposed problems with abortion facility
access at the time the Ordinance was enacted (App.

6
19a, 47a–50a, 54a), there is no legislative record
demonstrating that the City’s pre-enactment
considerations
included
that
less-restrictive
alternatives—such as enforcing existing laws
against trespass or disturbing the peace, or targeted
injunctions against offenders—were tried and failed,
or that any of these alternatives was closely
examined and then ruled out for good reason. (App.
20a, n.12, 53a–55a, 59a.) To be sure, “[i]t is
uncontested that [state and local trespass,
disturbing the peace, noise, and loitering] statutes
were available to law enforcement at the time the
Ordinance was being considered. It does not appear
that any prosecutions under these statutes were
brought by the City or private citizens.” (App. 53a–
54a.)
On this evidentiary record, the district court
denied Petitioners’ motion for preliminary
injunction. (App. 22a–26a.) On appeal, the Third
Circuit affirmed the district court’s denial of
Petitioners’ motion for preliminary injunction, in
close reliance on its five-day-old decision Bruni v.
City of Pittsburgh, 941 F.3d 73 (3d Cir. 2019)
[hereinafter Bruni II]. (App. 2a, 8a–11a.) The court
held, inter alia, (1) that the Ordinance was not
content based despite officials’ having to review the
content of expression within the buffer zone to
determine whether conversation is “of substance”
and leafletting is not about abortion (App. 14a–16a);
(2) that the Ordinance was subject to a narrowing
construction to exclude coverage of Petitioners’
sidewalk counseling and leafletting, despite the
City’s construction, interpretation, defense, and
actual enforcement of the Ordinance as covering

7
Petitioners’ sidewalk counseling and leafletting
(App. 11a–12A, n.7); and (3) that the City satisfied
its narrow tailoring burden by saying after-the-fact,
at the preliminary injunction hearing, that lessrestrictive alternatives to the Ordinance’s speech
restrictions would not have worked, but without any
meaningful legislative record at the time of
enactment that less-restrictive alternatives were
tried and failed or were closely considered and ruled
out for good reason (App. 8a–21a, nn. 12, 13).
As shown herein, the answer to each of the
Questions Presented (supra p. i) is “yes,” and the
Court should grant the Petition.
REASONS FOR GRANTING THE PETITION
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENT ON A QUESTION OF
EXCEPTIONAL
IMPORTANCE
CONCERNING WHETHER A LAW
RESTRICTING SPEECH IS CONTENT
BASED.
This Court’s Decisions in Reed v. Town of
Gilbert, 135 S. Ct. 2218 (2015), and McCullen v.
Coakley, 573 U.S. 464 (2014), expanded the category
of content-based laws and overruled or replaced the
holding in Hill v. Colorado, 530 U.S. 703 (2000),
regarding whether a law is content based or content
neutral. The Third Circuit’s decision below conflicts
with Reed by relying on the overruled or replaced
portions of Hill’s content-neutrality analysis.

8
This Court’s Decisions in Reed v.
Town of Gilbert and McCullen v.
Coakley Expanded the Category of
Content-Based
Laws
and
Overruled or Replaced the Holding
in Hill v. Colorado Regarding
Whether a Law Is Content Based or
Content Neutral.
Hill held that laws may be
content neutral even if they
require
government
to
review the content of the
speech.
In Hill, the challengers alleged a restriction
on speech in a traditional public forum was content
based because government officials were required to
examine the content of an individual’s statements to
determine whether the statute restricted such
communications. 530 U.S. at 720 (“Because the
content of the oral statements made by an
approaching speaker must sometimes be examined
to determine whether the knowing approach is
covered by the statute, petitioners argue that the
law is ‘content based.’”). In determining whether the
challenged restriction on speech was content based
or content neutral, Hill noted that “[i]t is common in
the law to examine the content of a communication
to determine the speaker’s purpose.” Id. at 721. The
Court then stated that it had “never held, or
suggested, that it is improper to look at the content
of an oral or written statement in order to determine
whether a rule of law applies.” Id. Moreover, Hill
said it was not constitutionally problematic when

9
“cursory examination” of the content of the speech
being expressed “might be required to exclude casual
conversation from the coverage of a regulation of
picketing.” Id. at 722. Thus, Hill stood for the
proposition that a law which is content neutral on its
face does not become content based simply by virtue
of the government’s needing to review the content of
the speech to determine whether a speech restriction
applies.
Hill also recognized another reason for
recognizing a speech-restrictive law as content
neutral even though it requires examination of the
content of a message: where the government
justifies the law because of “[t]he unwilling listener’s
interest in avoiding unwanted communication,” not
because of disagreement with the message conveyed.
Id. at 716.
The content-neutrality analysis articulated in
Hill was, thus, twofold: (1) a speech-restrictive law
is not content based simply because the government
officials tasked with enforcing it must look at the
content of the message to determine whether the
restriction applies, and (2) a speech-restrictive law
is not content based when the government’s purpose
in adopting it was to protect against problematic
listener reaction. Id. at 716, 722.

10
Reed
adopted
a
more
exacting standard than Hill
and overruled or replaced
Hill by holding that laws are
facially content based if they
cannot be justified without
reference to the content of
the regulated speech.
The first constitutional nail in the coffin of
Hill’s content-neutrality analysis came in McCullen.
There, this Court held that Hill’s first step in the
content neutrality analysis was plainly incorrect.
573 U.S. at 479. In fact, the Court stated a speechrestrictive law “would be content based if it
required ‘enforcement authorities’ to ‘examine
the content of the message conveyed to
determine whether’ a violation has occurred.”
Id. (emphasis added). Thus, McCullen explicitly
rejected the first step of Hill’s content-neutrality
analysis.
This Court’s decision in Reed then eviscerated
and overruled the remaining aspects of Hill’s
content-neutrality analysis and expanded the
category of speech-restrictive laws that qualify as
content based. There, the Court rejected the entire
framework from Hill and articulated a new standard
for defining content-based laws with two branches.
First, a law “is content based if a law applies to
particular speech because of the topic discussed or
the idea or message expressed.” Id. at 2227. Indeed,
[s]ome facial distinctions based on a
message
are
obvious,
defining

11
regulated speech by a particular
subject matter, and others are more
subtle, defining regulated speech
by its function or purpose. Both are
distinctions drawn based on the
message a speaker conveys . . . .
Id. (emphasis added). Including, as content-based
speech restrictions, laws that define speech by
function or purpose is a rejection of Hill’s contrary
holding.
Second, Reed identified from this Court’s
precedents “a separate and additional category
of laws that, though facially content neutral, will
be considered content-based regulations of
speech: laws that cannot be justified without
reference to the content of the regulated
speech . . . .” Id. (emphasis added) (internal
quotation marks omitted). This, too, was a rejection
of Hill, recognizing that Hill was plainly incorrect in
holding that a law can be content neutral even if
enforcement authorities must review the content of
the speech to determine the law’s applicability.
Federal courts have recognized that this
Court’s decision in Hill is no longer valid post-Reed.
As the Seventh Circuit concluded, “Hill is
incompatible with current First Amendment
doctrine as explained in Reed and McCullen.”
Price v. City of Chicago, 915 F.3d 1107, 1117 (7th
Cir. 2019) (emphasis added). The Price court
explained, “Hill started from the premise that the
principle inquiry in determining content neutrality
is whether the government has adopted a regulation

12
of speech because of disagreement with the message
it conveys. After Reed that’s no longer correct.” Id.
(internal quotation marks and citation omitted).
Indeed, “[i]n the wake of McCullen and Reed, it’s
not too strong to say that what Hill explicitly
rejected is now prevailing law.” Id. at 1118
(emphasis added).
Circuit Judge Hardiman, in his concurrence
in Bruni II, likewise concluded that Reed has
overruled and replaced this Court’s decision in Hill:
“The continued vitality of [Hill’s] content neutrality
analysis is questionable after Reed. In cases like Hill
. . . the government’s purpose was the threshold
consideration.” 941 F.3d at 93 (Hardiman, J.,
concurring) (internal quotation marks and citations
omitted).
Reed adopted [a different] test for
content neutrality. It held that a law
that is content based on its face is
subject to strict scrutiny regardless of
the government’s benign motive,
content-neutral justification, or lack of
animus toward the ideas contained in
the regulated speech. By doing so,
Reed overturned the standard that
the Court had previously used to
resolve a particular class of
cases—a class that includes cases
like this one and Hill. In fact, Reed
rebuked Hill several times: by noting
that the errant Court of Appeals relied
on it, and by favorably citing dissents

13
in Hill authored by Justices Scalia and
Kennedy.
Reed also seems to have expanded
the types of laws that are facially
content based.
Id. (emphasis added) (internal quotation marks and
citations omitted). Indeed, “laws once held content
neutral because of purpose may well be facially
content based after Reed.” Id. at 94.
Finally, this Court, in National Institute of
Family
and
Life
Advocates
v.
Becerra,
138 S. Ct. 2361 (2018) [hereinafter NIFLA],
confirmed
Reed’s
“stringent
standard”
as
“reflect[ing] the fundamental principle that
governments have no power to restrict expression
because of its message, its ideas, its subject matter,
or its content.” 138 S. Ct. at 2371 (internal quotation
marks omitted).
The Third Circuit’s Decision Below
Conflicts With Reed by Relying on
the
Overruled
or
Replaced
Portions
of
Hill’s
ContentNeutrality Analysis.
The Third Circuit’s decision below is in direct
conflict with Reed’s articulation of the content
neutrality test. By its terms, the Ordinance is
content based because it “regulates speech by its
function or purpose.” Compare (App. 117a
(prohibiting only speech involving, e.g., “picket[ing]”
or “demonstrat[ing]”), with Reed, 135 S. Ct. at 2227

14
(holding that speech restrictions “defining speech by
function or purpose” is a distinction “drawn based on
the message the speech conveys”). Thus, under the
Ordinance’s plain terms, speech whose function or
purpose is to “demonstrate” or “picket” is prohibited,
while speech whose function or purpose is to
communicate something else is not prohibited.
How is a government official tasked with
enforcing the Ordinance to know whether a certain
speaker is intending to “demonstrate” or “picket”
something without reviewing the specific content of
the speech? The simple answer is they cannot. To
determine whether a certain speaker is
demonstrating or picketing the government official
must—by necessity—consider the content of the
message being conveyed. And as Reed made clear, a
law is content based if it “cannot be justified without
reference to the content of the regulated speech.” Id.
In the proceedings below, the City candidly
admitted that speakers are in violation of the terms
of the Ordinance if they are “talking about anything
of substance.” (App. 15a, 36a, 129a–131a.)
Conversely, the City stated that “[i]f two people were
walking in the same direction and . . . they’re talking
. . . good morning, good afternoon, whatever, I don’t
know if those people would be considered
congregating by any definition.” (App. 37a, 129a–
131a.) Both the Third Circuit, and the district court
before it, concluded that such admissions did not
render the Ordinance content based. (App. 15a, 37–
38a.) To support those conclusions the they relied on
the obsolete Hill notion that requiring a cursory
examination of the content of speech is not enough

15
to make an Ordinance content based. (App. 14a–15a
(citing Bruni II, in turn relying on Hill)]; 37a.) Those
conclusions are directly counter to Reed’s
articulation of the content-neutrality standard.
Logically, a police officer cannot tell whether a
discussion is “of substance” or whether a leaflet is
about abortion, without inspecting the content of the
communication. If even this requirement does not
render the Ordinance a content-based restriction,
then that term has no meaning.
The Third Circuit’s affirmance of the district
court’s narrowing construction (infra pt. II) avoided
engaging (as moot) the district court’s conclusion
that police officers could objectively determine
Ordinance violations without considering the
content of sidewalk speech within the buffer zone.
(App. 15a.) This avoidance left unchecked the
district
court’s
demonstrably
incorrect
interpretation of the Ordinance’s “demonstrat[ing]”
and “picket[ing]” bans to only apply to “people
marching up and down the street with banners and
bullhorns,” or “protest[s] or assault[s],” while
permitting “calm pamphleting by an individual” and
“normal social interaction.” (App. 37a.) Whether
police officers could make such distinctions between
extremes, however, is irrelevant because of the
undisputed evidence that the Ordinance—as
interpreted and actually enforced by the City covers
even “calm pamphleting” and quiet conversation of
substance, particularly about abortion. (App. 15a,
36a, 129a–131a.)
Put simply, the Ordinance’s plain text and
persistent interpretation by the City’s officials

16
tasked with interpreting and enforcing it provide no
explanation as to how one can know whether
sidewalk speech in the buffer zone is covered
without knowing exactly what is being said. Indeed,
there is no way to tell the difference between
“normal social interaction” (e.g., talking politely and
calmly) about insubstantial matters, such as the
weather or football scores, which is permitted, and
equally polite and calm discussion “of substance”
(e.g., abortion alternatives), which is prohibited,
without examining the content of the speech. And,
as Reed unequivocally teaches, “laws that cannot be
justified without reference to the content of the
regulated speech,” “will be considered content-based
regulations of speech.” Reed, 135 S. Ct. at 2227
(internal quotation marks omitted). Thus, the Third
Circuit’s decision is plainly in conflict with Reed and
begs this Court’s review.
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENTS AND THE PRECEDENTS
OF EVERY OTHER CIRCUIT ON A
QUESTION
OF
EXCEPTIONAL
IMPORTANCE
CONCERNING
WHETHER AN ARTICLE III COURT
MAY
IMPOSE
A
NARROWING
CONSTRUCTION ON A LAW THAT IS
CONTRARY TO THE PLAIN TEXT AND
THE
GOVERNMENT’S
CONSTRUCTION,
ENFORCEMENT,
AND DEFENSE OF THE LAW.
This Court’s precedents establish that Article
III courts are not empowered to rewrite a law to

17
conform it to the requirements of the First
Amendment. Likewise, the circuit courts have
universally recognized that Article III courts are not
empowered to rewrite a law to save it from
constitutional invalidation under the First
Amendment. Thus, the Third Circuit’s decision
below conflicts with this Court’s precedents and the
precedents of every other circuit.
This Court’s Precedents Establish
That Article III Courts Are Not
Empowered to Rewrite a Law to
Conform It to the Requirements of
the First Amendment.
Time and again this Court has held that
Article III courts are not empowered to rewrite a law
restricting protected speech to narrow it into
compliance with the First Amendment. In United
States v. Stevens, 559 U.S. 460 (2010), the Court
stated plainly that “[t]his Court may impose a
limiting construction on a statute only if it is readily
susceptible to such a construction. We will not
rewrite a law to conform it to constitutional
requirements.” 559 U.S. at 481 (emphasis added)
(internal quotation marks and citations omitted).
Indeed, the Court noted that rewriting a law to save
it from constitutional condemnation “would
constitute a serious invasion of the legislative
domain and sharply diminish [the government’s]
incentive to draft a narrowly tailored law in the first
place.” Id. (internal quotation marks and citations
omitted).

18
In Reno v. ACLU, 521 U.S. 844 (1997), this
Court likewise held that Article III courts are
severely limited in their ability construe a statute
narrowly when doing so would constitute a
legislative rewriting by judicial fiat. Like the Court
would later confirm in Stevens, the Reno Court
explicitly stated that “[t]his Court will not rewrite a
law to conform it to constitutional requirements.”
521 U.S. at 884–85 (internal quotation marks
omitted). The Court explained further that Article
III courts should decline “to draw one or more lines
between categories of speech covered by an overly
broad statute, when [the government] has sent
inconsistent signals as to where the new line or lines
should be drawn.” Id. at 884 (internal quotation
marks omitted). The Court so held because “doing so
‘involves a far more serious invasion of the
legislative domain.’” Id.
While Reno and Stevens are clear
articulations of this plain rule, they are certainly not
the only such pronouncements by this Court. See,
e.g., Iancu v. Brunetti, 139 S. Ct. 2294, 2301 (2019)
(“‘We will not rewrite a law to conform it to
constitutional requirements.’”); R.A.V. v. City of St.
Paul, 505 U.S. 377, 412 n.12 (1992) (White, J.,
concurring) (same); Va. v. Am. Booksellers Ass’n,
Inc., 484 U.S. 383, 397 (1988) (“The key to
application of this principle is that a statute must be
‘readily susceptible’ to the limitation; we will not
rewrite a state law to conform it to
constitutional
requirements.”
(emphasis
added)); United States v. Nat’l Treasury Emps.
Union, 513 U.S. 454, 479 (1995) (noting the Court’s
“obligation to avoid judicial legislation” and refusing

19
to “redraft the statute to limit its coverage”); id. (“We
believe the Court of Appeals properly left to
Congress the task of drafting a narrower statute.”);
Erznoznik v. City of Jacksonville, 422 U.S. 205, 216
& n.15 (1975) (refusing to apply a limiting
construction on a statute “because a rewriting of the
ordinance would be necessary to reach that result”);
Osborne v. Ohio, 495 U.S. 103, 121 (1990) (refusing
to rewrite a speech-restrictive statute because
“careless drafting cannot be considered to be cost
free based on the power of the courts to eliminate
overbreadth”).
The
Circuit
Courts
Have
Universally Held That Article III
Courts Are Not Empowered to
Rewrite a Law to Save It From
Constitutional
Condemnation
Under the First Amendment.
Based
on
this
Court’s
unequivocal
condemnation of the judicial rewriting of statutes to
save them from constitutional demise, the circuit
courts are universally in agreement that Article III
courts
lack
such
authority.
See,
e.g.,
Telecommunications Reg. Bd. of Puerto Rico v.
CTIA-Wireless Ass’n, 752 F.3d 60, 63 n.2 (1st Cir.
2014) (“‘This Court will not rewrite a law to conform
it to constitutional requirements.’” (quoting Reno v.
ACLU, 521 U.S. 844, 884–85 (1997)); Vt. Right to
Life Comm., Inc. v. Sorrell, 221 F.3d 376, 386 (2d Cir.
2000) (same); Planned Parenthood of Cent. N.J. v.
Farmer, 220 F.3d 127, 136 (3d Cir. 2000) (same);
Newsom ex rel. Newsom v. Albemarle Cnty. Sch. Bd.,
354 F.3d 249, 258 (4th Cir. 2003) (same); City of El

20
Cenizo v. Texas, 890 F.3d 164, 182 (5th Cir. 2018)
(“[A] court has no authority to rewrite a law to
conform it to constitutional requirements . . . .”
(emphasis added) (internal quotation marks
omitted)); Entm’t Prod., Inc. v. Shelby Cnty., 588
F.3d 372, 386 (6th Cir. 2009) (same); Bell v. Keating,
697 F.3d 445, 456 (7th Cir. 2012) (same); Wilson v.
City of Bel-Nor, 924 F.3d 995, 1004 (8th Cir. 2019)
(same); Powell’s Books, Inc. v. Kroger, 622 F.3d 1202,
1215 (9th Cir. 2010) (“[W]e . . . do not ‘insert missing
terms into the statute or adopt an interpretation
precluded by the plain language of the ordinance.’
We may not ‘rewrite a state law to conform it to
constitutional requirements.’” (citations omitted));
Citizens for Responsible Gov’t State Political Action
Comm. v. Davidson, 236 F.3d 1174, 1194 (10th Cir.
2000) (“[W]e will not rewrite a state law to conform it
to constitutional requirements. . . . To rewrite
statutes in this manner would exceed the power and
function of the court . . . .”); Am. Booksellers v. Webb,
919 F.2d 1493, 1500 (11th Cir. 1990) (explaining the
court’s “twin obligations to (1) construe the statute
narrowly, (2) without rewriting its terms”); Al
Bahlul v. United States, 767 F.3d 1, 16 (D.C. Cir.
2014) (“If judicial inquiry reveals that the Congress
was mistaken, it is not our task to rewrite the
statute to conform with the actual state of the law
but rather to strike it down insofar as the Congress’s
mistake renders the statute unconstitutional. The
constitutional
avoidance
canon
is
an
interpretive aid, not an invitation to rewrite
statutes to satisfy constitutional strictures.”
(emphasis added) (internal quotation marks and
citation omitted)).

21
As these cases make clear, the circuit courts
are universally in agreement that the doctrine of
constitutional avoidance does not permit an Article
III court to rewrite a statute infringing First
Amendment rights to save it from constitutional
invalidation.
The Third Circuit’s Decision Below
Conflicts
With
This
Court’s
Precedents and the Precedents of
Every Circuit.
The Third Circuit’s ostensible narrowing
interpretation of the Ordinance, to exclude one-onone sidewalk counseling, conflicts with the above
precedents
and
violates
the
doctrine
of
constitutional avoidance because it essentially
rewrites the Ordinance. Given the Ordinance’s plain
language, Harrisburg’s interpretation, actual
enforcement, and defense of the Ordinance, and the
realities of Petitioners’ sidewalk counseling, the
Ordinance is not readily susceptible to the
narrowing construction imposed by the Third
Circuit below, which constitutes a judicial rewriting
of the Ordinance to conform it to constitutional
requirements. The Third Circuit plainly lacked
authority to usurp Harrisburg’s legislative function.
The plain text of the Ordinance and the City’s
construction, interpretation, and actual enforcement
and defense of the Ordinance are directly contrary
to the Third Circuit’s narrowing construction.
Harrisburg actually enforced the Ordinance against
Petitioner Reilly’s peaceful sidewalk counseling and

22
leafletting in a traditional public forum.1 (App. 124a,
128a–129a.) In fact, Harrisburg intended the
Ordinance to prohibit sidewalk counseling in the
buffer zone, admitted that it was intended to cover
peaceful sidewalk counseling, and defended the
Ordinance as a sidewalk counseling prohibition in
the Third Circuit and the district court. (App. 12a
n.7, 15a, 36a, 121a–123a, 127a–131a.) The City
never argued that the Ordinance could be saved
from unconstitutionality by construing it to allow
one-on-one counseling, because such a narrowing
construction (i.e., judicial rewrite) obviously would
have been directly contrary to its stated purpose and
actual enforcement.
The Third Circuit, however, found none of
these considerations relevant when adopting the
district court’s conjuring of a new and legislatively
unknown version of the Ordinance. The Third
Circuit acquiesced that the terms “‘congregate,’
‘patrol,’ ‘picket,’ and ‘demonstrate’ do not cover
peaceful one-on-one conversations or leafletting.”
(App. 11a–12a (citing Bruni II). But, the court
offered no explanation as to why that conclusion was
Neither the Third Circuit nor the district court
discussed Harrisburg’s actual enforcement of the Ordinance
against Petitioner Reilly’s sidewalk counseling and leafletting.
The Third Circuit’s disregard of Harrisburg’s actual
enforcement is particularly significant because the court
handcuffed its Reilly II conclusion—that Harrisburg’s own
interpretation of its Ordinance is not dispositive—to its Bruni
II analysis (App. 12a n.7 (citing Bruni II, App. 89a n.14)), but
in Bruni II the court noted that Pittsburgh’s interpretation of
its ordinance was only an assumption because there had
been no enforcement. (App. 87a, n.12).
1

23
merited by the terms of the Ordinance or how it
could ever be reconciled with the City’s actual
enforcement of it. In fact, the Third Circuit plainly
recognized that “the City asserts that the
Ordinance
covers
Plaintiffs’
sidewalk
counseling.” (App. 12a n.7 (emphasis added)). If
the legislative drafters of the Ordinance and the
officials tasked with enforcing it candidly admit that
the Ordinance applies to the speech that the Third
Circuit simply excluded from the reach of the plain
language, an improper judicial rewriting has
unquestionably occurred.
Furthermore, the Third Circuit’s conclusion
that the Ordinance’s plain terms do not encompass
peaceful sidewalk counseling is itself directly
contrary to this Court’s precedents construing the
terms picketing, demonstrating, congregating, and
patrolling to include such peaceful speech. See, e.g.,
Madsen v. Women’s Health Center, 512 U.S. 753, 768
775 (1994) (teaching that a ban on “congregating,”
“picketing,” “patrolling,” and “demonstrating”
applies to the peaceful sidewalk counseling and
speech in a traditional public forum); Schenck v. ProChoice Network of W. New York, 519 U.S. 357, 367
(1997) (same).
Judge Hardiman’s concurrence in the Third
Circuit’s Bruni II highlights the inadequacy of the
narrowing construction in light of the realities of
Petitioners’ sidewalk counseling, which they do as a
team:
We hold that “[b]ecause the Ordinance,
as properly interpreted, does not

24
extend to sidewalk counseling—or any
other calm and peaceful one-on-one
conversations,” the City cannot
examine the content of a conversation
to decide whether a violation has
occurred. It will instead examine, for
example, decibel level, the distance
between persons, the number of
persons, the flow of traffic, and other
things usually unrelated to the content
or intent of speech.
....
. . . Our decision today clarifies that the
words “congregate” and “patrol”
address conduct—the assembly of
people in one place or the action of
pacing back and forth.
Bruni II, 941 F.3d at 94–95 (Hardiman, J.,
concurring) (emphasis added). (App. 111a–113a.)
For Petitioners, however, their speech and
“conduct” cannot be so easily separated. How many
members of Petitioners’ team may assemble on the
70 feet of public sidewalk in front of Planned
Parenthood, in the buffer zone, in between their oneon-one conversations—and how close to one
another—before they are “congregating?” How many
sidewalk counselors may enter the buffer zone at
once to engage in one-on-one conversations when
more than one patron is present, before they are
“congregating?” If a pair of sidewalk counselors
engage a patron, or each other, in normal

25
conversation inside the buffer zone, are they
“congregating” in violation of the Ordinance? If a
sidewalk counselor traverses the sidewalk inside the
buffer zone to engage in one-on-one conversations,
multiple times in a day, is she “patrolling” in
violation of the ordinance? What if she keeps moving
within the buffer zone to avoid “congregating”—is
she “patrolling” then? The foregoing are not merely
hypothetical; they are inherent in the realities of
Petitioners’ sidewalk counseling as part of a team.
Thus, the Third Circuit’s rewriting of the Ordinance
ostensibly solved one constitutional problem (oneon-one sidewalk counseling by a lone sidewalk
counselor), but nowhere near all of the Ordinance’s
constitutional problems; indeed, the panel’s
interpretation created more questions than it
answered. Such continuing problems demonstrate
the plain flaws of judicial redrafting of laws
restricting speech, particularly when such
redrafting conflicts with the actual enforcement of
the Ordinance by government authorities.
And given Harrisburg’s strident defense of
the Ordinance as a sidewalk counseling prohibition,
Petitioners cannot depend on the City to give them
room to speak. The Third Circuit all but invited the
City to reinterpret the Ordinance even now to
prohibit more than one sidewalk counselor at a time.
(App. 21a n.14 (“We recognize that the City could
have a legitimate concern . . . if there are multiple
one-on-one conversations . . . The city may then
have occasion to revisit the terms of the
Ordinance . . . .”) (emphasis added)).

26
To be sure, this Court in United States v.
Stevens cautioned against putting faith in
prosecutorial restraint by the government under an
overbroad statute. See 559 U.S. at 480 (“[T]he First
Amendment protects against the Government . . . .
We would not uphold an unconstitutional statute
merely because the Government promised to use it
responsibly.”). “[P]articularly where as here [the
government] offers several distinct justifications for
the ordinance in its broadest terms, there is no
reason to assume that the ordinance can or will be
decisively narrowed.” Erznoznik, 422 U.S. at 217. In
Reed, this Court articulated this mistrust in
unequivocal terms:
Innocent motives do not eliminate the
danger of censorship presented by a
facially content-based statute, as
future government officials may
one day wield such statutes to
suppress disfavored speech. That is
why the First Amendment expressly
targets the operation of the laws—i.e.,
the abridgement of speech—rather
than merely the motives of those who
enacted them. The vice of contentbased legislation is not that it is always
used for invidious, thought-control
purposes, but that it lends itself to
use for those purposes.
....
[W]e have repeatedly rejected the
argument
that
discriminatory

27
treatment is suspect under the First
Amendment only when the legislature
intends to suppress certain ideas.
135 S. Ct. at 2229 (emphasis added).
Thus, even under the panel’s narrowing
construction, Petitioners’ legitimate expression will
continue to be deterred because of the Ordinance’s
continuing overbreadth, and because of the new
vagueness introduced by the decision below. Absent
a narrowing construction that solves all
constitutional problems—a construction both the
Third Circuit and Judge Hardiman’s concurrence in
Bruni II admit the court has not given—
constitutional avoidance is inappropriate in this
case. Moreover, even if the Ordinance were
susceptible to a narrowing construction, which—
given the plain language and the City’s
interpretation, enforcement, and defense of the
Ordinance—it is not, a complete judicial redrafting
of an Ordinance is directly contrary to this Court’s
unequivocal precedents.

28
THE THIRD CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
PRECEDENT ON A QUESTION OF
EXCEPTIONAL
IMPORTANCE
CONCERNING
WHETHER
THE
GOVERNMENT MUST DEMONSTRATE
WITH A MEANINGFUL RECORD THAT
LESS RESTRICTIVE ALTERNATIVES
WERE INSUFFICIENT.
This Court’s precedent in McCullen v.
Coakley, 573 U.S. 464 (2014), unequivocally holds
that the government may not rely on its simple,
unproven assertion that less-restrictive alternatives
are insufficient. Indeed, the Third Circuit’s Bruni I
decision
determined
McCullen
requires
a
meaningful record that less restrictive alternatives
were tried and failed or were closely examined and
ruled out for good reason. The Third Circuit’s
decision below conflicts with this Court’s (and its
own) precedent.
This
Court’s
Precedent
in
McCullen Unequivocally Holds
That the Government May Not
Rely on Its Simple, Unproven
Assertion That Less Restrictive
Alternatives Are Insufficient.
In McCullen, this Court provided new
clarification
for
determining
whether
the
government has sufficiently narrowly tailored a law
restricting protected speech. There, the Court made
clear that the government’s mere statements
concerning other alternatives being inadequate do

29
not satisfy the demands of the First Amendment.
573 U.S. at 486. Additionally, the Court held that
the First Amendment demands that the government
seriously undertake to address a purported problem
with mechanisms as nonintrusive to speech as
possible. Id.
This Court held that it is not
enough for the government
“simply to say that other
approaches
have
not
worked.”
As McCullen made clear, the First
Amendment does not grant the government license
“to regulate problems that do not exist.” 573 U.S. at
481. Indeed, “[w]hen selecting among various
options for combatting a particular problem,
legislatures should be encouraged to choose the one
that restricts less speech, not more.” Id. at 482.
The tailoring requirement does not
simply guard against an impermissible
desire to censor. The government may
attempt to suppress speech not only
because it disagrees with the message
being expressed, but also for mere
convenience. Where certain speech is
associated with particular problems,
silencing the speech is sometimes the
path of least resistance. But by
demanding a close fit between ends and
means, the tailoring requirement
prevents the government from too

30
readily
“sacrific[ing]
efficiency.”

speech

for

Id. at 486 (modification in original).
Thus, to satisfy the burden of narrow
tailoring, the government must demonstrate that it
has not “too readily foregone options that could serve
its interests just as well, without substantially
burdening the kind of speech in which petitioners
wish to engage.” Id. at 490. To that end, this Court
made clear that the government’s mere ipse dixit is
not enough to satisfy this burden. Indeed, “[g]iven
the vital First Amendment interests at stake, it is
not enough for [the government] simply to say
that other approaches have not worked.” Id. at
496.
McCullen mandates that the
government demonstrate it
seriously
undertook
to
address the alleged problem
with less intrusive tools or
considered methods that
other
jurisdictions
have
found effective.
In addition to refusing to take the government
at its word in the area of cherished First
Amendment freedoms, McCullen also announced a
new requirement for the government when adopting
speech-restrictive legislation: the government must
“show[] that it seriously undertook to address the
problem with less intrusive tools readily available to
it.” 573 U.S. at 494. Additionally, prior to enacting

31
burdensome restrictions on speech in a traditional
public forum, the government must “show[] that it
considered
different
methods
that
other
jurisdictions had found effective.” Id. Indeed, “[t]o
meet the requirement of narrow tailoring, the
government must demonstrate that alternative
measures that burden substantially less speech
would fail to achieve the government’s interests, not
simply that the chosen route is easier.” Id. at 495.
Simply put, “the prime objective of the First
Amendment is not efficiency.” Id.
The Third Circuit’s Bruni I
Decision Determined McCullen
Requires a Meaningful Record
That Less Restrictive Alternatives
Were Tried and Failed or Were
Closely Examined and Ruled out
for Good Reason.
The Third Circuit reviewed Pittsburgh’s
similar buffer zone ordinance in Bruni v. City of
Pittsburgh, 824 F.3d 353 (3d Cir. 2016) [Bruni I].
There, the court noted that “[b]ecause of the
significant burden on speech that the Ordinance
allegedly imposes, the City has the same obligation
to use less restrictive alternatives to its buffer zone
as the Commonwealth of Massachusetts had with
respect to the buffer zone at issue in McCullen.” 824
F.3d at 369. To satisfy that burden post-McCullen,
the Third Circuit stated that the government “must,
in some meaningful way ‘demonstrate that
alternative measures that burden less speech would
fail to achieve the government’s interest.’” Id.
(quoting McCullen, 573 U.S. at 494) (emphasis

32
added). To meet McCullen’s newly articulated
narrow tailoring standard, the court held that the
government
“would
have
to
show
that
substantially less-restrictive alternatives were
tried and failed, or that the alternatives were
closely examined and ruled out for good
reason.” Id. at 370 (emphasis added). Indeed, the
government
cannot
forgo
less
restrictive
alternatives “without a meaningful record
demonstrating that those options would fail to
alleviate the problems meant to be addressed.” Id. at
371.
McCullen required the sovereign to
justify its regulation of political speech
by describing the efforts it had made to
address the government interests at
stake by substantially less-restrictive
methods or by showing that it seriously
considered and reasonably rejected
“different
methods
that
other
jurisdictions have found effective.”
Id. This Court’s McCullen decision, thus,
“represents an important clarification of the
rigorous and fact-intensive nature of intermediate
scrutiny’s narrow-tailoring analysis, and the
decision is sufficient to call into question [previous
precedent].” Id. at 372–73.
As the Third Circuit stated, “[t]he existence of
those substantially less burdensome alternatives
obligates the City to try them or consider
them. Again, that is not our requirement. It is the
Supreme Court’s.” Id. at 370 n.17 (emphasis added).

33
Anything less would be merely taking the
government’s word for it, which is constitutionally
impermissible under McCullen.
The Third Circuit’s Decision Below
Conflicts
With
This
Court’s
Precedent.
The Third Circuit’s decision below ran
roughshod over this Court’s clear holding in
McCullen. In the record below, Harrisburg’s only
evidence
even
suggesting—much
less
demonstrating—that it considered less restrictive
alternatives was a “12-page transcript of the only
council meeting where the Ordinance was
substantively discussed.” (App. 20a n.12.) The Third
Circuit, however, concluded that a meaningful
legislative record was unnecessary because the
government “is not required to produce all available
evidence and consider alternatives at a single,
recorded hearing before taking action.” (App. 20a
n.12.) But, if the only hearing at which the
Ordinance was considered, discussed, debated, and
approved lacked even a pretextual discussion of
potential alternatives, how can the government
satisfy McCullen’s requirement that it demonstrate
it has not “too readily foregone options that could
serve its interests just as well, without substantially
burdening the kind of speech in which petitioners
wish to engage”? 573 U.S. at 490.
Moreover, “[i]t is uncontested that [state and
local trespass, disturbing the peace, noise, and
loitering] statutes were available to law enforcement
at the time the Ordinance was being considered. It

34
does not appear that any prosecutions under these
statutes were brought by the City or private
citizens.” (App. 53a–54a.) Thus, it would not have
been possible for the City to demonstrate that any
such alternative had been tried and failed—the
undisputed record shows the City never tried. The
Third Circuit never engaged with this glaring
reality. Indeed, if there was no record of failed
attempts at enforcing existing laws, then it was
necessarily impossible for the City to have “shown
that it seriously undertook to address the problem
with less intrusive tools readily available to it.” Id.
at 494 (rejecting state’s claim that existing laws
were “difficult to enforce” because state identified
“not a single prosecution brought under those laws
within at least the last 17 years”). The Third
Circuit’s holding that the absence of any meaningful
discussion of alternatives was not in itself fatal to
the narrow tailoring analysis is wholly irreconcilable
with McCullen.
The Third Circuit’s only other mention of the
City’s consideration of less restrictive alternatives
was “a councilperson’s testi[mony] that existing
criminal laws prohibiting trespassing, excessive
noise, and disorderly conduct were insufficient to
keep protests under control.” (App. 19a.) That
testimony, however, did not demonstrate that such
alternatives had been tried and determined to have
failed at the time of enactment of the Ordinance, or
how such alternatives were closely examined and
ruled out for good reason prior to enacting the
Ordinance. In fact, the Third Circuit’s crediting the
City’s after-the-fact testimony is the epitome of
simply taking the government’s word for it. Contra

35
this Court’s admonition in McCullen, “[g]iven the
vital First Amendment interests at stake, it is not
enough for [the government] simply to say that
other approaches have not worked.” 573 U.S. at
496 (emphasis added). The Third Circuit, however,
allowed the government simply to say that other
options did not work. It cannot be gainsaid that such
a conclusion is wholly inconsistent with and cannot
be squared with the narrow tailoring burden this
Court articulated in McCullen.
CONCLUSION
The Third Circuit’s decision below improperly
relied upon the overruled content-neutrality
analysis of Hill and completely ignored this Court’s
new articulation of the content-based standard in
Reed and McCullen. The Third Circuit’s judicial
rewrite of the Ordinance in direct contradiction to
the City’s construction, interpretation, and actual
enforcement and defense of the Ordinance is also in
direct conflict with this Court’s precedents Stevens
and Reno, as well as the precedents of every other
circuit court. Finally, the Third Circuit improperly
permitted the government’s mere assertion that
other alternatives were inadequate to achieve its
purported purpose without actually producing a
meaningful legislative record demonstrating lessrestrictive alternatives were tried and failed, or
seriously considered and ruled out for good reason in
direct conflict with this Court’s precedent McCullen.
For all these reasons, the Petition should be granted.
Dated this February 3, 2020.

36
Respectfully submitted,
Mathew D. Staver (Counsel of Record)
Anita L. Staver
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

APPENDIX

1a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
AFFIRMING DENIAL OF PETITIONERS’
MOTION FOR PRELIMINARY INJUNCTION
AGAINST HARRISBURG BUFFER ZONE
ORDINANCE, FILED OCTOBER 23, 2019
(Reilly II)
2019 WL 5424685
Only the Westlaw citation is currently available.
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd
Cir. App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Colleen REILLY; Becky Biter; Rosalie Gross
v.
CITY OF HARRISBURG; Harrisburg City Counsel;
Mayor Eric Papenfuse, in his official capacity as
Mayor of Harrisburg
Colleen Reilly; Becky Biter, Appellants
No. 18-2884
|
Submitted Under Third Circuit L.A.R. 34.1(a) July
12, 2019
|
(Opinion filed: October 23, 2019)
Before: SHWARTZ, KRAUSE, and FUENTES,
Circuit Judges

2a
OPINION*
*

This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding
precedent.

KRAUSE, Circuit Judge.
*1 Plaintiffs Colleen Reilly and Becky Biter appeal
the District Court’s denial of their motion for a
preliminary injunction seeking to enjoin the
enforcement of a Harrisburg ordinance that
restricts certain types of expression within twenty
feet of health care facilities on the ground that it
violates the First Amendment. Consistent with our
recent decision in Bruni v. City of Pittsburgh (Bruni
II), No. 18-1084, ––– F.3d ––––, 2019 WL 5281050,
slip op. (3d Cir. 2019), we will affirm.
I. Background1
1

Because we write primarily for the parties, we include
only those facts and elements of the procedural history
necessary to resolve this appeal and discuss the facts in
greater detail in the context of our analysis below.

In November 2012, Harrisburg (the “City”) adopted
Ordinance No. 12-2012, codified as Harrisburg
Code Chapter 3-371 (the “Ordinance”). It states, in
relevant part:

No

person

or

persons

shall

3a
knowingly
congregate,
patrol,
picket or demonstrate in a zone
extending 20 feet from any portion
of an entrance to, exit from, or
driveway of a health care facility.

Harrisburg, Pa., Code § 3-371.4 (2012); JA 164. The
city council also ratified a preamble that set forth
“[f]indings” and the “purpose” of the Ordinance,
which it articulated as “ensur[ing] that patients
have unimpeded access to medical services while
protecting the First Amendment rights of
demonstrators to communicate their message.”
Harrisburg, Pa., Code § 3-371.2; JA 163–64.
Harrisburg adopted the Ordinance following a city
council hearing during which the council heard
testimony about problems that were occurring
outside of the city’s two reproductive health
facilities, including:

[T]respassing on private property,
blocking the driveway entrance to
[the]
health
care
center,
photographing or videotaping staff
at close range, documenting license
plate numbers of staff and patients
..., yelling harassing and offensive
words ... including threat[s] ...,
following the staff to continue
harassment ..., pounding on the
front window of the health center
entrance to harass volunteers and

4a
those ... seeking care, [and]
standing on private property to
photograph employees through
office windows.

JA 132.
Plaintiffs attest that they wish to engage within
the zone in “sidewalk counseling,” which they
define as “peaceful ... one-on-one conversations ...,
prayer[,]” and leafletting through which they
attempt to dissuade patients from obtaining an
abortion.2 JA 65. They contend that their “sidewalk
counseling and leafletting approach can only be
communicated through close, caring, and personal
conversations,” and the buffer zones created by the
Ordinance significantly hinder their ability to
effectively communicate their message. JA 78.
2

As in Bruni II, see slip op. at 11 n.6, ––– F.3d at ––––
n.6, we will use the term “sidewalk counseling” in this
opinion in accordance with the meaning given to it by
Plaintiffs.

In March 2016, Plaintiffs filed a motion to
preliminarily enjoin its enforcement on First
Amendment grounds, which the District Court
denied.3 See Reilly v. City of Harrisburg, 205 F.
Supp. 3d 620, 625, 638–39 (M.D. Pa. 2016). We
reversed and remanded, holding that the District
Court had improperly applied the preliminary
injunction standard by shifting the burden of
demonstrating narrow tailoring to Plaintiffs;

5a
however, we did not address the merits of
Plaintiffs’ constitutional challenge. Reilly v. City of
Harrisburg, 858 F.3d 173, 176–80 (3d Cir. 2017)
(Reilly I).
3

Although not relevant here, Plaintiffs also alleged that
the Ordinance violated their First Amendment rights
to free exercise of religion and assembly as well as their
Fourteenth Amendment rights to equal protection and
due process. See Reilly v. City of Harrisburg, 205 F.
Supp. 3d 620, 625 (M.D. Pa. 2016).

*2 On remand, the District Court held an
evidentiary hearing on Plaintiffs’ preliminary
injunction motion. Reilly v. City of Harrisburg, 336
F. Supp. 3d 451, 456 (M.D. Pa. 2018). The Court
received numerous pieces of documentary evidence
and heard substantial testimony about the history
of the Ordinance and Harrisburg’s financial
difficulties at the time of the Ordinance’s adoption,
among other topics. See id. Based on this new
evidence and considering the standard for a
preliminary injunction as clarified in Reilly I, the
District Court again denied Plaintiffs’ motion. Id.
at 474. In doing so, the Court concluded that the
Ordinance permitted sidewalk counseling. Id. at
459 n.3, 463–64. This appeal followed.
II. Discussion4
4

The District Court had jurisdiction under 28 U.S.C. §§
1331 and 1343(a), and we have jurisdiction under 28
U.S.C. § 1292(a)(1). “When reviewing a district court’s
[denial] of a preliminary injunction, we review the

6a
court’s findings of fact for clear error, its conclusions of
law de novo, and the ultimate decision ... for an abuse
of discretion.” Bimbo Bakeries USA, Inc. v. Botticella,
613 F.3d 102, 109 (3d Cir. 2010) (citation omitted).
Because this is a First Amendment case, however, “we
must conduct an independent examination of the
factual record as a whole.” Miller v. Mitchell, 598 F.3d
139, 145 (3d Cir. 2010) (internal quotation marks and
citation omitted).

Plaintiffs seek to preliminarily enjoin enforcement
of the Ordinance. To obtain a preliminary
injunction, an “extraordinary remedy,” Doe ex rel.
Doe v. Boyertown Area Sch. Dist., 897 F.3d 518, 526
(3d Cir. 2018) (citation omitted), the moving party
must show “(1) a reasonable probability of eventual
success in the litigation, and (2) that it will be
irreparably injured ... if relief is not granted,” Reilly
I, 858 F.3d at 176 (alteration in original) (citation
omitted). If these two “threshold” factors are met, a
court then considers the remaining two
factors—“(3) the possibility of harm to other
interested persons from the grant or denial of the
injunction, and (4) the public interest”—and
determines, on balance, whether to grant the
requested preliminary relief. Id. (citation omitted).
At issue here is the first factor: whether Plaintiffs
have a sufficient likelihood of succeeding on the
merits of their constitutional challenge to the
Ordinance.5 In support of their contention that the
Ordinance violates their First Amendment rights,
Plaintiffs make four arguments: (1) “[t]he District
Court erred when it sua sponte rewrote the

7a
Ordinance to permit sidewalk counseling” to save it
from constitutional infirmity, Appellants’ Br. 23; (2)
the Ordinance is unconstitutionally vague and
overbroad; (3) the Ordinance is content based and
subject to strict scrutiny; and (4) even if it is
considered content neutral, the Ordinance is not
narrowly tailored and thus does not survive
intermediate scrutiny.6 As many of Plaintiffs’
arguments are foreclosed by our recent decision in
Bruni II, we begin there and then address
Plaintiffs’ arguments in turn.
5

As we explained in Reilly I, however, in First
Amendment cases, “the [g]overnment bears the burden
of proof on the ultimate question of [a statute’s]
constitutionality.” 858 F.3d at 180 (alterations in
original) (citation omitted).

6

Plaintiffs also argue that the remaining preliminary
injunction factors of irreparable injury, public interest,
and balance of harms support injunctive relief and that
we should reassign this case to a different district court
judge. For the reasons explained below, we conclude
that Plaintiffs do not have a sufficient likelihood of
prevailing on the merits of their claim—a threshold
requirement—and thus do not address these remaining
factors. We also decline to exercise our discretion to
reassign this case to a different district court judge. See
United States v. Bergrin, 682 F.3d 261, 282 (3d Cir.
2012) (“[R]eassignment is an extraordinary remedy
that should seldom be employed.” (citation omitted)).
Although we agree that federal courts discussing the
significant constitutional rights on both sides of this
issue should address the parties with appropriate
sensitivity and respect, including the respect due to the
sincere religious beliefs and peaceful practices of

8a
sidewalk counselors as defined by Plaintiffs, we are not
persuaded that the few isolated remarks on which
Plaintiffs rely to seek recusal indicate bias or partiality
on the part of the District Judge here. As a general
matter, “judicial remarks during the course of a trial
that are critical or disapproving of, or even hostile to,
counsel, the parties, or their cases, ordinarily do not
support a bias or partiality challenge,” Liteky v. United
States, 510 U.S. 540, 555, 114 S.Ct. 1147, 127 L.Ed.2d
474 (1994), and here, while the District Judge appeared
at certain points to express skepticism about the
peacefulness of sidewalk counseling, the record before
her did reflect instances when persons who called
themselves “sidewalk counselors” had engaged in loud
and aggressive confrontations. That conduct, however,
brings such persons outside of Plaintiffs’ definition, and
like the Supreme Court in Schenck v. Pro-Choice
Network of Western New York, we reject the notion that
“protestors” and “sidewalk counselors” as Plaintiffs use
the term are one and the same. 519 U.S. 357, 363, 117
S.Ct. 855, 137 L.Ed.2d 1 (1997).

A. Our Decision in Bruni II
*3 In Bruni II, individuals who identified as
sidewalk counselors challenged an almost identical
ordinance that created a fifteen-foot buffer zone
outside the entrance of any hospital or healthcare
facility in the city of Pittsburgh. Bruni II, slip op. at
5, 9, ––– F.3d at ––––, ––––. As here, the ordinance
stated that “[n]o person or persons shall knowingly
congregate, patrol, picket or demonstrate” in the
proscribed zone, id. at ––––, at 9 (quoting
Pittsburgh, Pa., Code § 623.04 (2005)), and,
although the plaintiffs’ sidewalk counseling
consisted only of peaceful one-on-one conversations

9a
and leafletting, the city of Pittsburgh interpreted
the ordinance to prohibit the plaintiffs’ actions,
Bruni II, slip op. at 12, ––– F.3d at ––––.
Looking at the plain meaning of the ordinance’s
language, we concluded that the proscribed
activities—congregating, patrolling, picketing, and
demonstrating—did not encompass the sidewalk
counseling in which the plaintiffs engaged. Id. at
–––– – ––––, at 24–26. As such, we found the
ordinance “readily susceptible” to a narrowing
construction under the doctrine of constitutional
avoidance. Id. at ––––, at 21 (quoting Virginia v.
Am. Booksellers Ass’n, 484 U.S. 383, 397, 108 S.Ct.
636, 98 L.Ed.2d 782 (1988)); id. at –––– – ––––, at
24–26. In the absence of a state court’s
interpretation to the contrary, we therefore
construed the ordinance narrowly not to prohibit
sidewalk counseling within the zone. Id. at ––––
n.14, ––––, at 22 n.14, 27.
With the ordinance so interpreted, we rejected the
plaintiffs’ argument that the ordinance was content
based. Id. at ––––, at 28. Because the ordinance did
not prohibit sidewalk counseling—or any other
peaceful one-on-one conversations on any topic or
for any purpose—we concluded that it neither
regulated speech based on subject matter, function,
or purpose, nor required law enforcement to
examine the content of the speech to determine if a
violation had occurred. Id. at –––– – ––––, at
26–28. Indeed, we said, the Supreme Court “has
repeatedly considered regulation of [the proscribed]
activities to be based on the manner in which

10a
expressive activity occurs, not its content, and held
such regulation content neutral.” Id. at ––––, at 26
(citing Madsen v. Women’s Health Ctr., Inc., 512
U.S. 753, 763–64, 114 S.Ct. 2516, 129 L.Ed.2d 593
(1994); Snyder v. Phelps, 562 U.S. 443, 456, 131
S.Ct. 1207, 179 L.Ed.2d 172 (2011); Hill v.
Colorado, 530 U.S. 703, 721, 120 S.Ct. 2480, 147
L.Ed.2d 597 (2000); Schenck v. Pro-Choice Network
of W. N.Y., 519 U.S. 357, 383–85, 117 S.Ct. 855, 137
L.Ed.2d 1 (1997); United States v. Grace, 461 U.S.
171, 181–82, 103 S.Ct. 1702, 75 L.Ed.2d 736
(1983)). Therefore, we concluded the ordinance was
content neutral and subject to intermediate
scrutiny. Bruni II, slip op. at 28, ––– F.3d at ––––.
Applying intermediate scrutiny, the ordinance, as
properly
interpreted
to
exclude
sidewalk
counseling, passed muster. Focusing on the
“narrow tailoring” prong, we concluded that the
ordinance did not “burden substantially more
speech than” was “necessary to further the
government’s legitimate interests” in protecting
access to pregnancy-related services, ensuring
public safety, and eliminating neglect of law
enforcement needs. Id. at ––––, at 30 (quoting
McCullen v. Coakley, 573 U.S. 464, 486, 134 S.Ct.
2518, 189 L.Ed.2d 502 (2014)). Specifically, we
explained that where a restriction imposes a
significant burden on speech, the government must
show that it tried or “seriously considered[ ]
substantially less restrictive alternatives,” such as
arrests or targeted injunctions. Bruni II, slip op. at
31, ––– F.3d at ––––. But where the burden on
speech is not significant, “a less demanding inquiry

11a
is called for.” Id. Because the ordinance was limited
in scope and size, we concluded that the burden on
speech was not significant. Id. at –––– – ––––, at
32–33. And because Pittsburgh had “attempt[ed] or
consider[ed] some less burdensome alternatives,”
such as the use of an overtime police detail and
enforcement of existing criminal laws, “and
conclud[ed] they were unsuccessful in meeting the
legitimate interests at issue,” the city had satisfied
its corresponding burden. Id. at ––––, at 34
(citations omitted). We therefore held that the
ordinance was narrowly tailored and survived
intermediate scrutiny. Id. at –––– – ––––, at 35–36.
*4 With this guidance, we now turn to Plaintiffs’
arguments.

B. Plaintiffs’ Arguments
First, the District Court did not err by interpreting
the Ordinance narrowly to exclude sidewalk
counseling. As we explained in Bruni II, the
doctrine of constitutional avoidance counsels that
“[i]n the absence of a limiting construction from a
state authority, we must presume any narrowing
construction or practice to which the law is fairly
susceptible.” Id. at ––––, at 22 (alteration in
original) (internal quotation marks omitted)
(quoting Brown v. City of Pittsburgh, 586 F.3d 263,
274 (3d Cir. 2009)); see also Saxe v. State Coll. Area
Sch. Dist., 240 F.3d 200, 215 n.10 (3d Cir. 2001).
Here, as in Bruni II, no state court has interpreted
the Ordinance, and the Ordinance is “fairly
susceptible” to a narrowing construction that

12a
excludes sidewalk counseling from its reach
because the plain meanings of the words
“congregate,” “patrol,” “picket,” and “demonstrate”
do not cover peaceful one-on-one conversations or
leafletting. Bruni II, slip. op. at 24–26, ––– F.3d at
–––– – ––––. The District Court therefore did not
“rewrit[e]”
the
Ordinance
but
simply
“reinterpret[ed]” it consistent with the plain
meaning of its terms.7 Free Speech Coal., Inc. v.
Attorney Gen. of U.S., 677 F.3d 519, 539 (3d Cir.
2012) (quoting United States v. Stevens, 559 U.S.
460, 481, 130 S.Ct. 1577, 176 L.Ed.2d 435 (2010)).
7

Plaintiffs’ arguments to the contrary are not
persuasive. That the City asserts that the Ordinance
covers Plaintiffs’ sidewalk counseling is not dispositive.
See Bruni II, slip op. at 22 n.14, ––– F.3d at –––– n.14.
And given that our precedent is clear that a federal
court may interpret a state statute or municipal
ordinance narrowly to avoid constitutional infirmity
where it is readily susceptible to such an
interpretation, see id. at –––– – ––––, at 22–24; Free
Speech Coal., Inc. v. Attorney Gen. of U.S., 677 F.3d
519, 539 (3d Cir. 2012); Brown, 586 F.3d at 274; Saxe,
240 F.3d at 215–16, 215 n.10, it is of no consequence
that some other circuits take a contrary approach,
Bruni II, slip op. at 22 n.14, ––– F.3d at –––– n.14.

Second, the Ordinance is neither unconstitutionally
vague nor overbroad. A law is impermissibly vague
“if it fails to provide people of ordinary intelligence
a reasonable opportunity to understand what
conduct it prohibits” or “authorizes ... arbitrary and
discriminatory enforcement.” Hill, 530 U.S. at 732,
120 S.Ct. 2480 (citation omitted). Although

13a
Plaintiffs are correct that the Ordinance does not
provide definitions of the itemized activities that
are prohibited within the zone, “perfect clarity and
precise guidance have never been required even of
regulations that restrict expressive activity.” Ward
v. Rock Against Racism, 491 U.S. 781, 794, 109
S.Ct. 2746, 105 L.Ed.2d 661 (1989). And, here, we
do have guidance from the Supreme Court, which
has found words like “demonstrate” not
impermissibly vague, particularly when viewed in
context, see Schenck, 519 U.S. at 383, 117 S.Ct.
855,8 and, as is true of the Ordinance, when such
words are qualified by a scienter requirement, see
Hill, 530 U.S. at 732–33, 120 S.Ct. 2480. At bottom,
Appellants’ vagueness and overbreadth arguments
rely on the assumption that the Ordinance can be
interpreted to cover sidewalk counseling.9 As we
conclude that is not a reasonable reading of the
Ordinance’s plain language, see Bruni II, slip op. at
28, ––– F.3d at ––––, however, the Ordinance is
neither unconstitutionally vague nor overbroad.
8

Indeed, in Schenck, the Supreme Court “quickly
refuted” an argument that the term “demonstrating”
was vague. 519 U.S. at 383, 117 S.Ct. 855 (“When the
injunction is read as a whole, we believe that people of
ordinary intelligence (and certainly defendants, whose
demonstrations led to this litigation in the first place)
have been given a reasonable opportunity to know what
is prohibited.” (internal quotation marks and citations
omitted)).

9

Plaintiffs also argue that the Ordinance is vague
“because it does not require Defendants to visibly mark

14a
the buffer zone boundaries on the sidewalk,”
Appellants’ Br. 37, and there is some evidence in the
record indicating that the lack of clear demarcation of
the zone has created uncertainty about its bounds.
While we agree with Plaintiffs that this raises
vagueness concerns, such concerns are ameliorated in
large part by the Ordinance’s scienter requirement. See
Brown, 586 F.3d at 291 n.34 (citing Hill, 530 U.S. at
732, 120 S.Ct. 2480). And, “[a]s always, enforcement
requires the exercise of some degree of police
judgment.” Hill, 530 U.S. at 733, 120 S.Ct. 2480
(quoting Grayned v. City of Rockford, 408 U.S. 104,
114, 92 S.Ct. 2294, 33 L.Ed.2d 222 (1972)). To the
extent there remain vagueness concerns, however, we
are confident that if the District Court determines a
remedy is necessary on remand, it could fashion one
that does not require disposing of the Ordinance in its
entirety. See, e.g., Brown v. City of Pittsburgh, No.
06-393, 2010 WL 2207935, at *2 n.2 (W.D. Pa. May 27,
2010).

*5 Third, the Ordinance is not content based and
thus not subject to strict scrutiny. A law is content
based if it (1) regulates speech based on “subject
matter,” “function,” or “purpose”; (2) “cannot be
justified without reference to the content of the
regulated speech”; or (3) was “adopted by the
government because of disagreement with the
message [the speech] conveys.” Reed v. Town of
Gilbert, ––– U.S. ––––, 135 S. Ct. 2218, 2227, 192
L.Ed.2d 236 (2015) (alteration in original) (internal
quotation marks and citations omitted). Plaintiffs
argue that the Ordinance is content based under
each of these tests. We disagree.
Plaintiffs first contend that the Ordinance is

15a
content based because it regulates speech “whose
function or purpose is to ‘demonstrate’ or ‘picket’ ”
but not “speech whose function or purpose is to
communicate something else.” Appellants’ Br. 44.
But, as we explained in Bruni II, “demonstrating”
and “picketing,” both of which have obvious visible
manifestations, go to “the manner in which
expressive activity occurs, not its content.” Bruni
II, slip op. at 26, ––– F.3d at –––– (citing Madsen,
512 U.S. at 759, 763–64, 114 S.Ct. 2516; Snyder,
562 U.S. at 456, 131 S.Ct. 1207; Hill, 530 U.S. at
721, 120 S.Ct. 2480; Schenck, 519 U.S. at 383–85,
117 S.Ct. 855; and Grace, 461 U.S. at 181–82, 103
S.Ct. 1702).
Plaintiffs next argue that the Ordinance is content
based because it bans “only discussions ‘of
substance’ ” and “leafletting about abortion
alternatives” in the buffer zone, thus requiring law
enforcement to examine the content of any speech
to determine whether it is prohibited within the
zone. Appellants’ Br. 44. That being so, Plaintiffs
contend, the Ordinance “cannot be justified without
reference to the content of the regulated speech.”
Id. (citation omitted). But the District Court’s
narrow interpretation renders this argument moot:
The Ordinance as properly interpreted does not
prohibit sidewalk counseling—or any other
peaceful one-on-one conversations about any
subject or for any purpose—in the zone. Therefore,
“there is no need for law enforcement ‘to examine
the content of the message ... to determine whether
a violation has occurred.’ ” Bruni II, slip op. at 28,
––– F.3d at –––– (omission in original) (quoting

16a
McCullen, 573 U.S. at 479, 134 S.Ct. 2518).
Finally, Plaintiffs contend that the Ordinance is
content based because it was “enacted ... to
counteract listeners’ reactions to speech,” an
impermissibly content-based purpose. Appellants’
Br. 40 (capitalization omitted). Specifically, they
point to three statements as evidence of a
content-based motive for enacting the Ordinance: a
comment at a city council hearing calling the
legislation necessary to “protect the dignity” of
patients10; the Ordinance’s description of its
“purpose” as assisting police in their “effort[s] to
prevent violent confrontations”; and Defendants’
statement in a brief that “Harrisburg determined
that it needed a buffer zone as a preventative
measure” in part because “[s]ometimes, a patient’s
loved one would react protectively, escalating the
situation.” Appellants’ Br. 41 (alterations in
original) (citations omitted).
10

Plaintiffs erroneously imply that it was a Planned
Parenthood employee who made this and other
allegedly offending comments. But “a resident of the
neighborhood” made these comments. JA 132.

None of these statements indicate that the City
adopted the Ordinance for an impermissibly
content-based reason. To begin with, the interests
identified in the Ordinance itself—providing
“access to health care facilities,” “prevent[ing]
violent confrontations,” and “protecting the First
Amendment
rights
of
demonstrators
to
communicate their message”—are content neutral.

17a
JA 163–64; see McCullen, 573 U.S. at 480–81, 134
S.Ct. 2518. Indeed, the Supreme Court has said so
repeatedly. See Bruni II, slip op. at 29, ––– F.3d at
–––– (citing cases). Plaintiffs’ attempt to transform
the content-neutral goal of “prevent[ing] violent
confrontations”—and
the
related
goal
of
de-escalating
tense
situations—into
a
content-based restriction akin to a heckler’s veto is
unavailing: “[a] regulation that serves purposes
unrelated to the content of expression is deemed
neutral, even if it has an incidental effect on some
speakers or messages but not others.”11 McCullen,
573 U.S. at 480, 134 S.Ct. 2518 (alteration in
original) (quoting Ward, 491 U.S. at 791, 109 S.Ct.
2746); see Startzell v. City of Philadelphia, 533 F.3d
183, 200 (3d Cir. 2008) (distinguishing a “heckler’s
veto,” which is an “impermissible content-based
restriction on speech where the speech is prohibited
due to an anticipated disorderly or violent reaction
of the audience,” from a “content-neutral time,
place, or manner restriction”). And as for the
allegedly offending stray comment, it is irrelevant
because the individual resident who uttered it does
not speak for the City. We therefore agree with the
District Court that the Ordinance is content
neutral.
11

Moreover, contrary to Plaintiffs’ argument, the
Ordinance does not impermissibly regulate the
“undesirable effects that arise from ‘the direct impact of
speech on its audience’ or ‘listeners’ reactions to
speech,’ ” because “[w]hether or not a single person
reacts to abortion protesters’ chants or petitioners’
counseling, large crowds outside abortion clinics can
still compromise public safety, impede access, and

18a
obstruct sidewalks.” McCullen, 573 U.S. at 481, 134
S.Ct. 2518 (quoting Boos v. Barry, 485 U.S. 312, 321,
108 S.Ct. 1157, 99 L.Ed.2d 333 (1988)).

*6 Fourth, the Ordinance is narrowly tailored and
therefore survives intermediate scrutiny. To be
narrowly tailored, a regulation must not “burden
substantially more speech than is necessary to
further the government’s legitimate interests.”
McCullen, 573 U.S. at 486, 134 S.Ct. 2518 (quoting
Ward, 491 U.S. at 799, 109 S.Ct. 2746). As was true
in Bruni II, the Ordinance, as properly interpreted,
does not impose a significant burden on speech. The
scope of prohibited expressive activities is identical
to that in Bruni II and the fact that the buffer zone
is five feet larger than the zone in Bruni II is not
enough to render the burden on speech significant.
See Bruni II, slip op. at 30, ––– F.3d at –––– (“[W]e
afford[ ] some deference to a municipality’s
judgment in adopting a content-neutral restriction
on speech.” (second alteration in original) (citation
omitted)). Indeed, the buffer zone is significantly
smaller than the thirty-five-foot zone in McCullen
that was not narrowly tailored because, among
other things, it “carve[d] out a significant portion of
the adjacent public sidewalks, pushing petitioners
well back from the clinic’s entrances and
driveways.” 573 U.S. at 487, 134 S.Ct. 2518.
Also, as in Bruni II, Harrisburg did not “resort[ ] to
a fixed buffer zone ... in the first instance” but
“attempt[ed] or consider[ed] some less burdensome
alternatives
and
conclud[ed]
they
were

19a
unsuccessful in meeting the legitimate interests at
issue.”12 Bruni II, slip op. at 34, ––– F.3d at ––––.
At the hearing on the preliminary injunction, a
councilperson testified that existing criminal laws
prohibiting trespassing, excessive noise, and
disorderly conduct were insufficient to keep
protests under control before the Ordinance’s
enactment. This was in large part due to the City’s
inability to expend police resources to enforce these
laws because of the City’s grave financial situation:
As the former special counsel to the Harrisburg
City Council explained, with over 300 million
dollars in debt, the City was placed under
receivership status and could afford neither to hire
additional police officers nor to pay officers
overtime to patrol the clinics.13 See Turco v. City of
Englewood, 935 F.3d 155, 167, 169 (3d Cir. 2019)
(recognizing relevance of a city’s “financial
restraints” and police department’s “finite
resources” in the narrow tailoring analysis). The
record also demonstrates that Harrisburg
considered differently sized zones and, based on the
competing interests at stake, settled on twenty feet
as the optimal size, rejecting Planned Parenthood’s
request for a twenty-four-foot zone. Thus, given
that the burden the Ordinance imposes on speech is
not significant and the City has demonstrated that
it tried or considered some less-restrictive
alternatives, we conclude that the Ordinance is
narrowly tailored and survives intermediate
scrutiny. That being so, Plaintiffs do not have a
“reasonable probability of eventual success in the
litigation,” Reilly I, 858 F.3d at 176 (citation
omitted), and the District Court therefore did not

20a
err in denying their motion for a preliminary
injunction.14
12

Plaintiffs contend that Defendants have not carried
their burden because “Defendants’ entire ‘meaningful
record’ of what they considered prior to enacting the
Ordinance consists of the 12-page transcript of the only
council
meeting
where
the
Ordinance
was
substantively discussed” and that record was “devoid of
any serious consideration of less restrictive
alternatives.” Appellants’ Br. 52. But we agree with the
District Court that a local government is not required
to “produce all available evidence and consider
alternatives at a single, recorded hearing before taking
action.” Reilly, 336 F. Supp. 3d at 466. Even when a
burden on speech is significant, all that our precedent
requires is that
“substantially less-restrictive
alternatives were tried and failed, or that the
alternatives were closely examined and ruled out,”
Bruni v. City of Pittsburgh (Bruni I), 824 F.3d 353, 370
(3d Cir. 2016) (citation omitted), not that the only
evidence a court can consider in determining whether
the government has satisfied its burden must be
derived from a committee council hearing that was
recorded. More importantly, the burden here is not
significant, so the City need only show that the
restriction did not “burden[ ] substantially more speech
than ... necessary to further the government’s
legitimate interests.” Bruni II, slip op. at 35, ––– F.3d
at –––– (quoting McCullen, 573 U.S. at 486, 134 S.Ct.
2518). Through declarations, documentary evidence,
and in-court testimony, Defendants have done so.

13

The City also decreased police benefits, causing officers
to leave the force and fewer to join, at times leaving
only four to eight police officers to patrol the City—a
consequence the effects of which Harrisburg continues
to feel to this day. Plaintiffs suggest that the City’s

21a
financial woes could not have been as bad as
Defendants say—and
as the District
Court
found—because Harrisburg’s Chief of Police said
during the same hearing at which the Ordinance was
discussed that he would “step up enforcement of the
City’s noise and trash ordinances.” Appellants’ Br. 57.
But the Police Chief’s testimony merely reflects in
context that councilmembers were not pleased that
those ordinances were not adequately being
enforced—no doubt due at least in part to scarce
resources—and that the Police Chief would try to
address their concerns going forward. His offer to “help
... out” the City’s code enforcement division while its
leader was having personal difficulties, JA 572, also
does not demonstrate that there were resources
available to station officers outside the City’s
reproductive health facilities on a continuous basis.

14

We recognize that the City could have a legitimate
concern about access to healthcare facilities if there are
multiple one-on-one conversations that block access to
the facilities. See McCullen, 573 U.S. at 486–87, 134
S.Ct. 2518. The City may then have occasion to revisit
the terms of the Ordinance, having developed a record
that would satisfy McCullen and Bruni I, as well as the
content-neutrality requirement of Reed. See Turco, 935
F.3d at 162–63.

III. Conclusion
*7 For the foregoing reasons, we will affirm the
decision of the District Court.
All Citations
--- Fed.Appx. ----, 2019 WL 5424685

22a
OPINION OF THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE
DISTRICT OF PENNSYLVANIA DENYING
PETITIONERS’ MOTION FOR PRELIMINARY
INJUNCTION AGAINST HARRISBURG
BUFFER ZONE ORDINANCE,
FILED AUGUST 23, 2018
336 F.Supp.3d 451
United States District Court, M.D. Pennsylvania.
Colleen REILLY, Becky Biter, and Rosalie Gross,
Plaintiffs,
v.
CITY OF HARRISBURG, Harrisburg City Council,
and Eric Papenfuse, in his official capacity as
Mayor of Harrisburg, Defendants.
Civ. No. 1:16-CV-0510
|
Signed 08/23/2018
MEMORANDUM
SYLVIA H. RAMBO, United States District Judge
This First Amendment case comes before the court
on remand from the Court *455 of Appeals for the
Third Circuit for reconsideration of Colleen Reilly
and Becky Biter’s (“Plaintiffs”)1 motion for a
preliminary injunction. In its opinion, Reilly v. City
of Harrisburg, 858 F.3d 173, 175 (3d Cir. 2017), as
amended (June 26, 2017) (“Reilly II”), the Third
Circuit clarified the proper standard for
determining whether a plaintiff is entitled to
preliminary injunctive relief. Plaintiffs seek to

23a
enjoin the enforcement of an ordinance enacted by
the City of Harrisburg (the “City”) requiring
demonstrators to remain a certain distance from
the entrances, exits, and driveways of health care
facilities. After reconsideration of Plaintiff’s motion
under the clarified standard articulated in Reilly II,
this court will deny Plaintiff’s motion for a
preliminary injunction for the reasons stated
herein.
1

As noted by the Third Circuit, Rosalie Gross was a
plaintiff in the original action before this court, Reilly
v. City of Harrisburg, 205 F.Supp.3d 620, 636 (M.D. Pa.
2016) (“Reilly I”), vacated and remanded, 858 F.3d 173
(3d Cir. 2017), as amended (June 26, 2017). Ms. Gross
has since voluntarily dismissed her claims without
prejudice and did not join in Plaintiffs’ appeal.

I. Factual and Procedural Background
As set forth in this court’s prior opinion in Reilly I,
the relevant factual background is as follows:
Plaintiffs are individual citizens of Pennsylvania
who regularly provide what they euphemistically
refer to as “sidewalk counseling” outside of two
health care facilities in Harrisburg, Pennsylvania
that perform, among other procedures, abortions.
Plaintiffs engage in leafletting, prayer, and
individual conversations with women who are
attempting to enter the health care facilities in
an effort to dissuade them from obtaining
abortions.
On November 13, 2012, Defendant Harrisburg

24a
City Council adopted Ordinance No. 12–2012
entitled “Interference With Access To Health
Care Facilities (the “Ordinance”),” which became
effective on November 23, 2012. [See ]
Harrisburg, Pa. Mun. Code § 3-371 (2015),
http://ecode360.com/13739606. The Ordinance’s
stated purpose is “to promote the health and
welfare of [Harrisburg] residents and visitors to
[Harrisburg]’s health care facilities, as well as the
health and welfare of those who may wish to
voice their constitutionally protected speech
outside of such health care facilities.” Harrisburg,
Pa. Mun. Code, § 3-371.2C. The Ordinance makes
it illegal for individuals, other than police or
emergency
personnel
performing
official
functions, or employees of health care facilities
that are assisting patients to enter or exit the
facilities, to “knowingly congregate, patrol, picket
or demonstrate in a zone extending 20 feet from
any portion of an entrance to, exit from, or
driveway of a health care facility.” Id. at §
3-371.4A.
Reilly I at 624-25 (footnote and citations to the
record omitted).
Plaintiffs filed their complaint on March 24, 2016,
alleging, inter alia, that the “buffer zones” created
by the Ordinance made it impossible for them to
counsel patients and distribute pamphlets in
opposition to abortion at certain health care
facilities within the City limits. (Doc. 1, ¶¶ 40-41,
50, 56.) Plaintiffs argue that the Ordinance violates
their First Amendment rights to free speech,
exercise of religion, and assembly, as well as their

25a
Fourteenth Amendment rights to equal protection
and due process. On March 25, 2016, Plaintiffs filed
the instant motion seeking to preliminarily enjoin
enforcement of the Ordinance due to the
irreparable harm it causes to *456 their First
Amendment rights. (See Doc. 3.) Defendants filed a
brief in opposition to Plaintiffs’ motion for a
preliminary injunction and soon thereafter filed a
motion to dismiss for failure to state a claim upon
which relief can be granted. (Docs. 15, 16.) After
briefing on both motions, this court issued an order
denying Defendants’ motion to dismiss with respect
to Plaintiffs’ claims under the First Amendment,
granting it with respect to all other claims, and
denying Plaintiffs’ motion for a preliminary
injunction. (Doc. 45.) Plaintiffs subsequently
appealed this court’s order to the Third Circuit,
which reversed this court’s order to the extent that
it denied Plaintiffs’ motion for a preliminary
injunction, and remanded the matter to this court
for further consideration.
On remand, this court held an evidentiary hearing
on Plaintiffs’ motion for a preliminary injunction on
October 31, 2017, and November 1, 2017. Prior to
the hearing, Defendants submitted documentary
evidence including declarations from City officials,
Planned Parenthood employees, and Plaintiffs,
including Rosalie Gross, maps of the areas around
the clinic, evidence of the City’s financial hardship,
video taken around the Planned Parenthood clinic,
audio from the committee hearing at which the
Ordinance was discussed, and drafts and
supporting
documentation
regarding
the

26a
Ordinance. Defendants submitted exhibits that
included a declaration from Harrisburg police
officers, the text of City ordinances, a draft version
of
the
Ordinance,
and
memoranda
and
correspondence between City officials and Planned
Parenthood employees. At the hearing, Defendants
called Councilman Brad Koplinski (“Koplinski”),
City Solicitor Neil Grover (“Grover”), City Engineer
Wayne Martin (“Martin”), Officer Chad Sunday
(“Sunday”), a City Financial Coordinator, Gerald
Cross
(“Cross”),
and
Planned
Parenthood
employees Andrew Guth (“Guth”), Lindsey Mauldin
(“Mauldin”), and Sari Stevens (“Stevens”).
Plaintiffs testified on their own behalf at the
hearing, but did not present additional witnesses.
The record is now closed, and the parties have
submitted supplemental briefs in support of and in
opposition to Plaintiffs’ motion. Accordingly, the
matter is now ripe for disposition.
II. Discussion
The First Amendment right to freedom of speech is
fundamental, yet not without limit. Our Supreme
Court has repeatedly held that such limits exist.
See, e.g., Brandenburg v. Ohio, 395 U.S. 444, 89
S.Ct. 1827, 23 L.Ed.2d 430 (1969) (acknowledging
distinction
between
protected
speech
and
“incitement to imminent lawless action”); Miller v.
California, 413 U.S. 15, 93 S.Ct. 2607, 37 L.Ed.2d
419 (1973) (distinguishing “obscenity” from
protected speech); Gertz v. Robert Welch, Inc., 418
U.S. 323, 94 S.Ct. 2997, 41 L.Ed.2d 789 (1974)
(explaining that maliciously false and defamatory

27a
speech is not entitled to protection); Virginia v.
Black, 538 U.S. 343, 123 S.Ct. 1536, 155 L.Ed.2d
535 (2003) (plurality opinion) (holding that even
cross burning can qualify as protected speech if it is
not done with an “intent to intimidate”). Perhaps
most poignantly illustrated in Virginia v. Black,
the content of even vile and hateful speech is
entitled to protection; however, the First
Amendment does not require the government to
allow such speech to be delivered in a violent and
assaultive manner. This complex question, simply
put, is whether an ordinance passed by a local
government entirely restrains a particular message
or merely places reasonable limitations on how that
message may be delivered. Upon thorough
examination, this court finds that the Ordinance
constitutes the latter.
*457 Plaintiffs move for a preliminary injunction of
the enforcement of the Ordinance, arguing that the
Ordinance abrogates their First Amendment right
to free speech in public fora because it is a
content-based restriction that prohibits only
anti-abortion speech and that it is not narrowly
tailored to serve a legitimate governmental
interest. Defendants had previously moved to
dismiss Plaintiffs’ complaint in its entirety for
failure to state a claim under Rule 12(b)(6);
however, this court previously denied Defendants’
motion, and Defendants did not appeal that
holding. Accordingly, we now resolve Plaintiffs
motion for a preliminary injunction under the
standard articulated by the Third Circuit in Reilly
II.

28a

The four factors that a court must consider in
determining whether a petitioner is entitled to a
preliminary injunction remain unchanged:

(1) a reasonable probability of
eventual success in the litigation,
and (2) that it will be irreparably
injured ... if relief is not granted....
[In addition,] the district court, in
considering whether to grant a
preliminary injunction, should take
into account, when they are
relevant, (3) the possibility of harm
to other interested persons from
the grant or denial of the
injunction, and (4) the public
interest.

Reilly II at 176 (quoting Del. River Port Auth. v.
Transam. Trailer Transport, Inc., 501 F.2d 917,
919–20 (3d Cir. 1974) ). The Third Circuit,
however, did clarify the allocation of the burdens
borne by the respective parties:
[A] movant for preliminary equitable relief must
meet the threshold for the first two “most critical”
factors: it must demonstrate that it can win on
the merits (which requires a showing
significantly better than negligible but not
necessarily more likely than not) and that it is
more likely than not to suffer irreparable harm in
the absence of preliminary relief. If these gateway

29a
factors are met, a court then considers the
remaining two factors and determines in its
sound discretion if all four factors, taken
together, balance in favor of granting the
requested preliminary relief.
....
In deciding whether to issue a preliminary
injunction, plaintiffs normally have the burden of
demonstrating a sufficient likelihood of prevailing
on the merits. However, in First Amendment
cases where “the government bears the burden of
proof on the ultimate question of a statute’s
constitutionality, plaintiffs must be deemed likely
to prevail for the purpose of considering a
preliminary injunction unless the government
has shown that plaintiffs’ proposed less
restrictive alternatives are less effective than the
statute.”
Reilly II at 179-80 (footnotes and alterations
omitted) (quoting Ashcroft v. ACLU, 542 U.S. 656,
666, 124 S.Ct. 2783, 159 L.Ed.2d 690 (2004) ). This
court previously erred by placing the burden with
Plaintiffs to prove all four prerequisites to a
preliminary injunction. Under the standard set
forth by the Third Circuit, the Plaintiffs, as the
moving party, bear the initial burden of
demonstrating that they are more likely than not to
suffer irreparable harm without a preliminary
injunction and have a likelihood of success on the
merits. In considering whether Plaintiffs are likely
to prevail, Defendants bear the burden to prove
“the ultimate question of constitutionality” and

30a
must demonstrate that the proposed less-restrictive
alternatives are less effective than the Ordinance.
To that end, this court shall consider whether
Defendants have met their burden, while
remaining mindful that preliminary injunctive
relief remains an “extraordinary *458 remedy.” Doe
v. Boyertown Area Sch. Dist., 897 F.3d 518, 526 (3d
Cir. 2018). As a preliminary matter, however, this
court will address whether the Ordinance is
content neutral, subject to intermediate scrutiny, or
content based subject to strict scrutiny.

A. Content Neutrality
As discussed in this court’s prior decision, an
ordinance is subject to strict scrutiny if it is a
content-based restriction on speech. Reed v. Town
of Gilbert, Ariz., ––– U.S. ––––, 135 S.Ct. 2218,
2227, 192 L.Ed.2d 236 (2015). An ordinance
restricting speech is content based and subject to
strict scrutiny if it: (1) “define[s] speech by
particular subject matter;” (2) “define[s] regulated
speech by its function or purpose;” (3) cannot be
justified “without reference to the content of the
regulated speech;” or (4) was “adopted by the
government ‘because of disagreement with the
message [the speech] conveys.’ ” Id. Under strict
scrutiny, the challenged law is “presumptively
unconstitutional and may be justified only if the
government proves that [it is] narrowly tailored to
serve compelling state interests,” and the
content-based restriction must be “the least
restrictive or least intrusive means of serving the
government’s interests.” Bruni v. City of

31a
Pittsburgh, 824 F.3d 353, 363 (3d Cir. 2016) (citing
Reed, 135 S.Ct. at 2226).2
2

To the extent Plaintiffs suggest that the Third Circuit’s
holding in Bruni is dispositive, the court rejects such a
supposition. The District Court in Bruni both denied
the plaintiffs’ motion for preliminary injunction and
granted the defendants’ motion to dismiss. The
plaintiffs appealed only the order dismissing their
complaint. Accordingly, the Bruni Court examined
plaintiffs’ complaint under the highly deferential
standard applied in the motion to dismiss context.
Bruni, 824 F.3d at 371 (3d Cir. 2016) (“The City had no
opportunity to properly produce such evidence at the
motion-to-dismiss stage. Instead, we must accept as
true at this stage of the case the Complaint’s allegation
that ‘no specific instances of obstructive conduct
outside of hospitals or health care facilities in the City
of Pittsburgh ... provide support for the [ordinance].’ ”).
Here, such evidence has been placed on the record and
this court may consider it in disposing of Plaintiffs’
motion for a preliminary injunction.

Conversely, “[a] regulation that serves purposes
unrelated to the content of expression” is content
neutral and subject to intermediate scrutiny, “even
if it has an incidental effect on some speakers or
messages but not others.” Ward v. Rock Against
Racism, 491 U.S. 781, 791, 109 S.Ct. 2746, 105
L.Ed.2d 661 (1989) (citation omitted). Intermediate
scrutiny requires that the challenged law be
“narrowly tailored to serve a significant
governmental interest.” Madsen v. Women’s Health
Ctr., Inc., 512 U.S. 753, 764, 114 S.Ct. 2516, 129
L.Ed.2d 593 (1994). Under intermediate scrutiny,
the restriction on speech need not be the least

32a
restrictive means available, but must “leave open
ample alternative channels for communication.”
Ward, 491 U.S. at 791, 109 S.Ct. 2746 (citation
omitted).
Defendants argue that this Court should decline to
reexamine its prior holding in Reilly I on the issue
of content neutrality because the Third Circuit did
not reverse on that issue and the law of the case
doctrine precludes review of our prior decision
without extraordinary circumstances. (Doc. 101, pp.
9-11) (citing Habecker v. Clark Equip., 942 F.2d
210, 218 (3d Cir. 1991).) We will briefly consider,
however, whether any evidence elicited during the
preliminary injunction hearing would alter our
prior analysis and consider Plaintiffs’ arguments to
the extent they rely on such evidence. Plaintiffs
argue on remand that the Ordinance is not content
neutral based on several admissions made *459 by
Defendants: “1) Defendants admit that the City
enacted the Ordinance because of their concern
with the undesirable impact of pro-life speech on
the sidewalk audience; 2) Defendants admit that
only discussions ‘of substance’ are banned ... and 3)
Defendants admit that only some substantive
discussions are banned.” (Doc. 88, p. 13.)
In support of their first argument, Plaintiffs cite to
several cases holding that a law or regulation is not
content neutral if it was enacted due to
“undesirable effects that arise from the ‘direct
impact of speech on its audience’ or ‘listeners’
reactions to speech.’ ” McCullen v. Coakley, –––
U.S. ––––, 134 S.Ct. 2518, 2531, 189 L.Ed.2d 502

33a
(2014) (citing Boos v. Barry, 485 U.S. 312, 321, 108
S.Ct. 1157, 99 L.Ed.2d 333 (1988) ). Defendants,
however, fail to distinguish between the
“undesirable effects” referenced in McCullen v.
Coakley and legitimate restrictions on certain acts
that are indirectly associated with particular
speech. In Boos v. Barry, the Supreme Court
examined a Washington D.C. ordinance prohibiting
signage offensive to foreign governments from
being placed near embassies. The Court held that
the regulation was content-based because it was
enacted to protect the dignity of foreign officials
rather than regulate harmful secondary effects
caused by such signage. Boos, 485 U.S. at 320-321,
108 S.Ct. 1157. Justice O’Connor explained the
distinction between a regulation based on content
and a regulation dealing with “secondary effects”
caused by a particular type of establishment:
The regulation [limiting zoning of] theaters that
specialize in adult films ... applied only to a
particular category of speech, its justification had
nothing to do with that speech. The content of the
films being shown inside the theaters was
irrelevant and was not the target of the
regulation. Instead, the ordinance was aimed at
the secondary effects of such theaters in the
surrounding community, effects that are almost
unique to theaters featuring sexually explicit
films, i.e., prevention of crime, maintenance of
property values, and protection of residential
neighborhoods. In short, the ordinance in [Renton
v. Playtime Theatres, Inc., 475 U.S. 41, 106 S.Ct.
925, 89 L.Ed.2d 29 (1986) ] did not aim at the
suppression of free expression.

34a
Respondents ... argu[e] that here too the real
concern is a secondary effect, namely, our
international law obligation to shield diplomats
from speech that offends their dignity. We think
this misreads Renton. We spoke in that decision
only of secondary effects of speech, referring to
regulations that apply to a particular category of
speech because the regulatory targets happen to
be associated with that type of speech. So long as
the justifications for regulation have nothing to
do with content, i.e., the desire to suppress crime
has nothing to do with the actual films being
shown inside adult movie theaters, we concluded
that the regulation was properly analyzed as
content neutral.
Regulations that focus on the direct impact of
speech on its audience present a different
situation. Listeners’ reactions to speech are not
the type of “secondary effects” we referred to in
Renton.
Id.
Here, the City did not seek to ban speech regarding
abortion because it “offended the dignity” of those
seeking to patronize the clinics. The City sought to
limit the areas in which any and all protesters3
could congregate around clinic entrances *460
because such large groups tended to impede clinic
visitors and to engage in aggressive and
confrontational behavior. The Ordinance does not
appear to even implicate the secondary effects
doctrine, as it regulates particular acts (knowingly

35a
congregating,
patrolling,
picketing
or
demonstrating) rather than a type of speech that
tends to result in negative effects as did
adult-themed theatres in Renton. Any type of
speech would be equally prohibited if the
proponents of that speech were performing any of
the proscribed actions within the buffer zone. The
regulatory targets, i.e. protestors outside clinics,
happen to be associated with particular types of
speech, i.e. anti-abortion speech. McCullen v.
Coakley, 134 S.Ct. at 2531. (“[A] facially neutral
law does not become content-based simply because
it may disproportionately affect speech on certain
topics. On the contrary, ‘[a] regulation that serves
purposes unrelated to the content of expression is
deemed neutral, even if it has an incidental effect
on some speakers or messages but not others.’ The
question in such a case is whether the law is
‘justified without reference to the content of the
regulated speech.’ ”) (citing Ward, 491 U.S. at 791,
109 S.Ct. 2746) (quoting Renton, 475 U.S. at 48,
106 S.Ct. 925, 89 L.Ed.2d 29 (1986) ). Here, the
Ordinance is justified by the actions of the
protesters rather than the content of their speech.
3

A brief note on nomenclature: Plaintiffs consistently
refer to themselves as “counsellors” throughout their
filings. The distinction in this opinion is purposeful and
relevant. As discussed at length, infra, the Ordinance
does not, by its terms, prohibit many aspects of the
“counselling” touted by Plaintiffs. The Ordinance’s aim
is to restrict aggressive acts of demonstration and
protest around the clinic property. Thus, unless
otherwise noted, the term “protesters” refers generally
to those performing the acts prohibited by the
Ordinance.

36a

Plaintiffs additionally rely on Christian Knights of
Ku Klux Klan Invisible Empire, Inc. v. D.C., 972
F.2d 365 (D.C. Cir. 1992) for the proposition that
unintentional incitement to violence is not a
content-neutral reason for limiting the time, place,
and manner Plaintiffs may demonstrate. The
holding in Invisible Empire, however, was based on
the Ku Klux Klan’s request to peacefully march in
a parade along with numerous other groups. The
D.C. Circuit held that the audience’s theoretical
hostile acts in response to passive speech was
insufficient to demonstrate a content neutral
reason for the regulation. Id. at 374; see also
Startzell v. City of Philadelphia, No. 05-cv-5287,
2007 WL 172400, *9 (E.D. Pa. Jan. 18, 2007), aff’d
sub nom. Startzell v. City of Philadelphia, 533 F.3d
183 (3d Cir. 2008) (distinguishing a “heckler’s veto”
from reasonable time, place, and manner
restrictions). Conversely, here, the content of the
speech is irrelevant; it is the time, place, and
alleged encroachment into the personal space of
clinic patrons that the City found objectionable, not
the mere message.
Plaintiffs next cite a statement made by Neil
Grover, Defendants’ corporate designee and city
solicitor, regarding the enforcement of the
Ordinance with respect to congregating. Grover
testified that “[i]f two people were talking about
anything of substance, I think the answer is,
they’re congregating.” (Hearing Transcript (“Tr.”),
p. 355.) Plaintiffs argue that this statement

37a
indicates that the Ordinance would require police
officers to determine the content of the speech
before enforcing it. This argument is patently
without merit. Assuming, arguendo, that Grover’s
method of interpretation is binding on the City for
future enforcement, no inquiry into the content is
required to determine if a conversation is
substantive. Grover’s comments were used to
illustrate that the Ordinance did not prohibit two
individuals *461 from engaging in a passing
greeting: “If two people were walking in the same
direction ... and they’re talking ... good morning,
good afternoon, whatever, I don’t know if those
people would be considered congregating by any
definition.” (Id.) Plaintiffs’ argument assumes that
police officers are ignorant of social norms and
average human behavior. If Plaintiffs’ assumption
were true, police would be incapable of
distinguishing a woman walking down the street
with a paramour from a woman being harassed or
accosted by a stranger. A police officer is more than
capable of distinguishing calm pamphleting by an
individual from a group of people marching up and
down the street with banners and bullhorns. An
officer need not hear the precise content of what is
being said, but can easily distinguish normal social
interaction from protest or assault without regard
to the content of the speech. See Hill v. Colorado,
530 U.S. 703, 721, 120 S.Ct. 2480, 147 L.Ed.2d 597
(2000) (“[I]t is unlikely that there would often be
any need to know exactly what words were spoken
in order to determine whether ‘sidewalk counselors’
are engaging in ‘oral protest, education, or
counseling’ rather than pure social or random

38a
conversation.”). Here, police may enforce the
Ordinance by making objective determinations
without inquiry into the content of the speech.
Finally, Plaintiffs argue that Counsel for
Defendants admitted at argument before the Third
Circuit that the enforcement of the Ordinance
would depend on the content of the speech. Counsel
responded to a line of questioning from Circuit
Judge Jordan wherein Judge Jordan asked whether
panhandling or leafletting for a business would be
considered “demonstrating” under the Ordinance.
Counsel posited that panhandling and leaflet
distribution may not be covered, but distribution of
anti-abortion pamphlets would be prohibited.
Plaintiffs cite no Third Circuit precedent for their
argument that a legal theory posited by counsel at
an appellate argument is binding on the court. The
cases from other circuits cited by Plaintiffs relate to
attorneys conceding particular arguments or claims
at oral arguments. Kohler v. Inter-Tel Techs., 244
F.3d 1167, 1170 n.3 (9th Cir. 2001); McCaskill v.
SCI Mgmt. Corp., 298 F.3d 677, 680 (7th Cir. 2002).
The Third Circuit, however, has held that “[t]o be
binding, admissions must be unequivocal.
Similarly, they must be statements of fact that
require evidentiary proof, not statements of legal
theories.” In re Teleglobe Commc’ns Corp., 493 F.3d
345, 377 (3d Cir. 2007), as amended (Oct. 12, 2007)
(citing Glick v. White Motor Co., 458 F.2d 1287,
1291 (3d Cir. 1972) ). Furthermore, the Supreme
Court has cautioned courts against placing great
weight on comments made by counsel in the face of
appellate questioning: “We are loathe to attach

39a
conclusive weight to the relatively spontaneous
responses of counsel to equally spontaneous
questioning from the Court during oral argument.”
Moose Lodge v. Irvis, 407 U.S. 163, 170, 92 S.Ct.
1965, 32 L.Ed.2d 627 (1972). Accordingly, this court
declines to view counsel’s spontaneous remark
during appellate argument as a conclusive
admission that the Ordinance is content based.
Finding no merit to Plaintiffs’ new arguments that
the Ordinance is content based, the court reaffirms
is prior holding that the Ordinance is content
neutral and can be justified “without reference to
the content of the regulated speech.” Reed, 135
S.Ct. at 2227. Accordingly, the court will review the
Ordinance under an intermediate scrutiny
analysis.

B. Likelihood of Success on the Merits
To determine whether Plaintiffs are entitled to a
preliminary injunction, *462 the court must next
examine whether Plaintiffs have a likelihood of
success on the merits of their claim, applying an
intermediate scrutiny analysis to the Ordinance.
Under the intermediate scrutiny analysis,
Plaintiffs would ordinarily need to show that the
Ordinance is “not narrowly tailored to serve a
significant governmental interest” and fails to
“leave open ample alternative channels for
communication of information.” McCullen, 134
S.Ct. at 2534 (citing Ward, 491 U.S. at 791, 109
S.Ct. 2746). In a challenge based on the First
Amendment, however, the City “bears the burden

40a
of proof on the ultimate question of [the
Ordinance’s] constitutionality,” and “[Plaintiffs]
must be deemed likely to prevail [for the purpose of
considering a preliminary injunction] unless the
[City] has shown that [Plaintiffs’] proposed less
restrictive alternatives are less effective than [the
Ordinance].” Reilly II at 179-80 (footnotes omitted)
(quoting Ashcroft, 542 U.S. at 666, 124 S.Ct. 2783).
Thus, the City bears the initial burden to show that
the ordinance is narrowly tailored. Id. at 180.4
4

Plaintiffs do not appear to contest that the City has a
significant governmental interest “in ‘ensuring public
safety and order, promoting the free flow of traffic on
streets and sidewalks, protecting property rights, and
protecting
a
woman’s
freedom
to
seek
pregnancy-related services.’ ” McCullen v. Coakley, 134
S.Ct. at 2535 (quoting Schenck v. Pro–Choice Network
of Western N.Y., 519 U.S. 357, 376, 117 S.Ct. 855, 137
L.Ed.2d 1 (1997) ). Thus, the court finds that the City
demonstrated a legitimate government interest
identical to the legitimate interest recognized in
McCullen and Schenk. Thus, the City has met its
burden to prove that element of the intermediate
scrutiny analysis.

i. Burden on Plaintiffs’ right to free speech.
Irrefutably, the Ordinance places some burden on
Plaintiffs’ right to free speech, but to determine
whether the ordinance is narrowly tailored to
achieve the City’s legitimate interests, the court
must define the extent of the burden upon
Plaintiffs’ rights. Plaintiffs first argue that the
Ordinance places a substantial burden on their

41a
First Amendment right to free speech. Defendants
counter that any burden faced by Plaintiffs is
minimal and more than justified by the City’s
legitimate interests. Plaintiffs do not argue that
they are unable to be seen and heard by clinic
patients from outside the buffer zone. Instead,
Plaintiffs suggest that the First Amendment
includes a right to intimate conversation and to “be
so close you can reach out and hug [clinic
patients].” (Doc. 88, p. 31 of 100.) There is no such
right to make physical contact with unconsenting
strangers couched in the First Amendment, but,
despite the substantial evidence that Plaintiffs and
other protesters are more likely to offer patients
virulent invective than a warm embrace, the
Supreme Court in McCullen has held that
individuals such as Plaintiffs are entitled to have
their speech heard in an effective manner.
McCullen, 134 S.Ct. at 2537 (“If all that the women
can see and hear are vociferous opponents of
abortion, then the buffer zones have effectively
stifled
petitioners’
message.”).
Specifically,
McCullen held that an anti-abortion protester has a
protected First Amendment right to engage other
members of the public in a conversational tone
without resort to signs, shouting, or voice
amplification. McCullen, 134 S.Ct. at 2527.
Although decided prior to McCullen, the Third
Circuit in Brown v. City of Pittsburgh, 586 F.3d
263, 276 (3d Cir. 2009), presciently modified a
similar Pittsburgh ordinance consistent with this
concept.
In Brown, the city of Pittsburgh had enacted an

42a
ordinance that consisted of a two-pronged “buffer”
and “bubble” zone. *463 The buffer zone prevented
congregating,
patrolling,
picketing,
or
demonstrating within 15 feet of clinic entrances
and exits, while the bubble zone extended 100 feet
from the clinic entrance. Within the bubble zone,
protesters were prohibited from coming within 8
feet of any individuals attempting to access the
clinic. The Brown Court enjoined the enforcement
of the bubble zone, but allowed the buffer zone to
remain. This is consistent with the Supreme
Court’s mandate in McCullen; a counsellor could
easily approach a potential patient outside the
buffer zone to hand out a leaflet or converse with
someone inside the buffer zone at a normal volume.
A key difference between the Pittsburgh ordinance
and the Massachusetts ordinance in McCullen is
the specific type of behavior prohibited. The
Massachusetts ordinance made it a crime simply to
knowingly stand within the 35 foot buffer zone.
McCullen, 134 S.Ct. at 2531 (“Indeed, petitioners
can violate the Act merely by standing in a buffer
zone, without displaying a sign or uttering a
word.”). The Ordinance, like the ordinance in
Brown, prohibits only certain conduct. As written,
the Ordinance does not bar a single individual from
walking into the buffer zone and calmly handing a
pamphlet to an individual. If receptive, a passerby
may take the pamphlet. The importance of this
distinction is obvious: where a group may bully and
intimidate a single person, an individual simply
offering a piece of paper, as Plaintiffs claim to
desire, may offer a supportive presence. Of course,
the calm pamphleting could quickly turn into

43a
demonstrating or picketing if the individual
offering the pamphlet begins to loudly advocate for
his or her position, carries a sign, or accosts
unwilling patients. This is perhaps the distinction
that counsel for Defendants was alluding to at
argument before the Third Circuit. See supra, at
460–61. Thus, Plaintiffs are not totally barred from
the buffer zone, but their conduct therein, and
consequently, their ability to engage in intimate
conversation, is limited.
The Supreme Court in McCullen held that
counsellors have a right not only to speak in public
fora, but to have their speech heard in an effective
manner. Plaintiffs rightly point out that in
McCullen “petitioners [were] effectively excluded
from a 56-foot-wide expanse of the public sidewalk
in front of the [Boston] clinic” and that exclusion
placed “serious burdens” on the petitioners’ ability
to engage in sidewalk counselling. See McCullen,
134 S.Ct. at 2527. Plaintiffs mischaracterize the
Supreme Court’s holding in McCullen to the extent
they suggest that McCullen stands for the
proposition that a 35 foot buffer zone is
unconstitutional simply because of the area it
covers. Instead, the Supreme Court engaged in a
much more nuanced examination. For instance, the
Court noted the paucity of evidence supporting the
statewide need for such a buffer. The
Massachusetts law applied to an entire
Commonwealth without a particular examination
of the needs of individual communities. McCullen,
134 S.Ct. at 2539 (“For a problem shown to arise
only once a week in one city at one clinic, creating

44a
35-foot buffer zones at every clinic across the
Commonwealth is hardly a narrowly tailored
solution.”). Moreover, the Massachusetts law was
far broader in its prohibitions than the City’s: it did
not merely limit certain types of public
demonstration, but instead prohibited simply
standing on the sidewalk outside of a clinic. The
Ordinance is much more limited in its purview: it
prohibits only knowingly congregating, patrolling,
picketing or demonstrating. A single individual
handing out fliers does not appear to fit within the
actions prohibited by the Ordinance. Individuals
run afoul of the Ordinance only when they *464
gather together in groups (“congregate”) and hold
up banners, pickets, or similar signage (“picket” or
“patrol”) or chant, shout, or use voice amplification
to
vociferously
express
their
message
(“demonstrate”) within the buffer zone. They must
also do so “knowingly.” Thus, Plaintiffs’ fear that
they would be arrested for stepping a few inches
over the line is misplaced. See Hill, 530 U.S. at 727,
120 S.Ct. 2480; Brown, 586 F.3d at 291 n.34; Bruni,
824 F.3d at 384 (Fuentes, concurring). Neither
buffer zone requires protesters to move to the
opposite side of the street as did the Massachusetts
law. McCullen, 134 S.Ct. at 2527-2528. Planned
Parenthood employees testified that they are able
to hear Plaintiffs’ speech at a conversational
volume from outside of the buffer zones. (Tr. at
159-160; 186-187.) Plaintiffs both admit that they
would be able to walk with potential patients up or
down the sidewalk until they reached the buffer
zone, hand out literature, and speak to individuals
coming out of the front door of Planned Parenthood.

45a
(Tr. 279-283; 297-298.) Put another way, the
Ordinance does not specifically prohibit the type of
expression that the McCullen Court found essential
to the exercise of First Amendment rights.
Concluding that the Ordinance limits certain acts
within the buffer zone, the court now turns to the
degree of limitation imposed by the physical
boundaries of the buffer zone.
Although the physical size of the buffer zone is only
one factor to be considered in determining the
limits imposed by the Ordinance, it is the factor
that has garnered the most attention from the
parties in this case. Plaintiffs repeat throughout
their briefs that the Ordinance creates an effective
70-foot barrier around the clinic because of the
combination of the 20-foot buffer zones.
Specifically, the buffer zones extend from either
edge of the driveway and the outermost part of the
clinic doorway.5 Taken at face value, the
“effectively 70-foot” barrier created by the
Ordinance is even more burdensome than the
56-foot barrier in McCullen. As illustrated by
Defendants, however, this is not the whole picture.
5

Plaintiffs note that the buffer zone that was recently
upheld by the Western District in Bruni v. City of
Pittsburgh, 283 F.Supp.3d 357, 365 (W.D. Pa. 2017),
did not include driveways. As illustrated in the
photograph of the Pittsburgh Planned Parenthood
clinic, attached as Exhibit G to Plaintiffs’ brief, it does
not appear that the Pittsburgh clinic had a driveway at
all, but instead was located in an urban environment.

46a
Defendants demonstrate that the buffer zones
remove relatively little space that was previously
available to Plaintiffs. The sidewalk comprising the
northernmost expanse of the buffer zone includes
approximately 15 feet of a neighbor’s driveway,
which Plaintiffs were previously prohibited from
blocking. (Tr., p. 131-132, 136; Pls. Ex. 9, p. 4.)
Thus, only five feet of sidewalk between the edge of
the clinic driveway and the neighbor’s driveway has
been restricted. (Id. at 132.) Notably, Defendants
presented evidence that the City had previously
considered a somewhat larger buffer zone, but
reduced the expanse to give Plaintiffs a four-foot
wide area to protest directly in front of the clinic
entrance, but out of the way of patients walking in
and out of the clinic. (Id. at 49-51, 131-132; Doc.
59-7, p. 51; Defs. Ex. 20; Pls. Ex. 9, p. 4.)
Approximately one-third of the southernmost
portion of the buffer zone includes private property
owned by Planned Parenthood from which
Plaintiffs were already restricted. (Tr. at 143-144;
Pls. Ex. 9, p.4.) Plaintiffs curiously complain that
the four-foot area directly in front of the clinic is
useless for counselling, yet seem to argue that the
five-foot area between the Planned Parenthood
driveway and the *465 neighboring driveway is
essential to their purpose. (Doc. 88, p. 39.) Thus,
the sum total of the area restricted by the buffer
zones is between 15 to 20 feet of sidewalk on one
side of the street. This appears to be in contrast to
the buffer zone in McCullen, which encompassed “a
56-foot-wide expanse of the public sidewalk” and
“more than 93 feet of the sidewalk (including the
width of the driveway) and extending across the

47a
street and nearly six feet onto the sidewalk on the
opposite side.” McCullen, 134 S.Ct. at 2527
(emphasis
added).6
These
measurements
demonstrate that the Ordinance creates a buffer
zone less physically restrictive than the buffer zone
in McCullen.
6

Although this court granted Plaintiffs’ request to file a
sur-reply to Defendants’ post-hearing reply brief (Docs.
101, 107, 108), Plaintiffs do not contradict the City’s
calculation that the Massachusetts buffer zone covered
an area of 3848.45 square feet total, 2481.63 square
feet of public property, but the Ordinance restricts only
824.16 square feet total and 469.66 square feet of
public property. (Doc 101, p. 45.)

To reiterate, the evidence presented by both parties
demonstrates that the Ordinance effectively
restricts Plaintiffs and other protesters from
performing certain acts of “counselling” on 15-20
feet of sidewalk that was previously available to
them. In essence, this constitutes a minor physical
restriction on a profound right. It is unclear from
prior precedent whether any appreciable physical
restriction on Free Speech is “substantial” under
the analysis clarified by McCullen. Accordingly,
although the limitation is slight in many respects,
the court concludes that it is substantial enough to
shift the burden to the City to show that it tried
less-restrictive alternatives that failed or seriously
considered other available alternatives.

ii. Consideration of less-restrictive alternatives

48a
Because Plaintiffs have met their burden to show
that the buffer zones place a substantial limit on
their free speech rights, the City now bears the
burden to show that it considered less-restrictive
alternatives or that less-restrictive alternatives
were tried and failed. Reilly II at 180. At the
evidentiary
hearing,
Defendants
presented
evidence of the difficulty enforcing other laws that
would have prevented the acts complained of by the
City, the City’s financial difficulty increasing its
police force, and the documentary evidence
considered by the City council. The City also
introduced audio of the hearing and related
testimony from Planned Parenthood employees.
The City argued that this evidence, taken together,
demonstrates that alternative methods had failed
and that the City considered numerous
alternatives, but was constrained by its dire
financial limitations from moving forward with
other methods of enforcement. Plaintiffs argue that
the City failed to affirmatively consider alternative,
less-restrictive, methods of achieving its legitimate
governmental interest. In support of this argument,
Plaintiffs refer to the brevity of the hearing at
which the Ordinance was enacted and the surfeit of
alternative laws that would achieve the same goal
of preventing protesters from interfering with clinic
patients.
Plaintiffs argue that the Defendants bear the
burden of producing a “meaningful record” that the
City “closely examined and ruled out for good
reason” less-restrictive alternatives to the
Ordinance. (Doc. 88, p. 56 (citing Bruni, 824 F.3d at

49a
369-370 (3d Cir. 2016) ).) Plaintiffs interpret this
requirement to mean that, in the course of a council
hearing, the City legislators must introduce
evidence to support the problem they seek to rectify
and address exhaustively the potential options for
solving the *466 problem. Although the discussion
held by councilmembers must be considered in
determining if Defendants can show they seriously
considered less-restrictive alternatives, a council
hearing is not a trial where relevant exhibits must
be placed into evidence. See Bruni, 824 F.3d at 370
n.14 (discussing the need to examine the
“legislative record” before the lawmaking body).
Such an onerous burden on a city’s legislature
would likely stymie any action on local ordinances.
It would be reasonable to assume, and likely
unreasonable not to assume, that an elected body is
generally aware of the needs and faculties of the
municipal entity it represents and need not be
reeducated before voting on each piece of legislation
before it. See Metromedia, Inc. v. San Diego, 453
U.S. 490, 508–12, 101 S.Ct. 2882, 69 L.Ed.2d 800
(1981) (opinion of White, J., joined by Stewart,
Marshall & Powell, JJ.) (“[the Court] hesitate[s] to
disagree with the accumulated, common-sense
judgments of local lawmakers”); Bruni, 824 F.3d at
377 (Fuentes, concurring) (“A local ordinance
enacted by a local lawmaking body is naturally
distinct from a state government that “enacts a
blanket prohibition to address a localized problem.”
”)
Moreover, Plaintiffs argue that the City was
required to systematically analyze the available

50a
alternatives during the single hearing put on the
record. The City clearly received input from its
citizens and had available police reports of calls
made by Planned Parenthood and testimony that
protesters were impeding access to the clinic and
threatening and intimidating patients. Bruni and
McCullen did not specifically require that the local
government produce all available evidence and
consider alternatives at a single, recorded hearing
before taking action. Instead, they require only that
“substantially less-restrictive alternatives were
tried and failed, or that the alternatives were
closely examined and ruled out.” Bruni, 824 F.3d at
370 (citing McCullen, 134 S.Ct. at 2540).
Considering the evidence submitted by the City,
the court concludes that Defendants have met their
burden of showing that the City’s less-restrictive
alternatives were ineffectual and that the City gave
due consideration to available options before
enacting the Ordinance.
The City has introduced evidence of the specific
consideration given to the Ordinance before its
passage. The audio recording of the hearing at
which the Ordinance was discussed includes
approximately 18 minutes of discussion regarding
the Ordinance, which amounts to 12 pages of
transcripted text. (Defs. Ex. 26.) The hearing itself
includes testimony by a Planned Parenthood
employee, Guth, and a neighborhood resident, Yost,
both describing the harm caused in the
neighborhood surrounding the clinic. Specifically,
Guth read into the record a statement by Heather
Shumaker, Director of Public Affairs for Planned

51a
Parenthood, which described that protesters: (1)
would follow patients from the sidewalk to the
clinic door, screaming at them, insulting them, and
calling them murderers; (2) would take pictures of
patients and employees and write down license
plate numbers, to insinuate threats of future harm
or harassment; (3) would trespass onto clinic
property to bang on windows or take photos inside
the clinic; (4) would wait around either side of the
clinic driveway until a car attempted to enter the
driveway, then slowly walk across it in an attempt
to impede and deter cars from entering the clinic
parking lot. (See Pls. Ex. 20.) Yost testified that the
protesters generally disturbed neighborhood
residents with loud yelling and blocking the
sidewalk on a regular basis. Yost further testified
that she had participated in “counter-protests”
around the clinic. At *467 these counter-protests,
Yost stated that anti-abortion protesters would
brandish pepper spray at the counter-protesters
and scream into the counter-protesters’ faces.7 No
testimony in opposition to the Ordinance was
offered at the hearing. Although the discussion at
the hearing was brief, testimony presented by
Defendants demonstrate that the hearing
testimony was the tip of the iceberg of
consideration given to the Ordinance.
7

Notably, counter-protests as described by Yost would
clearly be prohibited by the terms of the Ordinance.

A draft version of the Ordinance was originally
supplied by Planned Parenthood to Councilman

52a
Koplinski to address problems seen at the clinic
parallel to problems addressed at other clinics
throughout the country. (Doc. 59-4, pp. 7-9.) After
the draft was given to Koplinski, it was submitted
to the City’s Law Bureau for review. (Id.) As a
matter of course, the Bureau would review the
constitutionality of any ordinance before it was
presented to the full council for review. (Id.)
Although we give no deference to the determination
of the constitutionality by the Bureau, it is relevant
for purposes of determining whether the City gave
due consideration to alternatives that the City’s
Law Bureau reviewed the statute. After review by
the Law Bureau, the proposed ordinance was read
at a “reading meeting” of the City council. (Doc.
59-5, pp. 46-47.) This meeting was considered a
mere formality at which the text of the draft was
read aloud at a public meeting. (Id.) After the
reading meeting, the bill was submitted to a
committee of the council for consideration. (Id. at
47.) Between the initial reading and the committee
consideration, the draft was modified in two
substantive respects. First, driveways were
included in the areas covered by the buffer zones.
(Tr., p. 49.) Second, the Planned Parenthood draft
included a buffer zone of 24 feet as opposed to 20
feet. (Id.) The committee considered 15-foot buffer
zones and larger zones up to 30 feet. (Doc. 59-5, p.
49.) The 20-foot buffer was considered to be the
“middle ground where it was a safe enough space
for people to feel comfortable to be able to gain
access to and from the clinic and also where
individuals could speak at a reasonable voice ... to
be able to get their points across.” (Id.) Thus, the

53a
City has presented evidence that the distance was
not arbitrarily chosen, but was specifically
considered the most appropriate distance to
adequately protect the employees and patients of
the local clinics.

iii. Less-restrictive alternatives were tried and failed
Plaintiffs have failed to show a feasible,
less-restrictive alternative was available to the
City. See Reilly II at 179-80; see also Traditionalist
Am. Knights of the Ku Klux Klan v. City of Desloge,
Mo., 775 F.3d 969, 978 (8th Cir. 2014) (concluding
that the district court abused its discretion in
granting a preliminary injunction against
enforcement
of
an
ordinance
prohibiting
distribution of leaflets along roadways) (“In
contrast to McCullen, the record here does not show
an obvious, less burdensome alternative that the
city [ ] should have selected.”). Plaintiffs suggest
three distinct less-restrictive alternative methods
of achieving their goals: (1) existing state, federal,
and local laws; (2) targeted injunctions against
specific violators; and (3) crafting a less-restrictive
ordinance.
Plaintiffs cite five relevant laws and ordinances
that they suggest would be less-restrictive
alternatives to the Ordinance: (1) 18 Pa. Code
3503(b) (Defiant Trespass); *468 (2) Harrisburg
Ordinance 3-341 (disturbing the peace); (3)
Harrisburg Ordinance 3-343 (noise disturbances);
(4) Harrisburg Ordinance 3-339 (malicious
loitering); and (5) the federal Freedom of Access to

54a
Clinic Entrances Act (“FACE”), 18 U.S.C. 248.
Because Bruni and McCullen require evidence that
“substantially less-restrictive alternatives were
tried and failed, or that the alternatives were
closely examined and ruled out,” the court may
examine whether these existing statutes were
effective and need not limit its inquiry to whether
the City council affirmatively acknowledged their
failure at a hearing. Bruni, 824 F.3d at 370 (citing
McCullen, 134 S.Ct. at 2540) (emphasis added). It
is uncontested that these statutes were available to
law enforcement at the time the Ordinance was
being considered. It does not appear that any
prosecutions under these statutes were brought by
the City or private citizens; however, the City has
produced records of police being called to Planned
Parenthood for the harms that the City sought to
correct by enacting the Ordinance. (Defs. Ex. 33.)
Koplinski addressed each of the statutes cited by
Plaintiffs during the hearing. Koplinski testified
that his experience was that police would not be
able to timely respond to complaints of the trespass
statute, noise ordinance, and disorderly conduct
ordinance. (Tr., p. 34-38.) Essentially, between
when police were called and when they arrived, the
protesters would have retreated from the offending
conduct. (Id.) Also at the committee hearing, when
questioned about the enforcement of noise
ordinances generally, the Chief of Police stated that
such laws are difficult to enforce unless the officer
happens to be at the location at the time of the
offense. (Defs. Ex. 26, Hearing Audio at
52:30-53:03.) Plaintiffs argue that the City council,
at the hearing, instructed the Chief to enforce the

55a
noise ordinance more often, yet failed to do the
same with the laws and ordinances noted above at
Planned Parenthood. Contrary to Plaintiffs
assertions, police may enforce certain ordinances
stringently throughout the City more easily than
enforcing particular laws at a particular location.
The former would require an officer to look for
certain offenses that may have been considered
“minor” or exercise his or her discretion to issue
citations more frequently for certain offenses; the
latter would require an officer to deviate from his
or her typical patrol route or remain stationary at a
certain location instead of patrolling the City.
Thus, a councilperson’s instruction to “enforce noise
ordinances” more often does not imply that such a
simple mandate would effectively remedy the
problems at the clinic.
In order to effectively enforce these existing laws,
the council reasoned that increased police presence
would be necessary, but knew that it was without
the financial resources to do so. The council was
specifically informed of the City’s inability to hire
new police officers to increase patrol routes. The
Pennsylvania Department of Community and
Economic Development (“DCED”) issued several
requirements for the City’s receivership status in
November 2011. (Defs. Ex. 6; Tr. 230.) Relevantly,
no additional officers could be hired or expenditures
of over $2,500 could be made without prior DCED
approval. (Id.) This notice from DCED was
addressed directly to the Council President. (Id.)
The City has produced an abundance of evidence
demonstrating the City’s poor financial standing.

56a
(See Defs. Exs. 2, 3, 5, 6.)8 Koplinski further
testified as to the *469 pervasive nature of the
City’s financial situation:
We were, as a city, we had gotten into some
significant financial difficulty; 300 million dollars
in debt due to a botched incinerator project. And
we were trying to find out ways to get out of that
threatened bankruptcy. This was not, of course,
only a local story, it was a statewide and national
story as well. I did interviews on CNN and other
outlets. It was well-known that the city was
having extreme financial difficulties in 2011 and
2012. We were making some significant decisions
as to how to eliminate that debt. But we were
under a receiver, state-appointed, and had very
strict financial controls over the city.
....
We had multiple scares in which the city was not
going to be able to make payroll. Only emergency
loans were able to take care of that. Police
situation was not good. Our compliment on the
streets was as low as four officers on the street at
any particular time. You could say that there
literally were street lights out. I mean, maybe not
to the point of keeping the lights on at City Hall,
but pretty darn close.
(Tr., p. 26.)
Q. Now did the city have the financial resources
to station a police officer at both Hillcrest and at
Planned Parenthood to enforce statutes such as
the trespass ordinance?

57a
A. Absolutely not.
(Tr., p. 34.)
8

Plaintiffs filed a notice of objections to several exhibits
and portions of transcripts introduced by Defendants at
the preliminary injunction hearing. (Doc. 106.)
Specifically, Plaintiffs objected to Exhibits 2, 3, 5, and 6
as irrelevant under Federal Rule of Evidence 401, or
more prejudicial than probative under Rule 403. As
explained herein, Exhibits 2, 3, 5, and 6 are relevant to
show the City’s prior knowledge of its financial
situation for purposes of determining whether the City
adequately considered less-restrictive alternatives to
the Ordinance. Accordingly, Plaintiffs’ objections are
overruled with respect to Exhibits 2, 3, 5, and 6, and
Plaintiffs’ remaining objections are sustained.

Because of these financial limitations, the City
argues that it is unable to afford additional police
officers to patrol the area around Planned
Parenthood on a regular basis. Cf. McCullen, 134
S.Ct. at 2540 (“[T]he police maintain a significant
presence outside Massachusetts abortion clinics.”).
Plaintiffs do not appear to contest the City’s
financial status, but argue only that the City did
not specifically make a formal determination that it
could not afford police staffing at Planned
Parenthood. The City has produced substantial
evidence that it has experienced difficulty
increasing its police force due to its inability to
adequately fund its police operations. Cf. Turco v.
City of Englewood, No. 15-cv-3008, 2017 WL
5479509, *5 (D.N.J. Nov. 14, 2017) (“[Englewood]
fails to provide any reliable documentation or

58a
support for its assertion that ... the City did not
have the resources to have a continuous [police]
presence at the site.”). Plaintiffs fail to contradict
this assertion, but suggest that the City is required
to perform an analysis to determine that it cannot
afford new police officers. Such a requirement is
completely without support either in logic or the
law. A cash-strapped City that is aware of its need
for frugality need not spend money it cannot afford
to confirm what it already knows. Chamber of
Commerce for Greater Philadelphia v. City of
Philadelphia, 319 F.Supp.3d 773, 788 (E.D. Pa.
2018) (“To meet its burden of showing that a law
‘directly advances’ a substantial interest, the City
must establish that the harms it recites are real and
that its restriction will in fact alleviate them to a
material degree.”) (emphasis added) (quoting
Edenfield v. Fane, 507 U.S. 761, 770, 113 S.Ct.
1792, 123 L.Ed.2d 543 (1993) ) (citing *470 Turner
Broad. Sys., Inc. v. F.C.C., 512 U.S. 622, 664, 114
S.Ct. 2445, 129 L.Ed.2d 497 (1994) ). Thus, with
respect to the state laws and local ordinances, the
City council was aware of their ineffectiveness and
the City’s financial inability to adequately enforce
them.
Koplinski also testified that he had previously been
counsel on a special task force within the
Department of Justice that specifically litigated
FACE claims. (Tr., pp. 61-62.) He noted the
difficulty in bringing civil suits under FACE
contrasted with the effectiveness of summary
criminal offenses, and explained that the City
would likely face difficulty funding protracted civil

59a
litigation in federal court. (Id. at 61-62; see also
Doc. 59-5, pp. 130-131.) Beyond the City’s
consideration of the difficulties in enforcing FACE,
it does not appear that the City has authority to
bring a civil action under that statute. FACE gives
a right to sue to any “person” aggrieved by certain
prohibited acts and a person “lawfully exercising or
seeking to exercise the First Amendment right of
religious freedom at a place of religious worship.”
18 U.S.C. 248(c)(1)(A). FACE also empowers the
United States Attorney General and State
Attorneys General as parens patriae to bring
similar enforcement actions. 18 U.S.C. 248(c)(1)(A).
Thus, it appears that, even if the City had desired
to increase enforcement under FACE, it was
without authority to do so.
It does not appear from the record that any
consideration was given to seeking injunctions
against individual protesters. Defendants only
argument why they failed to do so is that it would
be financially unfeasible to do so. The City offers no
evidence of the cost to seek such injunctions or any
reasons why they are beyond the typical expenses
of the City’s Legal Bureau. Thus, the court finds
that Defendants did not consider personal
injunctions against protesters. Regarding a
less-restrictive buffer zone ordinance, the City did
specifically consider a buffer zone of 15 feet, but
after consultation with the City solicitor and clinic
personnel, rejected that distance as failing to
adequately cover the specific areas around the
clinic. (Doc. 59-5. p. 49.)

60a
There also appears to be evidence that the City
stopped enforcing the buffer zones in the wake of
McCullen, although it is unclear who or if any
individual informed police that McCullen rendered
the buffer zone inoperable. (See Pls. Exs. 44, 47.)
On August 22, 2015, Planned Parenthood
employees experienced a large scale protest that
included an estimated 100 anti-abortion protesters
as well as approximately 15 counter-protesters.
(Pls. Ex. 44.) The employees believed, and were
apparently informed by police, that the buffer zones
were unenforceable. (Id.) After this large protest,
Neil Grover, the City solicitor, issued a directive to
the police bureau stating that the buffer zone was
still enforceable. (Pls. Ex. 47.) There is no record of
further large scale protests after that date.
Plaintiffs argue that it is unreasonable to infer that
the McCullen decision, which was issued on June
26, 2014, could have been causally related to the
protest 14 months later. Although by no means
definitive, it is conceivable that the two are directly
linked. The McCullen decision did not wholesale
invalidate all buffer zones around clinics, nor did it
invalidate buffer zones of a particular size or scope.
In fact, no decision has yet invalidated the
Ordinance. It is not unreasonable to conclude that
McCullen was misconstrued by officers who stopped
enforcing the Ordinance over time. This process
may have been gradual as there is no evidence of
any formal directive or instruction to that effect. It
may have similarly taken months for protesters to
discover that the Ordinance was de facto
unenforceable, and more months yet to organize a
protest of *471 100 individuals. That said, there is

61a
no evidence that McCullen directly led to
Harrisburg police ceasing to enforce the Ordinance.
There is, however, evidence that the Ordinance was
not being enforced in August 2015 when the
large-scale protest and counter-protest occurred.
Thus, there is support for an inference that the
Ordinance did have some ameliorative effect on the
problems that it sought to resolve. (See Pls. Exs. 44,
50, ¶¶ 19-20.)
The record is clear that the City had undertaken
some examination of alternatives to the Ordinance.
The crucial question is whether it gave enough
consideration to such alternatives. The council was
aware that hiring additional police to patrol the
clinic was financially unworkable and that
enforcement of existing ordinances was an
ill-fitting solution without constant or at least
consistent police presence at the clinic. The City
actually did consider both more and less physically
restrictive buffer zones, and chose the distance
that, in its judgment, was the fulcrum between
protecting its citizens and protecting free speech
rights. The City did not consider individual
injunctions against offenders; although if police are
unable to cite individuals for violations of certain
laws, it is unclear what the legal basis for such an
injunction would be. The City also did not formally
petition the Commonwealth Attorney General or
the United States Attorney General to enforce
FACE at the clinics. Taking this evidence together,
the court relies on the Third Circuit’s instruction in
Bruni that the City need not “demonstrate that it
has used the least-restrictive alternative, nor ...

62a
that the City demonstrate it has tried or considered
every less burdensome alternative to its
Ordinance.” Bruni, 824 F.3d at 370 (citing Ward,
491 U.S. at 800, 109 S.Ct. 2746) (emphasis in
original) (“intermediate scrutiny affords some
deference to a municipality’s judgment in adopting
a content-neutral restriction on speech.”). Thus, the
court concludes that the City has carried its burden
to demonstrate that less-restrictive alternatives
were tried and failed or that alternatives were
closely examined and ruled out.
Although Plaintiffs have demonstrated that the
Ordinance substantially burdens their First
Amendment rights, Defendants have met their
burden to show that the Ordinance was narrowly
tailored to achieve a legitimate governmental
interest because the City considered less-restrictive
alternatives, ruled them out as less effective, and
demonstrated that other less-restrictive methods
had been tried and failed. Accordingly, the court
holds that Plaintiffs have failed to show that they
have a likelihood of success on the merits.
Nonetheless, the court will now consider the
remaining factors in the preliminary injunction
analysis.

C. Irreparable Harm
The analysis for determining whether Plaintiffs
would suffer irreparable harm is comparatively
straightforward. “It is hornbook law that the
‘irreparable harm requirement is met if a plaintiff
demonstrates a significant risk that he or she will

63a
experience harm that cannot adequately be
compensated after the fact by monetary damages ...
this is not an easy burden.’ ” Fulton v. City of
Philadelphia, 320 F.Supp.3d 661, 701 (E.D. Pa.
2018) (quoting Adams v. Freedom Forge Corp., 204
F.3d 475, 484-85 (3d Cir. 2000) ). However, the loss
of First Amendment freedoms, for even a de
minimis period of time, unquestionably constitutes
irreparable injury. Elrod v. Burns, 427 U.S. 347,
373-74, 96 S.Ct. 2673, 49 L.Ed.2d 547 (1976)
(plurality opinion) (citing N. Y. Times Co. v. United
States, 403 U.S. 713, 91 S.Ct. 2140, 29 L.Ed.2d 822
(1971) ). Thus, if the Ordinance constitutes harm to
Plaintiffs’ First *472 Amendment rights, such
harm is almost unquestionably irreparable. B.H. ex
rel. Hawk v. Easton Area Sch. Dist., 725 F.3d 293,
323 (3d Cir. 2013) (citing Elrod, 427 U.S. at 373, 96
S.Ct. 2673); see also 11A Charles Alan Wright,
Arthur R. Miller, Mary Kay Kane, Federal Practice
and Procedure § 2948.1 (2d ed. 1995) (“When an
alleged deprivation of a constitutional right is
involved, most courts hold that no further showing
of irreparable injury is necessary.”), quoted in Buck
v. Stankovic, 485 F.Supp.2d 576, 586 (M.D. Pa.
2007). As explained at length above, the court holds
that the Ordinance is a reasonable and
constitutionally appropriate time, place, and
manner limitation on protesters. Plaintiffs are not
limited from voicing their beliefs, except that they
may not protest, demonstrate, patrol, or congregate
within the buffer zone. They may still do so outside
the buffer zone, near the clinic, or individually
enter the buffer zone as long as they are not
protesting,
demonstrating,
patrolling,
or

64a
congregating. Accordingly, the court finds that
Plaintiffs will not suffer a deprivation of their
constitutional rights and, thus, will not suffer
irreparable harm if the Ordinance is not
preliminarily enjoined.

D. Public Interest and Harm to Others
Having concluded that Plaintiffs have failed to
satisfy both of the gateway factors necessary for a
grant of preliminary injunctive relief, the court
need not strictly analyze the remaining factors;
however, the court shall briefly address the
remaining factors. The remaining factors to be
weighed in determining if a plaintiff is entitled to
preliminary injunctive relief are (1) the possibility
of harm to other interested persons from the grant
or denial of the injunction, and (2) the public
interest. Reilly II at 176 (citing Transam. Trailer
Transport, Inc., 501 F.2d at 919-20.).
Under the present factual scenario, the final two
factors are circumjacent. The harm to “others” is
essentially the harm to the public at large asserted
by the City. The City argues that the public good is
furthered by preventing the exact harm that led to
the enactment of the Ordinance. Noise and
obstruction of the public sidewalk would be abated,
and violent or aggressive protesters would be less
likely to intimidate or harass patients or prevent
patients from entering the clinic. This would also
be the harm to others if the injunction were not
granted. It goes without saying, however, that a
deprivation of a constitutional right is contrary to

65a
the public interest and the harm to others (e.g.
neighborhood residents, Planned Parenthood
employees,
and
clinic
patients),
although
substantial, does not outweigh such a denial. See
K.A. ex rel. Ayers v. Pocono Mountain Sch. Dist.,
710 F.3d 99, 114 (3d Cir. 2013) (“[T]he enforcement
of an unconstitutional law vindicates no public
interest.”). Because this court holds that the City
has demonstrated that the Ordinance is narrowly
tailored to satisfy constitutional scrutiny, Plaintiffs
can point to no legitimate public interest or harm to
others that would support their motion for a
preliminary injunction.
Having held that Defendants have carried their
burden to demonstrate the constitutionality of the
Ordinance, and Plaintiffs have failed to
demonstrate irreparable harm, the court need not
proceed with the full balancing of the
Transamerican Trailer factors. See Reilly II at
179-80 (holding that the “likelihood of success on
the merits” and “irreparable harm” factors are
gateway factors in the preliminary injunction
analysis). However, if this court were to undertake
such a balancing test, it is clear that the final two
factors, harm to others and public interest, would
also weigh in favor of denying injunctive relief.
*473 Accordingly, all four factors, on balance,
would favor Defendants.

E. Credibility of Plaintiffs as Witnesses
Defendants argue that the court should apply the
doctrine of falsus in uno, falsus in omnibus to

66a
disregard Plaintiffs’ testimony at the hearing. (Doc.
101 at 49) (citing Lambert v. Blackwell, 387 F.3d
210, 256 (3d Cir. 2004) ). To do so, this court must
conclude that Plaintiffs “deliberately testified
falsely as to a material fact.” Dressler v. Busch, 143
F.3d 778, 781 (3d Cir. 1998). Specifically,
Defendants point to Plaintiffs’ testimony that they
saw a drop in the number of people they interacted
with at Planned Parenthood in contrast to their
testimony that they did not begin counselling at
Planned Parenthood until late 2015, approximately
three years after the buffer zone was enacted.
(Compare Tr., pp. 262-263 (“I started going to
Planned Parenthood in, I believe it was late 2015.”)
with Doc. 1, ¶ 61 (“Plaintiffs have regularly
engaged in free speech on the public sidewalks and
walkways outside of the Planned Parenthood and
Hillcrest clinics for years and prior to adoption of
the Ordinance did not observe any [confrontational]
conduct.”).) Defendants also note that Plaintiffs
verified a complaint that stated “Plaintiffs seek to
have quiet and personal one-on-one conversations
with, and to offer assistance and information to,
women” and “Plaintiffs do not desire to engage in
loud confrontations or any kind of harassment,” yet
were aware that former-plaintiff Gross was
engaging in aggressive behavior contrary to the
peaceful “counselling” allegedly sought by
Plaintiffs. (Compare Doc. 1, ¶¶ 62, 64 with Tr., p.
273 (“You would agree with me that Rosie Gross
was generally not up at that clinic to seek quiet and
personal one-on-one conversations with, and to
offer assistance and information to, women
considering abortions? Do you agree with that?

67a
[Plaintiff Biter:] Yes.”) and Defs. Ex. 24 (Video of
Rosalie Gross at Planned Parenthood).) Also
despite offering assurances that they seek only
peaceful counselling, Plaintiffs’ brief suggests that
they may intend to follow unconsenting women up
to the clinic door. (See Doc. 88, p. 36 (“[P]assersby
usually enter the buffer zone, and Plaintiffs are cut
off from any further interaction ... the buffer zone
[is] a big impediment ... If the buffer zone were not
there, Plaintiffs would continue to walk with and
converse with willing patients over the 70 feet of
public sidewalk leading to Planned Parenthood’s
door.”) (record citations omitted).) Although
Plaintiffs describe these women as “willing” it is
unclear why a “willing” listener would be unable to
simply stop outside the buffer zone to speak with
Plaintiffs as opposed to being followed to the clinic
doorstep. These contradictions cast doubt on the
veracity of Plaintiffs’ testimony, but have little
bearing on the disposition of the case. The purpose
of the Ordinance was not to bar Plaintiffs from
peaceful counselling or distributing literature, nor
does it. The scope of the Ordinance is limited both
in the actions it proscribes and the physical
boundaries it covers. As explained at length, above,
Plaintiffs’ ability to peacefully offer counselling, as
they testified to desire, is not wholesale prohibited
by the Ordinance. To the extent Plaintiffs
testimony can be reconciled, it is possible that they
engaged with fewer patients overall after Hillcrest
closed. Because Plaintiffs stated that they did not
counsel at Planned Parenthood prior to the
Ordinance’s enactment, they have little basis to
argue that the Ordinance directly led to their

68a
alleged decrease in engagement. Thus, even taking
Plaintiffs’ testimony as true, the court’s analysis
would remain the same.
III. Conclusion
The Court again emphasizes the paramount
importance of First Amendment *474 rights in the
continued functioning of our democracy. However,
the Supreme Court has, time and time again,
recognized that limits to these rights exist. Here,
the City has placed reasonable and constitutional
limits on the free speech rights of protesters at
certain locations within its municipal limits. The
Court holds that the Ordinance is content neutral
and, thus, subject to an intermediate scrutiny
analysis. In determining whether to grant
Plaintiffs request for a preliminary injunction, the
court applied the factors as set forth by the Third
Circuit in Reilly II. In doing so, the court concluded
that: (1) Plaintiffs failed to demonstrate a
reasonable likelihood of success on the merits
because Defendants met their burden of
demonstrating that the Ordinance was narrowly
tailored to achieve a legitimate governmental
interest; (2) Plaintiffs failed to demonstrate
irreparable harm; and (3) even if Plaintiffs had
done so, the final two factors in the preliminary
injunction analysis weighed against granting
injunctive relief. Accordingly, Plaintiffs’ motion for
preliminary injunctive relief is denied. An
appropriate order will follow.
All Citations
336 F.Supp.3d 451

69a
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT IN
BRUNI v. CITY OF PITTSBURGH
AFFIRMING SUMMARY JUDGMENT
AGAINST CHALLENGE TO PITTSBURGH
BUFFER ZONE ORDINANCE,
FILED OCTOBER 18, 2019
(Bruni II)
941 F.3d 73
United States Court of Appeals, Third Circuit.
Nikki BRUNI; Julie Cosentino; Cynthia Rinaldi;
Kathleen Laslow; Patrick Malley, Appellants
v.
CITY OF PITTSBURGH; Pittsburgh City Council;
Mayor Pittsburgh
No. 18-1084
|
Argued: February 6, 2019
|
(Opinion Filed: October 18, 2019)
Before: HARDIMAN, KRAUSE, and GREENBERG,
Circuit Judges
OPINION OF THE COURT
KRAUSE, Circuit Judge.
This case requires us to determine the
constitutionality of a Pittsburgh ordinance that
creates a fifteen-foot “buffer zone” outside the
entrance of any hospital or healthcare facility.

70a
Pittsburgh, Pa., Code § 623.04 (2005) [hereinafter
“the Ordinance” or “Pitts. Code”]. In relevant part,
the Ordinance states that “[n]o person or persons
shall knowingly congregate, patrol, *78 picket or
demonstrate” in the prescribed zone. Id. Outside of
a Planned Parenthood in downtown Pittsburgh,
Plaintiffs engage in leafletting and “peaceful ...
one-on-one conversations” conducted “at a normal
conversational level and distance” intended to
dissuade listeners from obtaining an abortion.
Appellants’ Br. 9, 17–18. As the City has asserted
that the Ordinance applies to this speech, known as
“sidewalk counseling,” Plaintiffs argue that the
Ordinance is facially unconstitutional under the
First Amendment and the District Court erred in
granting summary judgment in the City’s favor.
Because we conclude that the Ordinance does not
cover sidewalk counseling and thus does not impose
a significant burden on speech, we will affirm.

I. Background
A. Factual Background1
1

The background summarized here is drawn from the
record and our prior opinion in this case, Bruni v. City
of Pittsburgh (Bruni I ), 824 F.3d 353, 357–59 (3d Cir.
2016). Because we are reviewing a district court’s grant
of summary judgment, we consider the facts in the
light most favorable to the non-movants and draw all
reasonable inferences in their favor. See Hugh v. Butler
Cty. Family YMCA, 418 F.3d 265, 266–67 (3d Cir.
2005).

71a
1. History of the Ordinance
In the mid- and late 1990s, Planned Parenthood
was the site of numerous clashes between
opponents and advocates of abortion rights as well
as individuals seeking the facility’s services.2 In
addition to seeing “hundreds” of people at the
facility on a Saturday—“pro and anti”—the clinic
was plagued by bomb threats, vandalism, and
blockades of its entrance. JA 322a. To address
these incidents, the Bureau of Police deployed an
overtime detail of “up to ten officers and a
sergeant” to maintain order and security, often
using
crowd-control
barriers
to
separate
demonstrators from each other and from patients
trying to enter the clinic. JA 1024a.
2

The same was true of Allegheny Reproductive Health
Center, another clinic that provides abortions, which,
in addition to seeing hundreds of protestors, was fire
bombed, intentionally flooded, and had its windows
shot out.

In 2002, Planned Parenthood moved to its current
location at 933 Liberty Avenue. Although the
incidents lessened in severity, contemporaneous
police logs and testimony from Sergeant William
Hohos indicate that “the pushing,” “the shoving,”
and “the blocking of the doors” continued, and the
overtime detail, reduced in size, continued to
provide a police presence. JA 323a, JA 834a, JA
837a. After Pittsburgh was declared a financially
distressed municipality in late 2003, however, fiscal
constraints and the need for redeployment of
limited police resources required the detail to be

72a
discontinued, and police were called to address the
continuing incidents at the site on an as-needed
basis. In the wake of the detail’s discontinuation,
the clinic reported an “obvious escalation in the
efforts of the protestors,” JA 357a, including an
increase in “aggressive pushing, shoving and ...
harassing behavior that included shoving literature
into people’s pockets, hitting them with signs and
blocking their entrance into the building,” JA 352a.
In November 2005, the City Council held hearings
on proposed legislation that eventually resulted in
the Ordinance. Among those who testified were
sidewalk counselors, clinic escorts, patients, and
other concerned members of the community.
Several witnesses insisted the Ordinance was
unnecessary either because they had never
observed violent incidents or were unaware of
“significant violence” outside the clinic. JA 348a.
But other witnesses *79 reported being personally
harassed and prevented from entering the clinic,
being yelled at through the glass doors of the clinic,
and seeing patients being surrounded on the
sidewalk. A Planned Parenthood counselor
described patients entering the clinic in a
“psychological state [of] situational crisis,”
threatening their health. JA 355a. And “without
[police] supervision,” the President and CEO of
Planned Parenthood of Western Pennsylvania said,
“there ha[d] been an increase in unlawful behavior
that ... put[ ] ... patients, their families, pedestrians
and ... protestors at risk.” JA 352a.
The City Council also heard from Commander

73a
Donaldson of the Pittsburgh Police Department. He
reported that police had been summoned to
Planned Parenthood twenty-two times in the past
six months alone to “mediate confrontations” and
respond to incidents ranging from signs
“obstructing the front of the building” to protestors
“follow[ing] ... people to the doorway.” JA 404a.
They had not made any arrests, however. According
to Commander Donaldson, the City had on its
books “laws ... that would address obstructing
traffic or passageways or ... the [clinic’s] doorway,”
but those laws would not address the precise
problem that was occurring, namely attempts to
block people from entering the facility before they
reached its front door.3 JA 398a.
3

The City’s designated representative, who had been a
member of the overtime detail before it was disbanded,
likewise attested that the criminal laws were not
adequate to deal with protestors and demonstrators
outside the clinic because the obstructive conduct
“[wasn’t] rising to those levels. It was all the
underlying stuff in between.” JA 1057a.

The debate on the Ordinance was extensive. Many
witnesses, both for and against the legislation,
expounded on the competing interests at stake and
expressed a desire to protect both free speech and
access to healthcare, including abortions.

2. The Ordinance
Shortly after these hearings, the City Council

74a
adopted the Ordinance, and the mayor signed it
into law. See Bruni v. City of Pittsburgh (Bruni I ),
824 F.3d 353, 357 (3d Cir. 2016). Codified as
Chapter 623 of the Pittsburgh Code of Ordinances,
the Ordinance states, in relevant part:
No person or persons shall
knowingly
congregate,
patrol,
picket or demonstrate in a zone
extending 15 feet from any
entrance to the hospital and or
health care facility. This section
shall not apply to police and public
safety officers ... in the course of
their official business, or to
authorized
security
personnel
employees or agents of the
hospital, medical office or clinic
engaged in assisting patients and
other persons to enter or exit the
hospital, medical office, or clinic.4
Pitts. Code § 623.04. The Council also ratified a
preamble that set forth the City’s goals in adopting
the Ordinance, including “provid[ing] unobstructed
access to health care facilities” and “medical
services,” “avoid[ing] violent confrontations,”
“provid[ing] a more efficient and wider deployment”
of City services, and “ensuring that the First
Amendment
rights
of
demonstrators
to
communicate their message ... [are] not impaired.”
Id. § 623.01.
4

Although the Chapter does not define “health care
facility,” a “[m]edical [o]ffice/[c]linic” is defined as “an

75a
establishment providing therapeutic, preventative,
corrective, healing and health-building treatment
services on an out-patient basis by physicians, dentists
and other practitioners.” Pitts. Code § 623.02. Penalties
for violating the Ordinance range from a $50 fine for a
first offense to a thirty-day maximum (and three-day
minimum) jail sentence for a fourth violation within
five years. Id. § 623.05.

*80 As originally passed, the Ordinance also
included an “[e]ight-foot personal bubble zone,”
extending one hundred feet around clinics, in which
people could not be approached without their
consent “for the purpose of passing a leaflet or
handbill to, displaying a sign to, or engaging in oral
protest, education or counseling.” Id. § 623.03.
Following a facial challenge to the Ordinance, we
concluded that the Ordinance was content neutral
and each zone was constitutionally permissible but
the combination of the two zones was not. See
Brown v. City of Pittsburgh, 586 F.3d 263, 273,
276–81 (3d Cir. 2009). On remand, the City chose
to abandon the floating bubble zone and retain only
the
fixed
buffer
zone
that
prohibited
“congregat[ing],
patrol[ling],
picket[ing]
or
demonstrat[ing].” Pitts. Code § 623.04. That choice
was effectuated by the District Court, which
permanently enjoined the bubble zone and required
the City to demarcate any fixed buffer zone prior to
enforcement.5
5

The injunction also required that the buffer zone be
construed to prohibit “any person” from “picket[ing] or
demonstrat[ing]” within the zone, including those

76a
allowed to enter the zone pursuant to their official
duties. See Brown, 586 F.3d at 275.

3. Application of the Ordinance and Plaintiffs’
Activities
Today, the City has demarcated buffer zones at two
locations, both of which provide reproductive health
services including abortions. Bruni I, 824 F.3d at
358. Plaintiffs Nikki Bruni, Cynthia Rinaldi,
Kathleen Laslow, Julie Cosentino, and Patrick
Malley engage in the bulk of their anti-abortion
activities outside the buffer zone at Planned
Parenthood. See id. at 359. In contrast to the
conduct that gave rise to the Ordinance, Plaintiffs
do not physically block patients’ ingress or egress or
engage in violent tactics. Instead, they engage in
what they call “sidewalk counseling,” meaning
“calm” and “quiet conversations” in which they
“offer assistance and information to” women they
believe are considering having an abortion “by
providing them pamphlets describing local
pregnancy resources, praying, and ... peacefully
express[ing] [a] message of caring support.”6 JA
59a; see Appellants’ Br. 9. That message, Plaintiffs
explain, “can only be communicated through close,
caring, and personal conversations, and cannot be
conveyed through protests.” JA 62a. Nonetheless,
the City takes the position that Plaintiffs’ sidewalk
counseling falls within the prohibition on
“demonstrating”—if
not
“congregating,”
“patrolling,” and “picketing” too, see JA
334a–37a—so while they can engage in sidewalk

77a
counseling outside the zone, they cannot once
within its bounds. See Bruni I, 824 F.3d at 359.
6

We will use the term “sidewalk counseling” in this
opinion with the meaning given to it by Plaintiffs. By
contrast, the title “sidewalk counselor” has sometimes
been claimed by those who engage in “ ‘in your face’
yelling ... pushing, shoving, and grabbing” consistent
with aggressive demonstration. Schenck v. Pro-Choice
Network of W. N.Y., 519 U.S. 357, 363, 117 S.Ct. 855,
137 L.Ed.2d 1 (1997). As Plaintiffs here have explained,
however, such conduct does not constitute sidewalk
counseling as they use the term and is
“counter-productive to [their] message of kindness,
love, hope, gentleness, and help.” JA 574a.

Plaintiffs describe various ways that the buffer
zone has hindered their ability to effectively
communicate their message. The street noise
makes it difficult for people to hear them, forcing
them to raise their voices in a way inconsistent
with sidewalk counseling. And at the distance at
which they are forced to stand, they are unable to
differentiate between passersby and individuals
who intend to enter the facility, causing them to
miss opportunities *81 to engage with their desired
audience through either speech or leafleting.
In addition to “sidewalk counseling,” Plaintiff Nikki
Bruni is the local leader of a group participating in
the “Forty Days for Life” movement, a global
anti-abortion campaign.7 Twice a year, campaign
participants, including Plaintiffs, pray outside of
abortion clinics from 7 AM to 7 PM continuously for
forty days. They do so in shifts, and many

78a
participants wear or carry signs. As the leader of
the group, Bruni organizes local churches to ensure
people are always outside of the clinic so “there’s
always groups on the sidewalk present during the
40 Days all day every day.” JA 141a. Although the
exact number of participants is disputed, the record
reflects a daily presence of somewhere between ten
and forty people.
7

The movement describes its mission as “to bring
together the body of Christ in a spirit of unity during a
focused 40 day campaign of prayer, fasting, and
peaceful activism, with the purpose of repentance, to
seek God’s favor to turn hearts and minds from a
culture of death to a culture of life, thus bringing an
end to abortion.” Bruni v. City of Pittsburgh, 283 F.
Supp. 3d 357, 363 (W.D. Pa. 2017).

B. Procedural Background
About five years after we upheld the buffer-zone
component of the Ordinance in Brown as a
content-neutral
time,
place,
and
manner
regulation, the Supreme Court decided McCullen v.
Coakley, striking down as insufficiently narrowly
tailored a Massachusetts law that created a
thirty-five-foot buffer zone in front of health
facilities where abortions were performed. 573 U.S.
464, 493–97, 134 S.Ct. 2518, 189 L.Ed.2d 502
(2014). The Court found the law “extreme,” id. at
497, 134 S.Ct. 2518, and “truly exceptional,” id. at
490, 134 S.Ct. 2518: although congestion occurred
at one clinic in one city once a week, the law
applied statewide to all reproductive health

79a
facilities and, with few exceptions, prohibited any
person from even “standing” in the zone, id. at 480,
493, 134 S.Ct. 2518. To justify this “significant ...
burden” on speech, id. at 489, 134 S.Ct. 2518, the
Court held, the government must “show[ ] that it
seriously undertook to address the problem with
less intrusive tools readily available to it,” such as
arrests, prosecutions, or targeted injunctions, or
“that it considered different methods that other
jurisdictions ... found effective,” id. at 494, 134
S.Ct. 2518.
In light of McCullen, Plaintiffs filed a complaint,
challenging the Ordinance, pursuant to 42 U.S.C. §
1983,
under
the
First
and
Fourteenth
Amendments. Bruni I, 824 F.3d at 359. The
District Court granted the City’s motion to dismiss
Plaintiffs’ First Amendment claims, and Plaintiffs
appealed.8 Id. at 360.
8

Plaintiffs also filed a motion for a preliminary
injunction to prevent the City from enforcing the
Ordinance against them, which the District Court
denied and Plaintiffs did not appeal. Bruni I, 824 F.3d
at 359–60. In addition to dismissing Plaintiffs’ First
Amendment claims, the District Court granted the
City’s motion to dismiss Plaintiffs’ Fourteenth
Amendment Due Process Clause challenge, a decision
we affirmed in Bruni I and that therefore is not on
appeal here. See id. at 360, 374–75. Earlier in this
litigation, Plaintiffs voluntarily dismissed their
as-applied challenges to the Ordinance, their claim
under the Equal Protection Clause, and their claim of
selective enforcement against the mayor. Id. at 359 n.5.

80a
We vacated the District Court’s dismissal. Id. at
357, 373–74. Taking as true the complaint’s
allegations that the Ordinance had been enforced
against Plaintiffs and had significantly hindered
their speech, id. at 369, we concluded that the
Ordinance “impose[d] a similar burden as that in
McCullen,” id. at 368 n.15, so that the City had the
same obligation as in McCullen to *82 demonstrate
“either
that
substantially
less-restrictive
alternatives were tried and failed, or that the
alternatives were closely examined and ruled out
for good reason,” id. at 370. We thus remanded for
factfinding on these issues, as well as a
determination about “the proper scope of the
Ordinance.” Id. at 357, 374. Notwithstanding our
earlier holding as to content neutrality in Brown,
586 F.3d at 273, 275, 277, we also directed the
District Court to consider whether the Ordinance
should still be considered content neutral in light of
Reed v. Town of Gilbert, ––– U.S. ––––, 135 S. Ct.
2218, 192 L.Ed.2d 236 (2015), the Supreme Court’s
most recent pronouncement on the dividing line
between
content-neutral
and
content-based
restrictions. Bruni I, 824 F.3d at 365 n.14.
On remand, the District Court accepted the City’s
contention that the Ordinance covered Plaintiffs’
sidewalk counseling as a form of demonstrating
and held that the Ordinance was content neutral,
even under Reed. Bruni v. City of Pittsburgh, 283 F.
Supp. 3d 357, 361, 367–68 (W.D. Pa. 2017). It also
distinguished the Ordinance from the statute in
McCullen as creating a smaller buffer zone and
allowing Plaintiffs to reach their audience through

81a
sidewalk counseling despite the buffer zone and
therefore concluded that the Ordinance imposed
“only a minimal burden on Plaintiffs’ speech.” Id. at
369–71. Accordingly, it held that the City “ha[d] no
obligation to demonstrate that it tried—or
considered
and
rejected”—the
alternatives
identified in McCullen, such as arrests or targeted
injunctions, and even if the City did have such an
obligation, it had been satisfied. Id. at 371–72. The
Court therefore granted the City’s motion for
summary judgment. Id. at 373. This appeal
followed.

II. Jurisdiction and Standard of Review
The District Court had jurisdiction under 28 U.S.C.
§ 1331, and we have jurisdiction under 28 U.S.C. §
1291. We review a district court’s grant or denial of
summary judgment de novo, see EEOC v. Allstate
Ins. Co., 778 F.3d 444, 448 (3d Cir. 2015), and may
affirm on any basis supported by the record, Gorum
v. Sessoms, 561 F.3d 179, 184 (3d Cir. 2009).
Summary judgment is appropriate only where
“there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). In the context of a
First
Amendment
claim,
we
“examine
independently the facts in the record and ‘draw our
own inferences’ from them.” Tenafly Eruv Ass’n v.
Borough of Tenafly, 309 F.3d 144, 157 (3d Cir.
2002) (quoting Christ’s Bride Ministries, Inc. v. Se.
Pa. Transp. Auth., 148 F.3d 242, 247 (3d Cir.
1998)). Like the District Court, however, we review
the facts in the light most favorable to the

82a
nonmoving party. See Hugh, 418 F.3d at 267.

III. Discussion
On appeal, Plaintiffs argue that the Ordinance
violates the Free Speech and Free Press Clauses9 of
the First Amendment for three reasons: first, the
Ordinance is content based and therefore subject to
strict scrutiny; second, even if it is content neutral,
the Ordinance is not narrowly tailored and thus
does not survive intermediate scrutiny; and third,
the Ordinance is *83 overbroad. After providing an
overview of the general framework that guides our
analysis, we address each of these arguments.
9

For the reasons articulated in Bruni I, we treat
Plaintiffs’ free speech and free press claims together.
See 824 F.3d at 373 (“Plaintiffs’ free press claim is ...
properly considered a subset of their broader free
speech claim, given that the Freedom of the Press
Clause and the Free Speech Clause both protect
leafleting from government interference.”).

A. General Framework
Plaintiffs
allege
that
the
Ordinance
is
unconstitutional on its face. See Bruni I, 824 F.3d
at 362. A facial challenge “seeks to vindicate not
only [a plaintiff’s] own rights,” as in an as-applied
challenge, but also “those of others who may ... be
adversely impacted by the statute in question.” Id.
(quoting CMR D.N. Corp. v. City of Philadelphia,
703 F.3d 612, 623 (3d Cir. 2013)). Although facial

83a
challenges in the First Amendment context are
more forgiving than those in other contexts, see
United States v. Salerno, 481 U.S. 739, 745, 107
S.Ct. 2095, 95 L.Ed.2d 697 (1987), “all agree that a
facial challenge [under the First Amendment] must
fail where the statute has a plainly legitimate
sweep,” Wash. State Grange v. Wash. State
Republican Party, 552 U.S. 442, 449, 128 S.Ct.
1184, 170 L.Ed.2d 151 (2008) (citation omitted).
As we explained in Bruni I, however, “the
distinction
between
facial
and
as-applied
challenges is not so well defined that it has some
automatic effect or that it must always control the
... disposition in every case involving a
constitutional challenge.” 824 F.3d at 363 (quoting
Citizens United v. FEC, 558 U.S. 310, 331, 130
S.Ct. 876, 175 L.Ed.2d 753 (2010)). Courts
therefore look to “[t]he relevant constitutional test”
to resolve the inquiry, id. (citation omitted),
bearing in mind that a party seeking to invalidate a
law in its entirety bears a heavy burden, see Wash.
State Grange, 552 U.S. at 450–51, 128 S.Ct. 1184;
Brown, 586 F.3d at 269.
Here, the relevant test is that governing free
speech claims. The government’s ability to restrict
speech in a traditional public forum, such as a
sidewalk, is “very limited.” McCullen, 573 U.S. at
477, 134 S.Ct. 2518 (citation omitted). That is
because traditional public fora “are areas that have
historically been open to the public for speech
activities.” Id. at 476, 134 S.Ct. 2518. In such fora,
the government may not restrict speech based on

84a
its “communicative content,” Bruni I, 824 F.3d at
364 (quoting Reed, 135 S. Ct. at 2226)—that is, the
government “has no power to restrict expression
because of its message, its ideas, its subject matter,
or its content,” id. at 363 (quoting Ashcroft v.
ACLU, 535 U.S. 564, 573, 122 S.Ct. 1700, 152
L.Ed.2d 771 (2002)).
By contrast, the government has greater leeway to
regulate “features of speech unrelated to its
content.” McCullen, 573 U.S. at 477, 134 S.Ct.
2518. Thus, “[e]ven in a public forum the
government may impose reasonable restrictions on
the time, place, or manner of protected speech,
provided the restrictions ‘are justified without
reference to the content of the regulated speech,
that they are narrowly tailored to serve a
significant governmental interest, and that they
leave open ample alternative channels for
communication of the information.’ ” Id. (quoting
Ward v. Rock Against Racism, 491 U.S. 781, 791,
109 S.Ct. 2746, 105 L.Ed.2d 661 (1989)).
The level of scrutiny a court applies to a restriction
on speech depends on whether it is content based or
content neutral. If the restriction is content based,
it is subject to strict scrutiny and is therefore
“presumptively unconstitutional and may be
justified only if the government proves that [it is]
narrowly tailored to serve compelling state
interests.” Reed, 135 S. Ct. at 2226; see McCullen,
573 U.S. at 478, 134 S.Ct. 2518. If a restriction is
content neutral, “we apply intermediate scrutiny
and ask whether it is ‘narrowly *84 tailored to

85a
serve a significant governmental interest.’ ” Bruni
I, 824 F.3d at 363–64 (quoting Madsen v. Women’s
Health Ctr., Inc., 512 U.S. 753, 764, 114 S.Ct. 2516,
129 L.Ed.2d 593 (1994)). The threshold question,
therefore, is whether the restriction here is content
based or content neutral.10
10

Although the parties begin their briefing with an
application of intermediate scrutiny, we follow the
Supreme Court’s lead in McCullen by addressing first
whether the Ordinance is content based because the
answer to that question determines the correct level of
scrutiny to apply. See 573 U.S. at 478–79, 134 S.Ct.
2518.

B. Content Neutrality
Plaintiffs contend that the Ordinance is content
based and thus subject to strict scrutiny because it
regulates speech “based on subject matter,
function, or purpose,” rendering it content based
under Reed.11 Appellants’ Br. 34. For the reasons
that follow, we disagree.
11

Plaintiffs make additional arguments in passing, but
they are not persuasive. First, Plaintiffs contend that
the City’s purpose in adopting the Ordinance was to
“target anti-abortion content” because the City
Council’s discussion about the Ordinance “centered
entirely on abortion and the speech outside of abortion
facilities in Pittsburgh.” Appellants’ Br. 40–41. But the
Supreme Court explicitly rejected this argument in
McCullen. See 573 U.S. at 481–82, 134 S.Ct. 2518
(“States adopt laws to address the problems that
confront them. The First Amendment does not require

86a
States to regulate for problems that do not exist.”
(quoting Burson v. Freeman, 504 U.S. 191, 207, 112
S.Ct. 1846, 119 L.Ed.2d 5 (1992) (plurality opinion))).
Second, Plaintiffs argue that the Ordinance is content
based as applied because it is enforced only outside of
reproductive health facilities and therefore affects only
abortion-related speech. Plaintiffs did not make this
argument at summary judgment below, and it is
therefore forfeited. See Keenan v. City of Philadelphia,
983 F.2d 459, 471 (3d Cir. 1992). In any event, “a
facially neutral law does not become content based
simply because it may disproportionally affect speech
on certain topics.” McCullen, 573 U.S. at 480, 134 S.Ct.
2518. Reed, decided one year after McCullen, does not
speak to these aspects of McCullen’s analysis.

In Reed, the Supreme Court considered the
constitutionality of an ordinance that regulated the
manner of display of outdoor signs depending on
their subject matter. 135 S. Ct. at 2224–25. For
example, the ordinance allowed “Political Signs” to
be bigger in size and remain posted longer than
those it defined as “Temporary Directional Signs.”
Id. at 2224–25, 2227. The Court held that the
regulation was content based because the
restrictions
applied
differently
“depend[ing]
entirely on the communicative content of the
sign[s].” Id. at 2227. As relevant here, the Court
noted that whereas “[s]ome facial distinctions ... are
obvious,” such as “defining regulated speech by
particular subject matter,” others are more
“subtle,” such as “defining regulated speech by its
function or purpose.” Id.
The thrust of Plaintiffs’ argument is that the

87a
Ordinance is content based because the City
interprets the word “demonstrating” to apply to
sidewalk counseling but not to peaceful one-on-one
communication about other subjects, like sports
teams, and, as a result, law enforcement must
examine the content of any speech to determine if it
is prohibited. However, despite the assumptions of
both parties,12 nothing in the plain language of *85
the Ordinance supports a construction that
prohibits peaceful one-on-one conversations on any
topic or conducted for any purpose at a normal
conversational volume or distance. In short, the
Ordinance as written does not prohibit the
sidewalk counseling in which Plaintiffs seek to
engage within the zone.
12

Although Plaintiffs contend that the City “enforces” the
Ordinance “to suppress [their] leafletting and sidewalk
conversations” within the buffer zone, Appellants’ Br.
17, the record does not reflect any prosecution, arrest,
or even citation. Instead, it reflects that, except for
isolated instances in which police were called to
Planned Parenthood but took no action, Plaintiffs
avoided the buffer zone based on an assumption,
shared by the City, about the scope of the Ordinance.
The realistic threat of the City’s enforcement is
sufficient for purposes of Plaintiffs’ standing. See Susan
B. Anthony List v. Driehaus, 573 U.S. 149, 158, 134
S.Ct. 2334, 189 L.Ed.2d 246 (2014). As we explain
below, however, it does not preclude us under the
doctrine of constitutional avoidance from adopting a
narrowing construction of the Ordinance.

No doubt, if the Ordinance by its terms did prohibit
one-on-one conversations about abortion but not
about other subjects within the zone, it would be

88a
highly problematic, see Reed, 135 S. Ct. at 2230,
particularly where, as here, the speech alleged to
be prohibited occurs on a public sidewalk and
constitutes one-on-one “normal conversation and
leafletting,” McCullen, 573 U.S. at 488, 134 S.Ct.
2518—“core political speech entitled to the
maximum protection afforded by the First
Amendment,” Bruni I, 824 F.3d at 357. But under
the doctrine of constitutional avoidance, “[i]t has
long been a tenet of First Amendment law that in
determining a facial challenge to a statute, if it be
‘readily susceptible’ to a narrowing construction
that would make it constitutional, it will be
upheld.”13 Virginia v. Am. Booksellers Ass’n, Inc.,
484 U.S. 383, 397, 108 S.Ct. 636, 98 L.Ed.2d 782
(1988); see also Ayotte v. Planned Parenthood of N.
New England, 546 U.S. 320, 328–29, 126 S.Ct. 961,
163 L.Ed.2d 812 (2006) (“Generally speaking, when
confronting a constitutional flaw in a statute, we
try to limit the solution to the problem.”).
13

As we said in Brown, “[t]his principle of interpretation
is consistent with Pennsylvania law.” 586 F.3d at 274
n.13 (citing Commonwealth v. Monumental Props., Inc.,
459 Pa. 450, 329 A.2d 812, 827 (1974); and Dole v. City
of Philadelphia, 337 Pa. 375, 11 A.2d 163, 168–69
(1940)). And this is a particularly compelling case in
which to apply the doctrine given the constitutional
concerns inherent in restricting this kind of speech. As
the Court explained in McCullen, “ ‘one-on-one
communication’ is ‘the most effective, fundamental, and
perhaps economical avenue of political discourse.’ ” 573
U.S. at 488, 134 S.Ct. 2518 (quoting Meyer v. Grant,
486 U.S. 414, 424, 108 S.Ct. 1886, 100 L.Ed.2d 425
(1988)). Indeed, “[l]eafletting and commenting on
matters of public concern are classic forms of speech

89a
that lie at the heart of the First Amendment.” Id. at
489, 134 S.Ct. 2518 (quoting Schenck, 519 U.S. at 377,
117 S.Ct. 855).

Of course, we may not “rewrite a ... law to conform
it to constitutional requirements,” United States v.
Stevens, 559 U.S. 460, 481, 130 S.Ct. 1577, 176
L.Ed.2d 435 (2010) (citation omitted), but, as we
have recognized on many occasions, “[i]n the
absence of a limiting construction from a state
authority, we must ‘presume any narrowing
construction or practice to which the law is fairly
susceptible.’ ”14 *86 Brown, 586 F.3d at 274
(quoting City of Lakewood v. Plain Dealer Publ’g
Co., 486 U.S. 750, 770 n.11, 108 S.Ct. 2138, 100
L.Ed.2d 771 (1988)); see Saxe v. State Coll. Area
Sch. Dist., 240 F.3d 200, 215 n.10 (3d Cir. 2001)
(explaining that where a state court has not
authoritatively construed the terms of a stated
policy, “we are ... required to give it a reasonable
narrowing construction if necessary to save it from
unconstitutionality”); see also Frisby v. Schultz, 487
U.S. 474, 483, 108 S.Ct. 2495, 101 L.Ed.2d 420
(1988) (“To the extent they endorsed a broad
reading of the ordinance, the lower courts ran afoul
of the well-established principle that statutes will
be interpreted to avoid constitutional difficulties.”).
14

That is not to say that the City’s interpretation of the
Ordinance is irrelevant—it is a consideration in a
court’s determination of whether to adopt a limiting
construction. See Forsyth County v. Nationalist
Movement, 505 U.S. 123, 131, 112 S.Ct. 2395, 120
L.Ed.2d 101 (1992); see also Ward, 491 U.S. at 795–96,

90a
109 S.Ct. 2746. But the City’s interpretation has not
been adopted by any Pennsylvania court, and where no
state court has weighed in and the Ordinance is readily
susceptible to a “reinterpretation” consistent with the
Ordinance’s text, the City’s position is not dispositive.
Free Speech Coal., Inc. v. Attorney Gen. of the U.S., 677
F.3d 519, 539 (3d Cir. 2012); Saxe v. State Coll. Area
Sch. Dist., 240 F.3d 200, 215–16, 215 n.10 (3d Cir.
2001); see also U.S. Nat’l Bank of Ore. v. Indep. Ins.
Agents of Am., Inc., 508 U.S. 439, 447, 113 S.Ct. 2173,
124 L.Ed.2d 402 (1993) (stating, outside of the
constitutional avoidance context, that litigants cannot
“extract the opinion of a court on hypothetical Acts of
Congress or dubious constitutional principles” by
agreeing on the proper construction of the law); Comite
de Jornaleros de Redondo Beach v. City of Redondo
Beach, 657 F.3d 936, 946 (9th Cir. 2011) (“[W]e are not
required to ... adopt an interpretation precluded by the
plain language of the ordinance.” (citation omitted)).
While other Courts of Appeals take a contrary
approach, see United Food & Commercial Workers Int’l
Union v. IBP, Inc., 857 F.2d 422, 431 (8th Cir. 1988);
Hill v. City of Houston, 789 F.2d 1103, 1112 (5th Cir.
1986), our precedent is clear, see Free Speech Coal.,
Inc., 677 F.3d at 539; Brown, 586 F.3d at 274; Saxe,
240 F.3d at 215–16, 215 n.10.

Here, the Ordinance is readily susceptible to a
narrowing construction. The text of the Ordinance
says nothing about leafletting or peaceful
one-on-one conversations, let alone on a particular
topic or for a particular purpose. And, to put a fine
point on it, the floating bubble zone, which was
enjoined years ago, did prohibit “passing a leaflet,”
“educating,” or “counseling.” Pitts. Code § 623.03.
Those are not the activities that remain prohibited
in the zone, and “when the legislature uses certain

91a
language in one part of the statute and different
language in another, the court assumes different
meanings were intended.” Sosa v. Alvarez-Machain,
542 U.S. 692, 711 n.9, 124 S.Ct. 2739, 159 L.Ed.2d
718 (2004) (quoting 2A N. Singer, Statutes and
Statutory Construction § 46:06, at 194 (6th rev. ed.
2000)).
The
Ordinance
prohibits
four—and
only
four—activities within the zone: “congregat[ing],”
“patrol[ling],” “picket[ing],” and “demonstrat[ing].”
Pitts. Code § 623.04. And none of those terms, as
commonly understood, encompasses the sidewalk
counseling in which Plaintiffs engage.15
15

In its briefing and at oral argument, the City justified
its interpretation by noting that in Schenck, the
injunction at issue referred to “sidewalk counseling” as
a “form of demonstrating,” and the Supreme Court did
not reject that characterization. See Appellees’ Br. 48
(citation omitted). But the Court made clear that the
term as used by some protestors in that case was
misleading given their aggressive actions, see Schenck,
519 U.S. at 363, 381–82, 117 S.Ct. 855, and, as
discussed, see supra note 6, such conduct falls far
outside Plaintiffs’ definition of sidewalk counseling.

To “congregate” means “to collect into a group or
crowd.” Congregate, Merriam-Webster’s Collegiate
Dictionary 262 (11th ed. 2005) [hereinafter
Merriam-Webster’s]; see also Congregate, The
American Heritage Dictionary of the English
Language 388 (4th ed. 2006) [hereinafter American
Heritage] (defining “congregate” as “bring or come
together in a group, crowd, or assembly”). To

92a
“patrol” is “to carry out a patrol,” defined in turn as
“the action of traversing a district or beat or of
going the rounds along a chain of guards for
observation or the maintenance of security,” Patrol,
Merriam-Webster’s 909, and “[t]he act of moving
about an area especially by an authorized and
trained person ... for purposes of observation,
inspection, or security,” Patrol, American Heritage
1290. To “picket” is to “serve as a picket,” defined
as “a person posted for a demonstration or protest.”
Picket, Merriam-Webster’s 937; see also Picket,
American Heritage 1327 (defining “picket” as “to
post as a picket” where *87 “picket” is defined as
“[a] person or group of persons present outside a
building to protest”). And to “demonstrate” is
defined as “to make a demonstration,” which is
defined in turn as “an outward expression or
display” and “a public display of group feelings
toward a person or cause.” Demonstrate,
Merriam-Webster’s 332; see also Demonstrate,
American Heritage 484 (defining “demonstrate” as
“[t]o participate in a public display of opinion”).
Plaintiffs’ sidewalk counseling does not meet any of
these definitions. While the Supreme Court has
noted that a grouping of three or more people may
constitute “congregat[ing],” see Boos v. Barry, 485
U.S. 312, 316–17, 108 S.Ct. 1157, 99 L.Ed.2d 333
(1988), approaching someone individually to
engage in a one-on-one conversation no more
constitutes “congregat[ing]” than walking alongside
another person constitutes “patrol[ling].” And while
signs and raised voices may constitute “picket[ing]”
or “demonstrat[ing],” speaking to someone at a

93a
normal conversational volume and distance surely
does not. Simply calling peaceful one-on-one
conversations “demonstrating” or “picketing” does
not make it so when the plain meaning of those
terms does not encompass that speech.16
16

Perhaps because of this disconnect between the
Ordinance’s text and the specific expressive activities
to which the parties have assumed the Ordinance
applies, the City’s own witness struggled during his
deposition to explain which specific prohibition was
even applicable to Plaintiffs’ sidewalk counseling. For
example, when asked “[w]hat part of the Ordinance”
would prohibit a sidewalk counselor from crossing into
the buffer zone while talking to a patient, the City’s
designated witness replied, “[c]all it congregating,
patrolling, picketing, or demonstrating, or any name
you wish to give it.” JA 337a.

Moreover, the activities that the Ordinance does
prohibit render it content neutral under binding
Supreme Court precedent. No doubt due to the
easily identifiable nature and visibility of
“congregat[ing],
patrol[ling],
picket[ing]
or
demonstrat[ing],” Pitts. Code § 623.04, the Court
has repeatedly considered regulation of those
activities to be based on the manner in which
expressive activity occurs, not its content, and held
such regulation content neutral. See Madsen, 512
U.S. at 759, 763–64, 114 S.Ct. 2516 (addressing the
precise language at issue here, “congregating,
picketing, patrolling, [and] demonstrating,” and
concluding that the injunction prohibiting those
activities was content neutral); see also Snyder v.
Phelps, 562 U.S. 443, 456, 131 S.Ct. 1207, 179

94a
L.Ed.2d 172 (2011); Hill, 530 U.S. at 721, 120 S.Ct.
2480; Schenck, 519 U.S. at 383–85, 117 S.Ct. 855;
United States v. Grace, 461 U.S. 171, 181–82, 103
S.Ct. 1702, 75 L.Ed.2d 736 (1983).17 Nor does Reed
alter that conclusion. See Reed, 135 S. Ct. at
2228–29.
17

We have continued to rely on Hill since McCullen and
Reed were handed down, see, e.g., Turco v. City of
Englewood, 935 F.3d 155, 165 (3d Cir. 2019) (declining
to strike down eight-foot buffer zone as a matter of law
because “such a conclusion would be directly at odds
with the Supreme Court’s decision in Hill v. Colorado”
(citation omitted)), as have some of our sister circuits,
e.g., March v. Mills, 867 F.3d 46, 64 (1st Cir. 2017); Act
Now to Stop War & End Racism Coal. & Muslim Am.
Soc’y Freedom Found., 846 F.3d 391, 403–04 (D.C. Cir.
2017). We note, however, that other Courts of Appeals
have observed that, even if “neither McCullen nor Reed
overruled Hill, so it remains binding on us,” the content
neutrality holding of Hill may be “hard to reconcile
with both McCullen and Reed,” Price v. City of Chicago,
915 F.3d 1107, 1109 (7th Cir. 2019) (Sykes, J.), petition
for cert. filed, No. 18-1516 (U.S. June 6, 2019).

In short, the doctrine of constitutional avoidance
counsels that we impose a limiting construction
where, as here, a statute *88 has not been
construed by a state court and is not only
susceptible to a narrowing construction but also
demands that construction on its face. See Am.
Booksellers, 484 U.S. at 397, 108 S.Ct. 636; Brown,
586 F.3d at 274; Saxe, 240 F.3d at 215 n.10.
Because the Ordinance, as properly interpreted,
does not extend to sidewalk counseling—or any
other
calm
and
peaceful
one-on-one

95a
conversations—there is no need for law
enforcement “to examine the content of the
message ... to determine whether a violation has
occurred.” McCullen, 573 U.S. at 479, 134 S.Ct.
2518 (citation omitted). The Ordinance so read is
thus content neutral and subject to intermediate
scrutiny.

C. Application of Intermediate Scrutiny
Because we conclude the Ordinance does not
implicate Plaintiffs’ speech, we could end our
analysis here if this were an as-applied challenge.
But because Plaintiffs have brought a facial
challenge, we briefly consider whether the
Ordinance as applied to the remaining expressive
activity of congregating, patrolling, picketing, or
demonstrating within fifteen feet of the clinic
entrance is “narrowly tailored to serve a significant
governmental interest.”18 Id. at 477, 134 S.Ct. 2518
(quoting Ward, 491 U.S. at 791, 109 S.Ct. 2746).
We easily conclude that it is.
18

To satisfy intermediate scrutiny, the government bears
the burden of demonstrating that a restriction on
speech is “narrowly tailored to serve a significant
governmental interest” and “leave[s] open ample
alternative channels for communication of the
information.” McCullen, 573 U.S. at 477, 134 S.Ct.
2518 (quoting Ward, 491 U.S. at 791, 109 S.Ct. 2746).
Plaintiffs do not dispute the “ample alternatives” prong
and, with its narrowing construction, “the limited
nature of the prohibition makes it virtually self-evident
that ample alternatives remain.” Frisby, 487 U.S. at
483, 108 S.Ct. 2495. We therefore focus our inquiry, as

96a
do the parties, on the issue of narrow tailoring.

As Plaintiffs acknowledge, the interests that the
City seeks to protect—unimpeded access to
pregnancy-related services, ensuring public safety,
and eliminating “neglect” of law enforcement
needs—are legitimate.19 Bruni I, 824 F.3d at 368
(quoting Pitts. Code § 623.01); see McCullen, 573
U.S. at 487, 496–97, 134 S.Ct. 2518 (describing
these interests as “undeniably significant” interests
that are “clearly serve[d]” by buffer zones); see also
Turco v. City of Englewood, 935 F.3d 155, 166 (3d
Cir. 2019) (recognizing the government’s significant
interest in “protecting the health and safety of its
citizens, which ‘may justify a special focus on
unimpeded access to health care facilities and the
avoidance of potential trauma to patients
associated with confrontational protests’ ”) (citation
omitted). Instead, Plaintiffs argue that the
Ordinance is not narrowly tailored to those
interests.
19

To the extent Plaintiffs argue that the City’s stated
interests were not substantiated on remand, the
record—including reports of violent incidents,
obstruction of patients’ ingress and egress, and
aggressive confrontations—establishes otherwise. See
supra Section I.A.1. Plaintiffs’ additional argument
that there has been no obstructive conduct preventing
access to the clinic’s entrance in recent years and,
therefore, that the Ordinance is no longer necessary is
also belied by the record. For starters, there is evidence
in the record to the contrary. For example, a clinic
escort declared in 2014 that she was “aware of
incidents at [Planned Parenthood] in which escorts

97a
were pushed by a protester and where protesters
placed their hands on patients and thrust their leaflets
inside patients’ coat pockets or handbags.” JA
709a–10a. More importantly, the fact that an otherwise
constitutional restriction on speech is successful in
serving the interests for which it was intended is
hardly a reason to strike it down.

To be narrowly tailored, a regulation must not
“burden substantially more *89 speech than is
necessary to further the government’s legitimate
interests.” McCullen, 573 U.S. at 486, 134 S.Ct.
2518 (quoting Ward, 491 U.S. at 799, 109 S.Ct.
2746). At the same time, it “ ‘need not be the least
restrictive or least intrusive means of’ serving the
government’s interest,” id. (quoting Ward, 491 U.S.
at 798, 109 S.Ct. 2746), and we “afford[ ] some
deference to a municipality’s judgment in adopting
a content-neutral restriction on speech,” Bruni I,
824 F.3d at 370.
In arguing that the restriction on speech here is not
narrowly tailored, Plaintiffs do not distinguish
between the Ordinance as read to include sidewalk
counseling and the Ordinance as read to exclude it.
Rather, quoting Bruni I, they contend we “already
made clear that ‘the City has the same obligation to
use less restrictive alternatives to its buffer zone as
... Massachusetts had with respect to the buffer
zone at issue in McCullen.’ ” Appellants’ Br. 25
(quoting Bruni I, 824 F.3d at 369). So, say
Plaintiffs, just as in McCullen, the City had to
demonstrate on remand that “substantially
less-restrictive alternatives,” including arrests,

98a
prosecutions, and injunctions, “were tried and
failed, or ... were closely examined and ruled out for
good reason.” Bruni I, 824 F.3d at 370. Because the
City here concededly failed to make a showing of
that magnitude, Plaintiffs contend the Ordinance
necessarily fails intermediate scrutiny.
Plaintiffs mistake the import of Bruni I in two
respects. First, in reviewing the District Court’s
dismissal of Plaintiffs’ complaint, we did not
conclusively determine that the City “ha[d] the
same obligation to use less restrictive alternatives”
as in McCullen. Bruni I, 824 F.3d at 369. As
appropriate at the pleading stage, we “accept[ed]
all [of Plaintiffs’] factual allegations as true,” id. at
360 (citation omitted), and held that “[b]ecause of
the significant burden on speech that the
Ordinance allegedly imposes, the City ha[d] the
same obligation to use,” id. at 369 (emphasis
added), or show that it “seriously considered,
substantially less restrictive alternatives,” id. at
357, as in McCullen. On that basis, we remanded
for a determination of the proper scope of the
Ordinance, the actual burden on Plaintiffs’ speech,
and a means–ends analysis “by the standard that
McCullen now requires.” Id. at 375.
Second, to the extent Plaintiffs’ argument is that
McCullen imposes on a municipality “the same
obligation” as on Massachusetts—even in the
absence of a “significant burden on speech,” id. at
369—they are mistaken. As we recognized in Bruni
I, where the burden on speech is de minimis, a
regulation may “be viewed as narrowly tailored,

99a
even at the pleading stage,” id. at 372 n.20, and
McCullen and Bruni I both observed that where
there is only “a slight burden on speech, any
challengers would struggle to show that
‘alternative measures [would] burden substantially
less speech,’ ” id. (alteration in original) (quoting
McCullen, 573 U.S. at 495, 134 S.Ct. 2518). In
short, while McCullen and Bruni I made clear that
a “rigorous and fact-intensive” inquiry will be
required where a restriction imposes a significant
burden on speech, Bruni I, 824 F.3d at 372, they
also made clear (and logic dictates) that a less
demanding inquiry is called for where the burden
on speech is not significant—whether due to a
restriction’s scope, the size of the speech-free zone,
or some combination of the two.20
20

In Bruni I, we explained that when dealing with core
speech, such as sidewalk counseling, whether a
restriction is less burdensome in “degree”—meaning
size in the context we used it—is not necessarily
dispositive of whether the burden on speech is
significant. 824 F.3d at 368. A court must also consider
the burden as “a matter of ... kind,” referring to the
type of speech a restriction prohibits. Id. Elsewhere in
the opinion, however, we also recognized that there
may be cases where the “degree” of burden is so
minimal that it, alone, will determine whether the
burden on speech should be considered significant, thus
potentially negating any need for the government to
show that substantially less-restrictive alternatives
were tried and failed or seriously considered and
reasonably rejected. See id. at 372 n.20 (quoting
McCullen, 573 U.S. at 495, 134 S.Ct. 2518). As “degree”
could refer to the size of the zone or significance of the
burden, depending on the context, and both subjects
are mentioned in today’s opinion, we will use the terms

100a
“scope” and “size,” rather than “kind” and “degree,” for
the sake of clarity.

*90 In this case, now that we have before us both a
developed record and a narrow construction of the
Ordinance, it is apparent that the burden it
imposes is different from McCullen both in scope
and size and is instead akin to that imposed by the
thirty-six-foot and fifteen-foot buffer zones that the
Supreme Court upheld in Madsen v. Women’s
Health Center, Inc., 512 U.S. at 757, 776, 114 S.Ct.
2516, and Schenck v. Pro-Choice Network of
Western New York, 519 U.S. at 364, 380, 117 S.Ct.
855, respectively.
As to scope, although the restrictions in those cases
were more targeted in that they were created by
way of injunction, not legislation, see Schenck, 519
U.S. at 361, 117 S.Ct. 855; Madsen, 512 U.S. at
757, 114 S.Ct. 2516, the Ordinance is narrower in
scope because it limits only congregating,
patrolling, picketing, and demonstrating within a
fifteen-foot buffer zone, and does not sweep in the
“one-on-one communication,” including “normal
conversation and leafletting,” that McCullen
emphasized “have historically been more closely
associated with the transmission of ideas,” 573 U.S.
at 488, 134 S.Ct. 2518. Thus, so long as she is not
“congregating” with others in the buffer zone, an
individual plaintiff is not barred by the Ordinance
from engaging in sidewalk counseling inside its
borders. Cf. Schenck, 519 U.S. at 367, 369–70,
383–84, 117 S.Ct. 855 (describing and upholding

101a
the district court’s decision to allow only two
sidewalk counselors inside the fifteen-foot buffer
zone); Madsen, 512 U.S. at 759, 114 S.Ct. 2516
(prohibiting not only “congregating, picketing,
patrolling, [and] demonstrating” within the zone
but also “entering”).
And as to size, the relatively small buffer zone
imposed by the Ordinance, like those in Madsen
and Schenck, does not prevent groups like Forty
Days for Life from congregating within sight and
earshot of the clinic. Nor does it prevent protestors,
demonstrators, or picketers from being seen and
heard, or any of these persons from speaking
outside the zone with willing listeners who are
entering or exiting. See Schenck, 519 U.S. at
384–85, 117 S.Ct. 855; Madsen, 512 U.S. at 770,
114 S.Ct. 2516. And size, while not necessarily in
and of itself dispositive, see Bruni I, 824 F.3d at
368, is still a “substantial distinction” that must
factor into a court’s analysis of the relative burden
on speech, Turco, 935 F.3d at 163.
Also as in Madsen and Schenck, the record shows
that the City resorted to a fixed buffer zone not in
the first instance but after attempting or
considering some less burdensome alternatives and
concluding they were unsuccessful in meeting the
legitimate interests at issue. See Schenck, 519 U.S.
at 380–82, 117 S.Ct. 855; Madsen, 512 U.S. at
769–70, 114 S.Ct. 2516. These included an overtime
police detail in front of Planned Parenthood until
the cost became prohibitive once the City was
declared a financially distressed municipality;21

102a
incident-based responses by the police *91 that
proved unsuccessful in preventing or deterring
aggressive
incidents
and
congestion;
and
consideration of criminal laws that the police were
finding inadequate to address the problem of
protestors following patients and obstructing their
way to the clinic.
21

In McCullen, Massachusetts did not assert such
economic hardships. While the Court noted that “the
prime objective of the First Amendment is not
efficiency,” McCullen, 573 U.S. at 495, 134 S.Ct. 2518,
it did not have occasion to consider circumstances
where “the limitations of ‘manpower’ and the need to be
able to deploy officers in response to emergencies”
made it “not feasible to permanently provide a
significantly increased police presence at the clinic,”
Turco, 935 F.3d at 167. As we recently recognized,
however, the facts “that the police department ha[s]
finite resources,” id. (citation omitted), and a city has
“financial restraints,” id. at 167–68, are relevant to the
narrow tailoring analysis.

True, as Plaintiffs point out, this record does not
reflect that the City tried or seriously considered
arrests, prosecutions, or targeted injunctions,
which Plaintiffs would have us treat as dispositive.
But where the burden imposed by a restriction on
speech is not significant, the government need
demonstrate neither that “it has tried or considered
every less burdensome alternative,” Bruni I, 824
F.3d at 370, nor that it tried or considered every
less burdensome alternative discussed in McCullen.
Instead, as we reiterated in Turco, this is an
“intensely factual ... inquiry,” 935 F.3d at 170, that

103a
must account for “the ‘broad principle of deference
to legislative judgments’ and that a legislative body
‘need not meticulously vet every less burdensome
alternative,’ ” id. at 171 (quoting Bruni I, 824 F.3d
at 370 n.18). And, as we recognized there in
remanding for further fact-finding, a municipality
can demonstrate that it “attempted ... [or]
considered alternative means of bringing order to
the sidewalk” even if it “ha[s] not ‘prosecute[d] any
protestors for activities taking place on the
sidewalk’ and ‘did not seek injunctive relief against
individuals whose conduct was the impetus for the
Ordinance.’ ” Id. at 167 (second alteration in
original) (quoting Turco v. City of Englewood, No.
2:15-cv-03008, 2017 WL 5479509, at *5 (D.N.J.
Nov. 14, 2017)). The ultimate question remains
whether a restriction on speech “burden[s]
substantially more speech than is necessary to
further the government’s legitimate interests.”
McCullen, 573 U.S. at 486, 134 S.Ct. 2518
(emphasis added) (quoting Ward, 491 U.S. at 799,
109 S.Ct. 2746).
Consistent with Madsen and Schenck, the
Ordinance, as we have construed it, does not do
so.22 The Ordinance therefore is “narrowly tailored
to serve a significant governmental interest,”
McCullen, 573 U.S. at 477, 134 S.Ct. 2518 (quoting
Ward, 491 U.S. at 791, 109 S.Ct. 2746), and it
satisfies intermediate scrutiny.
22

We recognize that the City may have a legitimate
concern about access to healthcare facilities if it
transpires that multiple one-on-one conversations

104a
impair access to the facilities, see McCullen, 573 U.S. at
486–87, 134 S.Ct. 2518, and that the City may then
have occasion to revisit the terms of the Ordinance
having developed a record that would satisfy McCullen
and Bruni I, as well as the content-neutrality
requirement of Reed. See Turco, 935 F.3d at 162–63.
That, however, is not the Ordinance before us today.

D. Overbreadth
Finally, Plaintiffs argue that the Ordinance is
unconstitutionally overbroad because it authorizes
the City to create buffer zones at any health facility
in the City, regardless of whether the City has
identified a problem at the location in the past. A
law may be overbroad under the First Amendment
where “a substantial number of its applications are
unconstitutional, judged in relation to the [law’s]
plainly legitimate sweep.” *92 Bruni I, 824 F.3d at
374 (quoting Stevens, 559 U.S. at 473, 130 S.Ct.
1577). The overbreadth doctrine is “strong
medicine,” Kreimer v. Bureau of Police, 958 F.2d
1242, 1265 (3d Cir. 1992) (citation omitted), should
therefore be “used sparingly,” id., and will “not be[ ]
invoked when a limiting construction has been or
could be placed on the challenged” law, Broadrick
v. Oklahoma, 413 U.S. 601, 613, 93 S.Ct. 2908, 37
L.Ed.2d 830 (1973).
Plaintiffs’
overbreadth
challenge
is
not
well-founded. As a general matter, “[t]he fact that
the coverage of a statute is broader than the
specific concern that led to its enactment is of no

105a
constitutional significance,” Hill, 530 U.S. at
730–31, 120 S.Ct. 2480, and its applicability more
generally is one of the reasons that we consider it
to be a content-neutral restriction on speech, see id.
at 731, 120 S.Ct. 2480. For that reason, “[w]hen a
buffer zone broadly applies to health care facilities”
to include “buffer zones at non-abortion related
locations,”
we
may
then
“conclude
‘the
comprehensiveness of the statute is a virtue, not a
vice, because it is evidence against there being a
discriminatory governmental motive.’ ” Turco, 935
F.3d at 171 (quoting Hill, 530 U.S. at 730–31, 120
S.Ct. 2480).
Nor is the Ordinance overbroad because it affords
the City discretion to select particular health
facilities at which it will demarcate a buffer zone.
Since the demarcation requirement was put in
place approximately ten years ago, the City has
exercised that discretion as to only two facilities,
both of which suffered from violence and
obstruction in the past. Yet we may not, as
Plaintiffs suggest, simply assume that “the
statute’s very existence may cause others not before
the court to refrain from constitutionally protected
speech or expression.” Broadrick, 413 U.S. at 612,
93 S.Ct. 2908. Instead, we revert again to the
“principle ... well-established in First Amendment
jurisprudence”—“our duty to ‘accord a measure of
deference to the judgment’ of [the] city council,’ ”
Turco, 935 F.3d at 171 (quoting Hill, 530 U.S. at
727, 120 S.Ct. 2480), considering “[the] statute’s
application to real-world conduct, not fanciful
hypotheticals,” id. at 172 (quoting Stevens, 559 U.S.

106a
at 485, 130 S.Ct. 1577). Applying that principle
here, we conclude the Ordinance is not
substantially overbroad.
In sum, Plaintiffs have not carried their “burden of
demonstrating, ‘from the text of [the law] and from
actual fact,’ that substantial overbreadth exists.”
Virginia v. Hicks, 539 U.S. 113, 122, 123 S.Ct.
2191, 156 L.Ed.2d 148 (2003) (alteration in
original) (citation omitted). We therefore affirm the
District Court’s grant of summary judgment to the
City on this claim.

IV. Conclusion
For the foregoing reasons, we will affirm the
District Court’s order granting summary judgment.

HARDIMAN, Circuit Judge, concurring.
I join the Court’s opinion because it rightly
construes the Pittsburgh Ordinance to allow
conversation on a public sidewalk. I write
separately to highlight the impact of Reed v. Town
of Gilbert, ––– U.S. ––––, 135 S. Ct. 2218, 192
L.Ed.2d 236 (2015). In my view, Reed weakened
precedents cited in the Court’s content neutrality
analysis
and
will
constrain
Pittsburgh’s
enforcement of the Ordinance going forward.

107a
I
It is true that the Supreme Court has held that
restricting “congregating, picketing, patrolling,
[and] demonstrating” around abortion clinics is
facially content neutral. *93 Madsen v. Women’s
Health Ctr., Inc., 512 U.S. 753, 759, 757–65, 114
S.Ct. 2516, 129 L.Ed.2d 593 (1994); see Op. 87–88.
The Court has even extended this content
neutrality to “wildly expansive definitions” of
“demonstrate” and “picket.” Hill v. Colorado, 530
U.S. 703, 744, 120 S.Ct. 2480, 147 L.Ed.2d 597
(2000) (Scalia, J., dissenting); see id. at 721–22, 120
S.Ct.
2480
(majority
opinion)
(“defining
‘demonstrate’ as ‘to make a public display of
sentiment for or against a person or cause’ and
‘picket’ as an effort ‘to persuade or otherwise
influence’ ” (quoting Webster’s Third New
International Dictionary 600, 1710 (1993))); see also
Schenck v. Pro-Choice Network of W. N.Y., 519 U.S.
357, 374 n.6, 381–82, 117 S.Ct. 855, 137 L.Ed.2d 1
(1997)
(upholding
injunction
against
“demonstrating,” even though it would target some
“stationary, nonobstructive demonstrations”).
The continued vitality of this content neutrality
analysis is questionable after Reed. Before Reed,
the Court vacillated between two tests for content
neutrality. See generally Genevieve Lakier, Reed v
Town of Gilbert, Arizona, and the Rise of the
Anticlassificatory First Amendment, 2016 Sup. Ct.
Rev. 233; Elena Kagan, Private Speech, Public
Purpose: The Role of Governmental Motive in First
Amendment Doctrine, 63 U. Chi. L. Rev. 413
(1996). In cases like Hill, Schenck, and Madsen, the

108a
“government’s purpose [w]as the threshold
consideration.” Madsen, 512 U.S. at 763, 114 S.Ct.
2516; see Hill, 530 U.S. at 719, 120 S.Ct. 2480;
Schenck, 519 U.S. at 371–74 & n.6, 117 S.Ct. 855
(relying solely on Madsen to hold injunction content
neutral). But in other cases, the Court’s first
consideration was whether a law “draw[s]
content-based distinctions on its face.” McCullen v.
Coakley, 573 U.S. 464, 479, 134 S.Ct. 2518, 189
L.Ed.2d 502 (2014). Any law that did so was
necessarily content based, no matter the
government’s purpose. See, e.g., Simon & Schuster,
Inc. v. Members of N.Y. State Crime Victims Bd.,
502 U.S. 105, 116–17, 122 n.*, 112 S.Ct. 501, 116
L.Ed.2d 476 (1991).
Reed adopted the latter test for content neutrality.
It held that “[a] law that is content based on its face
is subject to strict scrutiny regardless of the
government’s benign motive, content-neutral
justification, or lack of ‘animus toward the ideas
contained’ in the regulated speech.” 135 S. Ct. at
2228 (quoting Cincinnati v. Discovery Network,
Inc., 507 U.S. 410, 429, 113 S.Ct. 1505, 123 L.Ed.2d
99 (1993)); see id. at 2237–39 (Kagan, J., concurring
in the judgment). By doing so, Reed “overturn[ed]
the standard that [the Court] had previously used
to resolve a particular class of cases”—a class that
includes cases like this one and Hill. Brian A.
Garner et al., The Law of Judicial Precedent 31
(2016) (citing Seminole Tribe of Fla. v. Florida, 517
U.S. 44, 66–67, 116 S.Ct. 1114, 134 L.Ed.2d 252
(1996), and Planned Parenthood of Se. Pa. v. Casey,
947 F.2d 682, 691–93 (3d Cir. 1991), aff’d in part,

109a
rev’d in part, 505 U.S. 833, 112 S.Ct. 2791, 120
L.Ed.2d 674 (1992)). In fact, Reed rebuked Hill
several times: by noting that the errant Court of
Appeals relied on it, 135 S. Ct. at 2226; and by
favorably citing dissents in Hill authored by
Justices Scalia and Kennedy, id. at 2229.
Reed also seems to have expanded the types of laws
that are facially content based. Facial distinctions,
the Court explained, may not only be “obvious,
defining regulated speech by particular subject
matter.” Id. at 2227. They may also be “subtle,
defining regulated speech by its function or
purpose.” Id. Two cases discussed in Reed
exemplify this subtle content discrimination.
The first, Sorrell v. IMS Health Inc., involved a law
that restricted the sale, disclosure, and use of
information about drug prescriptions. See *94 564
U.S. 552, 563–64, 131 S.Ct. 2653, 180 L.Ed.2d 544
(2011); Reed, 135 S. Ct. at 2227. The Court held
content based a provision that allowed the sale of
that
information
for
“
‘educational
communications,’ ” but not for “marketing.” Sorrell,
564 U.S. at 564, 131 S.Ct. 2653 (quoting Vt. Stat.
Ann., tit. 18, § 4631(e)(4) (Supp. 2010)).
“[E]ducation[ ]” and “marketing” are examples of
speech’s “function or purpose” under Reed. 135 S.
Ct. at 2227. They explain how or why a speaker
speaks, not what is said. Id.
The second case that underscores the protection
afforded to speech’s function or purpose is NAACP
v. Button, 371 U.S. 415, 83 S.Ct. 328, 9 L.Ed.2d 405

110a
(1963). See Reed, 135 S. Ct. at 2229. In that case,
Virginia “attempt[ed] to use a statute prohibiting
‘improper solicitation’ by attorneys to outlaw
litigation-related
speech
of
the
National
Association for the Advancement of Colored
People.” Id. (quoting Button, 371 U.S. at 438, 83
S.Ct. 328). The Button Court rejected that attempt,
holding that “advocacy” and “ ‘the opportunity to
persuade to action’ ” are First Amendment rights.
371 U.S. at 437–38, 83 S.Ct. 328 (quoting Thomas
v. Collins, 323 U.S. 516, 537, 65 S.Ct. 315, 89 L.Ed.
430 (1945)). Describing the Virginia law over 50
years later, the Reed Court called it “facially
content-based.” 135 S. Ct. at 2229.
So Reed demands that we construe the Ordinance
narrowly. And it steers us away from precedents
that focused on a law’s purpose rather than its
facial effect. For laws once held content neutral
because of purpose may well be facially content
based after Reed. Compare, e.g., Hill, 530 U.S. at
720–21, 120 S.Ct. 2480 (holding content neutral a
ban on “picketing,” “demonstrating,” “protest,
education, or counseling” even though it may
require the government “to review the content of
the statements made”), with McCullen, 573 U.S. at
479, 134 S.Ct. 2518 (“The [buffer zone law] would
be content based if it required ‘enforcement
authorities’ to ‘examine the content of the message
that is conveyed ....’ ” (quoting FCC v. League of
Women Voters of Ca., 468 U.S. 364, 383, 104 S.Ct.
3106, 82 L.Ed.2d 278 (1984))), and Reed, 135 S. Ct.
at 2227–29 (highlighting facially content based
laws that target solicitation and educational

111a
communications). Even some purposes previously
held content neutral may now be content based.
Compare, e.g., Hill, 530 U.S. at 716, 120 S.Ct. 2480
(citing “[t]he unwilling listener’s interest in
avoiding unwanted communication”), and Turco v.
City of Englewood, 935 F.3d 155, 162, 166-67 (3d
Cir. 2019) (citing that interest to support narrow
tailoring of concededly content neutral law), with
McCullen, 573 U.S. at 481, 134 S.Ct. 2518 (“To be
clear, the Act would not be content neutral if it
were concerned with undesirable effects that arise
from ‘the direct impact of speech on its audience’ or
‘[l]isteners’ reactions to speech.’ ” (quoting Boos v.
Barry, 485 U.S. 312, 321, 108 S.Ct. 1157, 99
L.Ed.2d 333 (1988))), and Reed, 135 S. Ct. at 2227
(protecting speech’s “function or purpose”).

II
Today our Court does what Reed requires. We hold
that “[b]ecause the Ordinance, as properly
interpreted, does not extend to sidewalk
counseling—or any other calm and peaceful
one-on-one conversations,” the City cannot examine
the content of a conversation to decide whether a
violation has occurred. Op. 87–88. It will instead
examine, for example, decibel level, the distance
between persons, the number of persons, the flow of
traffic, and other things usually unrelated to the
content or intent of speech. See, e.g., Reed, 135 S.
Ct. at 2228 (confirming that banning sound
amplification is content neutral); id. at 2232
(stating that “entirely forbidding the *95 posting of

112a
signs” is content neutral); McCullen, 573 U.S. at
491–92, 134 S.Ct. 2518 (collecting laws that, by
penalizing conduct like obstruction or assault, may
pass intermediate scrutiny).
The Court’s decision constrains the City’s
enforcement discretion. Pittsburgh cannot target
quiet conversations even if they are not in a tone of
“kindness, love, hope, gentleness, and help.” Op. 80
n.6 (quoting JA 574a); see, e.g., id. at 86–87. It must
allow not only conversations that help and love, but
also those that serve any other “function or
purpose” within the bounds of protected speech.
Reed, 135 S. Ct. at 2227; see, e.g., id. at 2228–29
(discussing Sorrell, 564 U.S. at 563–64, 131 S.Ct.
2653 (“educati[ng]” and “marketing”), and Button,
371 U.S. at 438–40, 83 S.Ct. 328 (“solicit[ing],”
“advoca[ting],” and “urg[ing]”)).
And the City’s enforcement of the Ordinance must
be evenhanded. Consider clinic employees and
agents who, under the injunction issued in Brown
v. City of Pittsburgh, can “congregate” or “patrol”
when helping persons enter or exit a clinic. See 586
F.3d 263, 273–75 (3d Cir. 2009); Brown v. City of
Pittsburgh, 2010 WL 2207935, at *2 n.2 (W.D. Pa.
May 27, 2010); JA 1324a (permanent injunction
order). Before today, the City’s broad and
amorphous interpretation of the Ordinance risked
allowing those employees to engage in speech that
others could not. That sort of disparate treatment
would now be content or viewpoint based. See Reed,
135 S. Ct. at 2230 (citing Rosenberger v. Rector and
Visitors of Univ. of Va., 515 U.S. 819, 115 S.Ct.

113a
2510, 132 L.Ed.2d 700 (1995), and Citizens United
v. FEC, 558 U.S. 310, 130 S.Ct. 876, 175 L.Ed.2d
753 (2010)). Our decision today clarifies that the
words
“congregate”
and
“patrol”
address
conduct—the assembly of people in one place or the
action of pacing back and forth. See Op. 86–87. So
interpreted, the Brown injunction’s narrow
exception does not discriminate between types of
speech.
With these understandings, I join the Court’s
opinion.
All Citations
941 F.3d 73

114a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
DENYING PETITION FOR REHEARING,
FILED DECEMBER 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-2884
COLLEEN REILLY; BECKY BITER;
ROSALIE GROSS
v.
CITY OF HARRISBURG; HARRISBURG CITY
COUNSEL; MAYOR ERIC PAPENFUSE, in his
official capacity as Mayor of Harrisburg
Colleen Reilly; Becky Biter,
Appellants
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(M.D. Pa. No. 1-16-cv-00510)
District Judge: Sylvia Rambo
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, MCKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, Jr., SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
and FUENTES,1 Circuit Judges.

115a
1

Judge Fuentes’s vote is limited to Panel rehearing only.

The petition for rehearing filed by appellants in the
above-entitled case having been submitted to the
judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge
who concurred in the decision having asked for
rehearing, and a majority of the judges of the
circuit in regular service not having voted for
rehearing, the petition for rehearing by the panel
and the Court en banc, is denied.
BY THE COURT,
s/ Cheryl Ann Krause
Circuit Judge
Dated: December 3, 2019
Lmr/cc: All Counsel of Record

116a
CITY OF HARRISBURG CODE
CHAPTER 3-371. INTERFERENCE WITH
ACCESS TO HEALTHCARE FACILITIES,
CODIFYING CITY OF HARRISBURG
ORDINANCE NO. 12-2012,
FILED MARCH 24, 2016
Chapter 3-3 71. Interference With Access to
Health Care Facilities
[HISTORY: Adopted by the City Council of the City
of Harrisburg 11-13-2012 by Ord. No. 12-2012.
Amendments noted where applicable.]
§ 3-371.1. Title.
This chapter may be cited as ''Interference With
Access to Health Care Facilities."
§ 3-371.2. Findings and purpose.
A. The Council of the City of Harrisburg
recognizes that access to health care facilities
for the purpose of obtaining medical counseling
and treatment is important for residents and
visitors to the City. City Council further
recognizes that the exercise of a person's right
to protest or counsel against certain medical
procedures is a First Amendment activity that
must be balanced against another person's
right to obtain medical counseling and
treatment in an unobstructed manner.
B. The City Council is aware of several instances
in which police departments across the
commonwealth,
including
the
City
of

117a
Harrisburg Bureau of Police, have been called
upon to mediate disputes between those
seeking medical counseling and treatment and
those who would counsel against their actions
in an effort to prevent violent confrontations
which would lead to criminal charges.
C. In order to promote the health and welfare of
City residents and visitors to the City's health
care facilities, as well as the health and welfare
of those who may wish to voice their
constitutionally protected speech outside of
such health care facilities, the City finds that
the limited buffer zones outside of health care
facilities established by this chapter will ensure
that patients have unimpeded access to medical
services while protecting the First Amendment
rights of demonstrators to communicate their
message.
§ 3-371.3. Definition.
"Health care facility" means any hospital, medical
office, physical or psychological therapy facility or
clinic licensed by the Commonwealth of
Pennsylvania Department of Health.
§ 3-3 71.4. Restriction.
A. No person or persons shall knowingly
congregate, patrol, picket or demonstrate in a
zone extending 20 feet from any portion of an
entrance to, exit from, or driveway of a health
care facility. This section shall not apply to
police and public safety officers, fire and rescue

118a
personnel, or other emergency workers in the
course of their official business or to authorized
security personnel, employees or agents of the
hospital, medical office or clinic engaged in
assisting patients and other persons to enter or
exit the hospital, medical office, or clinic.
B. The provisions of this section shall apply to all
persons equally regardless of the intent of their
conduct or the content of their speech.
§ 3-371.99. Penalty.
Any person, firm, or corporation who or which
pleads guilty or nolo contendere or is convicted of
violating this chapter shall be guilty of a summary
offense and punished by a fine of at least $50 for
the first offense; a fine of at least $150 for a second
offense within five years; and a fine of $300 for a
third offense within five years. For fourth and
subsequent offenses within five years the fine shall
not be less than $300 and/or imprisonment for not
more than 30 days.

119a
EXCERPTS FROM DEPOSITION
TESTIMONY OF CITY OF HARRISBURG
POLICE CAPTAIN DERIC MOODY,
FILED OCTOBER 28, 2017

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA
CASE NO. 1:16-cv-00510-SHR
DISTRICT JUDGE
SYLVIA H. RAMBO
COLLEEN REILLY; BECKY
ROSALIE GROSS,
PLAINTIFFS

BITER;

AND

V
CITY OF HARRISBURG; HARRISBURG CITY
COUNCIL; AND ERIC PAPENFUSE, IN HIS
OFFICIAL
CAPACITY
AS
MAYOR
OF
HARRISBURG,
DEFENDANTS
DEPOSITION OF: DERIC E. MOODY
....
DATE: AUGUST 14, 2017, 9:18 A.M.
....
Q All right. Please state your full name and

120a
title for the record.
A My full name is Deric, D-e-r-i-c, Emile,
E-m-i-l-e, Moody, M-o-o-d-y, and I am the Captain
at the Harrisburg Bureau of Police.
....
Q I'm just going to go through those topics to
make sure we're on the same page. You have been
designated by the city to discuss under topic No. 1
on page 2 the city's application and enforcement of
the ordinance in this case. Is that a correct
understanding?
A Yes, I believe so.
....
Q Is it your understanding that if an individual
were within that 20-feet buffer zone at one of the
two clinics and was merely quietly engaging in
conversation with a patient entering or leaving that
clinic, would that violate the ordinance?
A Within the 20 feet? I would say it would if
the statute says or if the ordinance says 20 feet. If
they're within that 20 feet, then yeah, that would
be—that could be considered a violation.
(Circuit Court Joint Appendix Pages JA128–29.)

121a
EXCERPTS FROM TRANSCRIPT OF
ORAL ARGUMENT IN THE UNITED STATES
COURT OF APPEALS FOR THE THIRD
CIRCUIT ON MARCH 21, 2017,
FILED OCTOBER 28, 2017
UNITED STATES COURT OF APPEALS FOR
THE THIRD CIRCUIT
Case No.: 16-3722
COLLEEN REILLY and BECKY BITER,
Plaintiffs/Appellants,
vs.
CITY OF HARRISBURG, ET AL.,
Defendants/Appellees.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE MIDDLE DISTRICT
OF PENNSYLVANIA
THE HONORABLE SYLVIA H. RAMBO,
DISTRICT JUDGE
CIVIL CASE NO.: 1:16-CV-00510
ARGUED MARCH 21, 2017
The following pages constitute the proceedings
held in the above-captioned matter before the
Honorable Circuit Judges Ambro, Roth and Jordan
....

122a
On behalf of Plaintiffs/Appellants:
....
HORATIO G. MIHET, ESQUIRE (Argued)
....
On behalf of Defendants/Appellees:
JOSHUA M. AUTRY, ESQUIRE (Argued)
....
....
JUDGE JORDAN: Right. So, a person could
panhandle, could ask for money. How about just a
person soliciting business? Suppose that it were an
accountant or heaven forbid a lawyer with leaflets,
saying come use my services, would that be covered
by the ordinance within 15 feet?
MR. AUTRY: It could potentially be
demonstrating, depending on how they're doing it.
JUDGE JORDAN: How could that possibly be
demonstrating? Just handing somebody a leaflet
that says I'd like you to consider my business.
Under
what
possible
definition
is
that
demonstration?
MR. AUTRY: Under that scenario, that would
not be demonstrating.
....
JUDGE

JORDAN:

But

the

same

person

123a
couldn't—
....
—do that right? Couldn't hand out a leaflet that
said don't go in there because this is an abortion
clinic, that's covered.
MR. AUTRY: I believe that would be covered,
Your Honor.
(Circuit Court Joint Appendix Pages
JA154–55,160.)

124a
EXCERPTS FROM
HARRISBURG POLICE DISPATCH
INCIDENT REPORT DATED JULY 2, 2014,
FILED OCTOBER 28, 2017
....
DISPATCH INCIDENT: 20140700292 HBG
....
COMMENTS
PROTESTOR IN FRONT OF THE PLANNED
PARENTHOOD
OFFICE
HANDING
OUT
LITERATURE AND TALKING TO CLIENTS
COMING INTO THE OFFICE.
COLLEEN REILLY . . . WAS ADVISED OF THE
ORDINANCE ON PROTESTING IN FRONT OF
THESE CLINICS AND THE BUFFER ZONE
RELATED TO THE ORDINANCE.
STAFF INSIDE THE OFFICE ADVISED THAT
SHE WAS NEW PROTESTOR SO WE JUST
GAVE AN ADVISEMENT AND A WARNING
THAT SHE WOULD BE CITED IF SHE
VIOLATES THE ORDINANCE IN THE FUTURE.
MS. REILLY DID LEAVE THE AREA WHILE WE
WERE STILL ON SCENE.
(Circuit Court Joint Appendix Page JA165.)

125a
EXCERPTS FROM TRANSCRIPT OF
PRELIMINARY INJUNCTION HEARING IN
THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA ON OCTOBER 31 AND
NOVEMBER 1, 2017,
FILED NOVEMBER 21, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA
HARRISBURG DIVISION
CASE NO. 1:16-CV-00510
COLLEEN REILLY, ET AL
v.
CITY OF HARRISBURG, ET AL
TRANSCRIPT OF PROCEEDINGS
PRELIMINARY INJUNCTION
DAY I OF II
Held before the HONORABLE SYLVIA H. RAMBO
October 31, 2017 . . . .
APPEARANCES:
ROGER K. GANNAM, ESQUIRE
HORATIO G. MIHET, ESQUIRE
....
For the Plaintiffs

126a
....
FRANK J. LAVERY, JR., ESQUIRE
JOSHUA M. AUTRY, ESQUIRE
....
For the Defendants
....
BY MR. GANNAM:
Q. Good afternoon, Mr. Grover.
A. Good afternoon, counsel.
....
Q. . . . . [I]f a pro-life sidewalk counselor wants to
stand next to a woman in the public sidewalk, a
woman who's approaching that clinic, doesn't this
buffer zone prevent that contact, that standing next
to each other as long as it's within the area
designated by the buffer zone?
A. Sure, sure. It prevents them from being in the
buffer zone and doing what they want. But you
don't make rules for the people that are quiet and
peaceful. . . .
....
....

127a
DAY II OF II
....
November 1, 2017 . . . .
....
BY MR. LAVERY:
Q. What did you do there?
[PETITIONER BITER:]
A. She started to weep. And I was trying to console
her from the street. And I couldn't hear what she
was saying because she was crying, so I got closer.
Q. Okay. And is anybody stopping you from doing
that?
A. No.
Q. And you got closer to her, correct?
A. Correct. I asked if I could hug her, and she said,
yes.
Q. You actually went up and hugged her, correct?
A. I did. And we prayed.
....
Q. Okay. And it's your sworn testimony that's the
only time you ever violated that buffer zone,
correct?

128a

A. Yes.
....
Q. You said you don't break the law, but you did
there; correct?
A. That was the only time I did that.
....
BY MR. GANNAM:
Q. Good afternoon, Ms. Reilly. When did you first
start getting involved in pro-life advocacy or
ministry?
A. In 1989.
....
Q. And where in Harrisburg have you engaged in
pro-life advocacy?
A. There at Hillcrest. I did sidewalk counseling at
Hillcrest and later on at Planned Parenthood.
....
Q. When you say sidewalk counseling, what does
that mean to you?
A. I offer alternatives to women going in,
literature, and talk to them if they'll stop and talk

129a
to me.
Q. And in the method—as you see sidewalk
counseling, is it important that you be able to get
up close to a woman whom you're talking to?
A. Yes, definitely.
....
Q. And the first time you went to Planned
Parenthood, I believe you said it was July of 2014;
is that correct?
A. Right.
Q. And can you explain what happened when you
got there?
A. I was there for a short time, and then two police
cars drove up. And one of them went into Planned
Parenthood, and then she came out, and she said to
me, you're new here, aren't you? I said, yes. She
said, well, an ordinance has been passed, and you
have to stay 25 to 30 feet from the door and the
driveway.
....
MR. GANNAM: Your Honor, our final evidence
we want to present is to read two questions from
the city's 30(b)(6) deposition that was offered
through City Solicitor Neil Grover. . . .

130a
....
. . . . And may I use my colleague, Mr. Mihet, to
read the question and answer into the record?
....
THE COURT: You may proceed.
....
MR. GANNAM: Question, And just for the
record, you have been designated by counsel for the
city to testify pursuant to this notice regarding . . .
the numbered topics, Number 1, the City's
interpretation, application, and enforcement of the
ordinance . . . . Is that understanding correct, that
you've been designated to testify regarding those
matters?
MR. MIHET: Answer, It is . . . .
MR. GANNAM: . . . . Question, But generally
speaking, if two persons are having a conversation
walking side-by-side, moving in the same direction,
and not stopping, would that be considered
congregating?
MR. MIHET: Answer, If two people were
walking in the same direction and, let's say, they're
walking parallel to the building entrance on Second
Street, and they're talking about, you know, that
they're—you know, good morning, good afternoon,
whatever, I don't know if those people would be

131a
considered congregating by any definition. If two
people were talking about anything of substance, I
think the answer is, they're congregating.
(Circuit Court Joint Appendix Pages JA279, JA358,
JA369, JA420, JA485–87, JA524–26JA541–43.)

